<html>
<title> - [H.A.S.C. No. 112-8]BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                          [H.A.S.C. No. 112-8]


                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON
 
             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                              MARCH 1, 2011


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES




                  U.S. GOVERNMENT PRINTING OFFICE
65-108                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Heath Bope, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                 Mary Kate Cunningham, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 1, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request from the Department of the Navy...     1

Appendix:

Tuesday, March 1, 2011...........................................    53
                              ----------                              

                         TUESDAY, MARCH 1, 2011
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Amos, Gen. James F., USMC, Commandant of the Marine Corps........     8
Mabus, Hon. Ray, Secretary of the Navy...........................     3
Roughead, ADM Gary, USN, Chief of Naval Operations...............     6

                                APPENDIX

Prepared Statements:

    Amos, Gen. James F...........................................   123
    Mabus, Hon. Ray..............................................    57
    Roughead, ADM Gary...........................................    97

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................   155
    Mr. Langevin.................................................   156
    Mr. Larsen...................................................   156
    Mr. Smith....................................................   155

Questions Submitted by Members Post Hearing:

    Mr. Akin.....................................................   166
    Ms. Bordallo.................................................   171
    Mr. Coffman..................................................   191
    Mr. Conaway..................................................   187
    Mr. Forbes...................................................   173
    Mr. Franks...................................................   185
    Ms. Giffords.................................................   174
    Mrs. Hartzler................................................   195
    Mr. Hunter...................................................   191
    Mr. Kissell..................................................   176
    Mr. McKeon...................................................   159
    Mr. Miller...................................................   175
    Mr. Palazzo..................................................   196
    Mr. Smith....................................................   166
    Ms. Sutton...................................................   179
    Mr. Turner...................................................   180
    Mr. West.....................................................   197
    Mr. Wilson...................................................   178
    Mr. Wittman..................................................   189
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 1, 2011.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning, ladies and gentlemen. Thank you 
for joining us today as we consider the President's fiscal year 
2012 budget request for the Department of the Navy. Secretary 
Mabus, Admiral Roughead, good to have you here again. General 
Amos, welcome for your first hearing here as Commandant. Glad 
to have you.
    We want to thank all of you men for the tremendous service 
you have performed for our country and for those that wear the 
uniform behind you, and behind you, elsewhere around the 
country, around the world. As we review your budget requests 
and reconcile it with the larger DOD [Department of Defense] 
efficiencies initiative, we can see in many ways the Department 
of Navy gained capabilities.
    However, I remain concerned that this request does not 
fully provide for the Navy and the Marine Corps. I support 
efforts to identify savings and reinvest those dollars in the 
critical force structure and modernization. But many of the 
efficiencies identified by your department are cost avoidance 
initiatives and not clear-cut savings. As such, we are 
concerned that they in fact materialize.
    Furthermore, over the 5-year period that this budget 
request covers, your Department harvested over 42 billion in 
so-called efficiencies yet had to sacrifice approximately $16 
billion of that amount or 38 percent back to the Treasury. In 
order to generate much of the savings, you have been compelled 
to make significant force structure cuts. But your requirements 
haven't changed.
    For example, the amphibious assault mission remains valid 
but you cancelled the Expeditionary Fighting Vehicle. Likewise, 
the strike fighter inventory requirement to support the current 
National Defense Strategy's 10 aircraft carrier air wings 
containing 50 strike fighter aircraft each.
    We do not currently meet this requirement but the budget 
request puts the F-35B Joint Strike Fighter on a 2-year 
probation and you have shuttered an aircraft carrier air wing. 
Similarly, the budget request assumes savings as a result of a 
decrease in the Marine Corps and end strength of 20,000 
personnel before the Marine Corps could even complete its force 
structure review. Now, the Marine Corps suggests they cannot 
live with that number. It can only reduce end strength by 
15,000.
    Finally, you proposed to design the Ohio-class replacement 
ballistic submarine with fewer missile tubes than envisioned by 
the New START [Strategic Arms Reduction Treaty] Treaty or 
STRATCOM [United States Strategic Command]. Adding to my 
concern is that the current battle force inventory is at least 
25 ships below your stated 313-ship floor. Although we have not 
seen the results of the force structure assessment you 
indicated was underway last year, one can only imagine that the 
requirements for ships will grow as missions such as anti-
piracy and sea-based missile defense expand.
    Just in time replacements for legacy force structure such 
as the Ford-class aircraft carrier program and the Joint Strike 
Fighter program are currently behind schedule and over cost, 
causing even more resources to be required to sustain legacy 
platforms. Your department gives this nation the most flexible 
and lethal projection of power of any country in the world. It 
is imperative that we sustain and maintain a robust and 
effective fighting force borne from the sea and that we provide 
you with sufficient resources to do that, which includes 
finishing the fiscal year 2011 Defense appropriations.
    As you know that we are really working together to try to 
see that happen, it is not going to happen this week. But 
hopefully in the ongoing discussions we can bring that to a 
good conclusion.
    Ranking Member Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here this morning and 
for your service to our country. And we are in a very, very 
challenging budget environment. Short-term, we need to get 
something done for fiscal year 2011. I know the pressure that 
has put on you; it is always helpful to hear specifics about 
that.
    So during your testimony today, it would be good to hear 
more about sort of what the C.R. [Continuing Resolution] means 
in terms of limiting your ability to operate, hopefully to spur 
us all to get that done so that we can have an actual 
appropriations bill for the Department of Defense. We know that 
impacts you in many ways. And then beyond that, even once we 
get through the last 7 months of 2011, and going forward, we 
face enormous budget challenges across the whole of government 
and certainly that will have some impact on the Department of 
Defense. So, we are anxious to hear how you plan to manage 
those.
    And the Navy and the Marine Corps are in a sort of a unique 
position. You are the main upfront projection of our power. The 
main point of the Navy and Marine Corps is to be ready to go 
anywhere anytime, often with very little notice. So that 
preparation requires, you know, a broader array of preparation 
to make sure that we are ready for whatever comes at us.
    You have all done that very, very well in the past. And in 
the future, there will be many more challenges along those 
lines. We continue to have the problems of piracy. The 
disruption in the Middle East could give rise to any number of 
different decisions that we have to make in terms of being able 
to get in to that region in a supportive capacity. And, of 
course, there continues to be major challenges in the CENTCOM 
[United States Central Command] AOR [Area of Responsibility] 
that require your services.
    So that ability to project power is critical to our 
national security. Navy and the Marine Corps are a critical 
part of that. So I agree very much with the Chairman's comments 
about, you know, some of the challenges going forward, some of 
the decisions that have been made about which programs to 
continue, which programs to cancel, how to make shifts.
    I look forward to your testimony today, to further explain 
some of those decisions and how exactly they will work out. And 
pretty much along the lines as was what the Chairman said so I 
will not repeat that.
    And I guess the last thing I like to say, you know, we, for 
quite some time in this committee have talked about the number 
of ships that are necessary within the Navy, 313 seems to be 
the magic number. I think it would be helpful for all of us to 
sort of better understand why. You know, what are the 
requirements that have led us to say that 313 is the magic 
number.
    And then the other piece of that, of course, is you have a 
lot of different ships, that are not all created equal, we 
could conceivably have 313 but still not meet your needs if we 
don't have the right types of ship--no, I am sorry, ships. So a 
better understanding of how you see that balance going forward 
would be helpful for the committee.
    And with that, I will yield back and I look forward to your 
testimony.
    And thank you again, Mr. Chairman.
    The Chairman. Thank you.
    Well, we are happy to have the Honorable Ray Mabus, 
Secretary of the Navy; Admiral Gary Roughead, the United States 
Navy, Chief of Naval Operations; General James F. Amos, the 
United States Marine Corps Commandant.
    Mr. Secretary, you will start it out.

       STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

    Secretary Mabus. Mr. Chairman, Ranking Member Smith, 
members of the committee, I have the honor of appearing here 
today on behalf of the sailors, Marines and civilians that make 
up the Department of the Navy.
    I want to mention the absence of Representative Gabby 
Giffords, who were it not for the senseless act in January, 
would be here with us today. She is a member of the Navy family 
and been a true friend of the Navy and Marine Corps throughout 
her entire career. And I want to extend the thoughts and the 
prayers of everybody in the Department of the Navy to her and 
to her family as she recovers.
    Today, the Navy and Marine Corps are conducting missions 
across the full range of military operations. They remain the 
most formidable expeditionary fighting force the world has ever 
known. And with your support, they will continue to meet the 
multiplicity of missions entrusted to them by our nation.
    Today as the Chairman and the Ranking Member pointed out, 
we face an immediate crisis, the absence of a Defense 
Appropriations Bill and the increasingly serious problems of 
operating under a continuing resolution. The pressure of the 
C.R. has already significantly impacted procurement and reduced 
the resources available to maintain readiness.
    If the C.R. continues for the entire year, we will be 
forced to reduce aircraft flight hours and ship steaming days, 
cancel up to 29 of 85 surface ship maintenance availabilities, 
to defer maintenance on as many as 70 aircraft and 290 aircraft 
engines, defer up to 140 maintenance and construction projects 
across this country.
    In addition, the lack of legislative action will prevent 
the construction of one Virginia-class submarine, two Arleigh 
Burke destroyers and one mobile landing platform, prevent 
procurement of two nuclear reactor cores and delay increased 
funding for the Ohio-class replacement.
    Reduce Marine Corps procurement up to a third after 
rebalancing the Marine Corps manpower counts, create a $4.6 
billion shortfall in operation and maintenance accounts, and 
create nearly a $600 million shortfall in combined Navy and 
Marine Corps manpower accounts. These measures will not only 
place additional stress on the force and our family, they will 
weaken the industrial base and affect over 10,000 private 
sector jobs.
    The disruption to our fleet and to our shore maintenance 
and modernization schedules may take years to recover from and 
will come at a much greater cost. We strongly request 
congressional action to address the implications of this 
continuing resolution. This is particularly important when 
considering submission of the fiscal year 2012 budget request 
which was based on the fiscal year 2011 request.
    The fiscal year 2012 President's budget request of $161 
billion, an increase of only 0.5 percent over fiscal year 2011, 
includes funds for 10 aircraft--for 10 ships and 223 aircraft. 
It maintains our commitment to take care of our people, build a 
strong R&D [Research and Development] and industrial based and 
grow the fleet.
    The $15 billion request for overseas contingency operations 
which represents a drop of $3.5 billion from fiscal year 2011 
includes funds to sustain operations, manpower, infrastructure 
as well as procure equipment and support operations in 
Afghanistan. During the development of this budget, we were 
keenly aware of the fiscal position of the country and the 
necessity to be responsible stewards of taxpayer dollars.
    The resulting request is a strategy-driven document 
informed by fiscal realities. It balances competing 
requirements and tries to do what is best for the country, the 
Navy, the Marine Corps and our sailors and Marines. We began 
this budget cycle by examining every aspect of what we do and 
how we do it.
    Consequently, $42 billion in the Department of the Navy 
efficiencies were identified over the 5 years. As a result, we 
had been able to add one Aegis-class destroyer, three TAO(X) 
fleet oilers, one T-AGOS ocean surveillance ship to our 
shipbuilding plan. With our dual-block LCS [Littoral Combat 
Ship] strategy, this increases the total number of ships over 
the next 5 years from 50 to 56, including one Joint High Speed 
Vessel to be built for the Army.
    The savings also allows us to buy additional F/A-18s, 
extend the service life of up to 150 legacy aircraft as a hedge 
against delays and the deployment of the F-35B and allow us to 
continue investing in unmanned systems which are becoming 
increasingly important on the battlefield and unmatched in 
their ability to covertly surveil hostile forces without 
placing our own people at risk.
    This upcoming year, we will see deployment of the Fire 
Scout to Afghanistan and continued testing of the UCAS-D 
[Unmanned Combat Air System Demonstrator], the forerunner of an 
integrated carrier launch strike system. In 2010, one of the 
most important efforts was the decision endorsed by Congress to 
pursue the new Littoral Combat Ship through a dual-block buy 
strategy.
    At an average cost of less than $440 million per ship and 
with the cost reductions we have seen on LCS-3 and 4, the new 
strategy will save taxpayers $2.9 billion. This plan is one 
that is good for the Navy, good for taxpayers, good for the 
country and demonstrates what can accomplished when sound 
acquisition principles are followed and enforced.
    We heard the message from Congress very clearly. We need 
more ships but they have to be affordable. The LCS strategy 
supports the industrial base by keeping workers employed at two 
shipyards and is indicative of the Department's push to ensure 
acquisitions excellence.
    The fixed price contracts used for LCS are our model. They 
are the result of effective competition and give the government 
full ownership of the technical data packages in construction 
and afford greater Congressional oversight. With the new LCS 
strategy, we get more ships more quickly, more affordably.
    Significant additional savings were also achieved through 
terminating the Expeditionary Fighting Vehicle. It is important 
to emphasize that this decision in no way changes our nation's 
commitment to amphibious warfare or on amphibious assault 
capability.
    We have to maintain an amphibious assault capability that 
will put Marines ashore, ready for the fight. But the EFV 
[Expeditionary Fighting Vehicle] is not the vehicle to do this. 
Conceived in the 1980s, the EFV was a previous-generation 
solution to a tactical problem that has since fundamentally 
changed. And its cost per unit would have consumed half that 
Corps' total procurement and 90 percent of its vehicle-related 
operation and maintenance account. We simply cannot afford it.
    In aviation programs, we are also closely monitoring the 
Joint Strike Fighter, particularly the Marine Corps variant, 
the B. After a 2-year period of focused scrutiny, we will make 
an informal recommendation about resolving the technical and 
cost issues. Ashore, we continue to confront rising health care 
cost caused by an increasing number of beneficiaries, expanded 
benefits and increased utilization.
    To deal with these trends, we have to implement systematic 
efficiencies and specific initiatives that improve the quality 
of care and customer satisfaction but at the same time more 
responsibly managed cost. We concur with the recommendations 
made by the Secretary of Defense to ensure fiscal solvency and 
benefit equity for our retirees.
    Finally, we are continuing efforts to invest in and develop 
alternative energy. The latest headlines from around the world 
reinforce our basic point--energy is first and foremost an 
issue of national security. We can't allow volatile regions of 
the world to control the price and affect the supply of the 
fuel that we use.
    Last year--the Navy and Marine Corps took some huge steps 
forward including flying the F/A-18 Hornet on biofuel, 
conducting a large scale of expansion of solar power and 
beginning expeditionary initiatives, efficiencies and 
initiatives in Afghanistan.
    What we are doing there is already saving lives as we 
reduce our reliance on imported fuel. We will continue these 
investments this year. And we will continue to move forward 
toward our goal of at least 50 percent alternative energies by 
2020.
    In closing, it is a solemn privilege to lead the naval 
services during an era of protracted war and of national 
challenge. I have been honored by the trust the President and 
Congress have placed in me and profoundly moved by the 
sacrifice and devotion I have witnessed in the sailors and 
Marines who defend us.
    The Navy and Marine Corps are and will remain ready to do 
any mission America gives them.
    Thank you and Godspeed.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 57.]
    The Chairman. Thank you very much, Mr. Secretary.
    Admiral.

 STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you very much, Mr. Chairman.
    Chairman McKeon, and Ranking Member Smith, and members of 
the Committee, it is my honor to appear before you in my fourth 
year as the Chief of Naval Operations, representing more than 
600,000 sailors, Navy civilians and their families who operate 
and live globally.
    I appreciate your continued support for them and their 
families as they continue to carry out our maritime strategy. 
I, too, would like to echo the Secretary's comments and 
thoughts with regard to Representative Giffords; all of us who 
served wish her the very best and a speedy recovery.
    Our Navy continues to meet operational commitments and 
respond to crises as they emerge. We are engaged in Iraq and 
Afghanistan with 14,000 sailors on the ground and another 
14,000 at sea in the region. Thirty percent of the air support 
over Afghanistan flies off the decks of our aircraft carriers. 
But our presence in the Middle East also gives us the 
flexibility to respond to the sweeping changes that we see 
taking place there.
    But our interests extend far beyond that and so do our 
operations. Today, we have approximately 65,000 sailors 
deployed at about 40 percent of our force structures.
    We are globally present and we are persistently engaged. We 
provide deterrence in Northeast Asia and a presence in the 
Western Pacific. We conduct counter-piracy operations in the 
Indian Ocean and we are building maritime partnerships in 
Africa, South America and the Pacific.
    The demand continues to grow for the offshore option our 
Navy and Marine Corps team provides the nation. We assume the 
lead for the first phase of the phased, adaptive approach for 
ballistic missile defense in Europe and we are working with the 
Missile Defense Agency on providing that same capability 
ashore.
    We have created the new information directorate on my staff 
and that has enabled us to make better decisions and 
investments in countering anti-access and area-denial threats. 
We have recently established the 10th fleet, our cyber fleet, 
and it's already demonstrated its expertise by conducting joint 
and naval operations in the cyber network cryptology and space 
arenas.
    To deliver the above, we have been pushing the fleet hard. 
We have 288 ships today, the smallest it has been since 1916 
when our interests and responsibilities were nowhere near what 
they are today. And that is why 313 ships remains the floor of 
our future force. It also is why sustaining fleet capacity is 
essential in reaching that floor.
    Since I became CNO [Chief of Naval Operations], I focused 
on ensuring the Navy is ready, that our quality of work and 
quality of life for fulfilling to the men and women of our 
Navy, and that we place underperforming programs back on track. 
We have introduced stability, affordability and capacity into 
our shipbuilding and aviation plans. And with the assistance of 
Congress, we have advanced capabilities to meet the most likely 
evolving threats.
    We have secured as the Secretary mentioned the fixed-price 
dual award for 20 Littoral Combat Ships. We have addressed our 
strike fighter capacity with a multi-year F/A-18 procurement. 
Pending resolution of the continuing resolution, we will build 
two Virginia-class submarines per year, another guided missile 
destroyer. We will start the mobile landing platform, construct 
and refuel our aircraft carriers as planned, and continued the 
design of our replacement strategic deterrence submarine.
    I am pleased with our accomplishments and I thank the 
Congress for their continued support of our acquisition 
strategies. Our fiscal year 12 budget request is a balanced 
approach to increasing fleet capacity, maintaining warfighting 
readiness, and developing, and enhancing our Navy total force.
    The budget goes beyond ships and aircraft. It enhances 
electronic warfare, information dominance, integrated air and 
missile defense, and anti-submarine warfare capabilities for 
the evolving challenges.
    It continues to develop a family of unmanned systems that 
will work in concert with our manned systems to secure access 
and establish maritime superiority when and where we choose. It 
continues our effort over the last 2 years to reduce total 
ownership costs and leverages the opportunity presented by the 
Secretary of Defense's efficiency initiative to reduce excess 
overhead, improve readiness, and reinvest in warfighting 
capability and capacity that improves the long-term 
sustainability of our force.
    Importantly, it supports the Secretary of Defense's health 
care initiatives included in the President's budget, which 
continue our efforts in health care to improve internal 
efficiency, incentivize behavior, and ensure all our 
beneficiaries are treated equitably.
    We are seeing high satisfaction with our medical home port 
initiative. And I am comfortable with the changes to propose 
fees and co-payments including indexing enrollment fees to a 
medical inflation index, incentivizing beneficiaries to use the 
most cost-effective prescription delivery methods and the 
elimination of sole community hospital status.
    These are gradual, fair, and equitable changes that enhance 
our ability to deliver high-quality health care for years to 
come. You can be exceptionally proud of our sailors and Navy 
civilians, who they are, and what they do. Today, sailors are 
the best with whom I have ever served.
    I ask for your strong support of our fiscal year 2012 
budget request. And I thank you for all you do to support the 
men and women who make our Navy the enduring global force for 
good. I look forward to your questions.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 97.]
    The Chairman. Thank you, Admiral.
    General.

STATEMENT OF GEN. JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Chairman McKeon, Ranking Member Smith, and 
members of the committee, it is my honor to appear before you 
today for the first time as the commandant of the Marine Corps 
to articulate the posture of your Corps. Today, the Corps 
serves as America's Expeditionary Force-in-Readiness, a 
balanced air-ground logistics team of 202,000 active, 39,600 
reserve, and 35,000 civilian Marines.
    Our ability to serve as our nation's principal crisis 
response force is due in large part to this committee's and 
Congress's strident continued strong support. I thank you for 
that.
    Today, there are roughly 32,000 Marines forward deployed 
around the world. As we sit here, it is roughly 7:50 in the 
morning, excuse me, in the evening, in Afghanistan. The rainy 
season has hit. The evenings remain cold and damp. It is in 
this nation where 20,000 of our young men and women are engaged 
in full spectrum combat operations and counterinsurgency 
operations.
    I am encouraged by the significant progress that they have 
made in the Helmand province. And you have my assurance that 
this effort remains my top priority. Sergeant Major Kent and I 
spent Christmas with our Marines and our sailors in 
Afghanistan. I am happy to report that their morale is high and 
belief in their mission remained strong.
    Partnered with the United States Navy, we are forward-
deployed and forward-engaged. This past year alone, our afloat 
forces conducted humanitarian assistance missions in Pakistan, 
Haiti, and the Philippines.
    We recaptured the pirated ship, Magellan Star, rescuing its 
crew from Somali pirates, and partnered with allied forces in 
engagement missions in the Pacific Rim, Latin America, Africa, 
and throughout Eastern Europe.
    Halfway around the world this morning, Marines are ready, 
honing their skills on board our Navy's great capital ships, 
prepared to do our nation's bidding. Such a role as America's 
crisis response force necessitates that we maintain a high 
state of readiness.
    We are either ready to respond to today's crisis, with 
today's force, today, and thus--or you risk being late and thus 
being irrelevant. I am keenly aware of the fiscal realities 
confronting our nation. During these times of constrained 
resources, the Marine Corps remains committed to being the best 
stewards of scarce public funds.
    We maintain a longstanding tradition in Congress as the 
Department of Defense's penny-pinchers. Our institutionalized 
culture of frugality positions us as the best value for the 
defense dollar. For approximately 8.5 percent of the annual 
defense budget, the Marine Corps provides the nation 31 percent 
of its ground operating forces, 12 percent of its fixed-wing 
tactical aircraft, and 19 percent of its attack helicopters.
    This year's budget submission was framed by my force 
service level priorities. We will, number one, continue to 
provide the best trained and equipped Marine units to 
Afghanistan. Two, rebalance our Corps and posture it for the 
future. Three, better educate and train our Marines to succeed 
in increasingly complex environments. And four, finally, keep 
faith with our Marines, our sailors, and our families. While 
these priorities will guide our long-term plan for the Marine 
Corps, there are nonetheless pressing issues facing our Corps 
today that concern me, issues for which I ask Congress's 
continued assistance in solving.
    Our equipment abroad and at home stations has been heavily 
taxed in the nearly 10 years of constant combat operations. The 
price tag for reset is $10.6 billion of which $3.1 billion has 
been requested in fiscal year 2011 and $2.5 billion is being 
sought in fiscal year 2012. The remaining $5 billion bill will 
be needed upon the completion of our mission in Afghanistan.
    The F-35B STOVL [Short Take Off and Vertical Landing] Joint 
Strike Fighter is vital to our ability to conduct expeditionary 
operations. Continued funding and support from Congress for 
this program is of utmost importance. During the next 2 years 
of F-35B scrutiny, I will be personally involved with the 
program and closely supervising it as the commandant of the 
Marine Corps.
    Both the Secretary of Defense and the Secretary of the Navy 
have reaffirmed the necessity of the Marine Corps' amphibious 
assault mission. We must develop an affordable and capable 
amphibious combat vehicle to project Marines from sea, to land, 
in permissive, uncertain and hostile environments. I ask for 
your support to reach this goal.
    To ensure that the Marine Corps remains a relevant force 
with the capacity and capability to respond to the demands of 
the future security environment, we recently conducted a 
detailed and internally driven force structure review. The 
results of this effort provide America a strategically mobile 
middleweight force optimized for forward presence and rapid 
crisis response.
    As we look to the future of the Marine Corps, it is 
committed to finding ways to be more energy efficient. Since 
2009, we have aggressively pursued energy-efficient 
capabilities that will make Marine units more energy self-
sufficient, increase our combat effectiveness, and protect our 
lives.
    Two weeks ago, I signed our new bases-to-battlefield energy 
planning guidance, which sets goals and metrics in a plan to 
implement just that. Finally, I would like to comment on the 
impact the current continuing resolution has had on our 
operations and programs.
    As of today, $565 million in military construction 
contracts have not been awarded. $2.4 billion of MILCON 
[Military Construction] is at risk for the remainder of the 
year for the Marine Corps. These projects impact the lives of 
Marines, the local economies of the communities around our 
bases and stations, and are projected to generate over 63,000 
jobs from the Carolinas to Hawaii.
    If the continuing resolution extends through the entire 
fiscal year, 13 bachelor enlisted quarters, totaling 5,000 
affected spaces, will not be built, thus stymieing our BEQ 
[Bachelor Enlisted Quarters] modernization efforts. These 13 
bachelor enlisted quarters will allow eight infantry battalions 
to move out of 50-year-old Cold War barracks. Finally, a 
continuing resolution could prove catastrophic to our 
procurement accounts, resulting in a loss of almost a third of 
our procurement budget.
    Lastly, you have my promise that in these challenging times 
ahead, the Marine Corps will only ask for what it needs, not 
what it might want. We will make the hard decisions before 
coming to Congress and we will redouble our efforts toward our 
traditional culture of frugality. As has been the case for over 
235 years, your Marine Corps stands ready to respond when the 
nation calls whoever the President may direct.
    Once again, I thank each of you for your continued support. 
I ask that my written testimony be submitted for the record. 
And I am prepared to answer your questions, Mr. Chairman.
    [The prepared statement of General Amos can be found in the 
Appendix on page 123.]
    The Chairman. Thank you, General.
    Thank you to each of you. Just a couple of things on the 
C.R. If that had been taken care of last year on regular order, 
we wouldn't even be discussing it now, but it is what is. And I 
know we're, all of the members on this committee in strong 
support of getting this work finished up.
    In the process of the C.R., the appropriators and the 
leadership have separated out the defense and they are working 
to bring that to a resolution and then all the other issues 
will be dealt with in one large omnibus package. But the 
defense, we are trying to finish up that appropriation bill. 
And I know every week that goes by, it causes more problems. 
So, hopefully we can get that wrapped up quickly.
    General, I just returned. Mr. Reyes and Mr. Kline and 
myself went to Afghanistan. I know other members of the 
committee have just returned over the last break from 
Afghanistan, and I was very impressed with the morale of the 
Marines down at Marja and in the south down there with the job 
that they have done.
    And those young captains were so excited to show us what 
they were doing and what they had accomplished, and I was 
really impressed by their attitude, by their professionalism, 
and by the way that they are carrying out their 
responsibilities.
    And it was just--it was a great experience for me. And I 
saw a lot of progress from a year-and-a-half ago to now, when 
the Marines had just gotten to Camp Leatherneck were just 
starting to move out to where, now, they have freed up most of 
that area and done an outstanding job.
    The concern I have and I mentioned it in my opening 
statement, the out-years Department of the Navy budget plans 
for the Marine Corps end strength of 182,000 personnel. 
However, the Marine Corps force structure assessment just 
released states a requirement for an end strength 5,000 
personnel over that amount. What is your out-year budgeting 
strategy for adding back the additional $500 million required 
to accommodate an additional 5,000 personnel?
    General Amos. Congressman, that--as you recall that sits 
out there in year 2015 and 2016, is when the budget was 
adjusted and it was 10,000 a year, that was the drawdown. That 
was proposed at the time. Now there is recognition within the 
Department of Defense that it is not 20,000.
    What I have asked our leadership to allow me to meter down 
that manpower to avoid reductions in forces and keep faith--my 
last priority, keep faith with my families and sailors and our 
Marines. So, yet to be seen precisely how that drawdown will 
take place.
    The Secretary of Defense and the Secretary of the Navy have 
assured me that it will be conditions-based. In other words, it 
is designed to be post-Afghanistan when the Marines are out of 
Afghanistan. So, based on that, there will probably be some 
adjustments as we move in to POM [Program Objective Memorandum] 
2013 and POM 2014 as we work those budgets.
    So, right now, we don't have as you note, we don't have the 
solution to that 5,000 yet. But we will be working that as we 
build the 2013 budget and as we build the 2014 budget, sir.
    The Chairman. I understand it is very difficult for us to 
look out a year, especially when we haven't even finished up 
last year's work. So, it is difficult. But I have heard also 
that that is conditions-based. And we will just take care of 
this 1 year at a time as best we can.
    On the SSBNX [Next-generation Ballistic Missile Submarine] 
program, the Navy has determined that designing an Ohio-class 
ballistic missile replacement submarine with 16 missile tubes 
is more affordable than designing it for the current missile 
requirement of 20 missile tubes per submarine.
    You know, one of the things I am really concerned about is 
we have just eliminated the EFV. We have eliminated most of 
what we had planned for in the F-22s. When I first came here, 
we had out the B2 from a 130 to 20 and there have been a lot of 
programs started. And the excuse for eliminating the EFV is 
because now we can't afford it.
    Well, I don't know when we determine that, because we have 
been working on it for 20 years. What my concern is now on this 
submarine program, is that 20 years from now, are we--I mean, 
if you look at it right now and realistically look at the 
budget, we are not going to be able to afford it even at this 
reduced number of 16 silos.
    Are we? Or do you feel that that will be affordable with 
all the other things that are needed for the Navy?
    Secretary Mabus. Mr. Chairman, as we have looked forward, 
as you know, the Ohio-class replacement, we have to start 
building in 2019 to go on patrol in 2029, its first patrol. So 
what we are doing today is trying to come up with the best R&D, 
the best design that we can and to get the cost into a 
manageable range.
    We have taken a billion dollars per boat out within the 
last year and we are looking for another half billion per boat. 
And the reason for that is twofold--one is to give us the best 
deterrent capability, because the Ohio class and its 
replacement are the most survivable legs of the nuclear triad. 
But it is also to keep from hollowing out our fleet, as we 
start to build these replacement submarines, because they do 
take such a large part of our shipbuilding budget, and to show 
what that will do in our long-range plans.
    We have--one of the things that I have committed to and I 
think we stuck to is to be very realistic in terms of how much 
something will cost. How much we can anticipate the--a range 
that we can anticipate that Congress will provide for 
shipbuilding and to work within those means.
    But I do think that the Ohio-class replacement that we are 
designing will be, well, it is absolutely necessary and we need 
to make it affordable so that we can both have that deterrence 
and also have the rest of the fleet that we are going to need 
in the next 20, 30, 40 years.
    The Chairman. I think we are in on an agreement on the 
need. What my concern is that somewhere down the line, I mean, 
one of the ways we got the billion dollar saving is just cut it 
from 20 to 16 tubes. We cut the capability of the ship to save 
money. And that makes me a little nervous about how we are 
going to be able to really provide all of our needs. It is just 
across the board I see our defense needs being driven by 
budgetary concerns rather than to meet potential crises that 
might confront us at some point down the line.
    Secretary Mabus. The number of tubes designed in today for 
the Ohio-class replacement meets every contingency that we know 
of today. It meets every targeting design that we will be 
tasked with.
    We also--as technology changes we are able to reduce the 
number of those submarines from 14 to 12 because now we are--we 
will be building a life of a hull reactor so that there won't 
be the need to pull two submarines at a time out for a 
refueling. They would be able to stay on patrol for their 
entire lifetimes without refueling. So, as the technology 
changes, we will absolutely meet the needs, but try to do it 
within the fiscal realities that we confront.
    The Chairman. Thank you. Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman. I certainly appreciate 
the difficulties of operating under a C.R. and the 2011 budget. 
And to share the Chairman's concerns, I want to make sure we go 
forward. It is worth pointing out that the House did in fact 
pass a 2011 defense appropriations bill. Also worth pointing 
out, actually, that the Senate, on more than one occasion, had 
a defense and appropriations bills as well. But the filibuster 
is a very powerful tool to stop things from happening.
    One of the things that I am committed to, this whole 
committee is committed to is working together across party 
lines to get something done. But certainly the House fulfilled 
its obligation and we are trying to get the appropriations bill 
done still. We are going to work together to make that happen.
    And also I want to say I was in Afghanistan at the end of 
November and was very, very impressed with what the Marine 
Corps has accomplished. We were taken down to Helmand Province, 
walked to a village down there that you know a mere matter of 
months before no one could have walked through safely and we 
were able to do that, meet with the village leaders down there. 
The Marine Corps has done a fabulous job you know taking back 
territory and making a real difference and at a very high cost 
as well, which we are all aware--so, we thank you for your 
leadership and we thank all the Marines in Helmand for their 
incredible service to our country and moving that forward.
    On the budget question, I think I share the Chairman's 
concerns you know broadly going forward how are we going to 
meet the requirements that are out there? One thing that I hope 
that you all would do, and everyone working on the Department 
of Defense issues on this point forward, is go back and look at 
the requirements very closely. I think that is really the key 
to making a fit within the budget.
    You know what are the requirements that have been there for 
a long, long time and are just still sort of there because they 
have always been there? And what are the real requirements in 
the 21st century for what we are going to need to meet our 
national security needs? I think that is going to be a big part 
of the challenge, to make sure that we can fund what we need to 
fund by making sure that we are not funding things that we 
don't need to fund.
    Those are some tough questions that I think the people--you 
know you three are certainly the most qualified people out 
there to answer those questions as are others in the DOD. I 
think we are going to need to take a hard look at that on all 
sides of this equation. So, I hope we will do that.
    I want to thank you also for your kind words on behalf of 
Congresswoman Giffords. We appreciate that. She is getting 
better every day. And we are really looking forward to the day 
on this committee when she comes back. She is a valuable member 
of this committee, and she will be back soon, back working on 
those issues. So, I appreciate that.
    Also, I am going to ask you a couple of questions that her 
staff has given me about issues that she is concerned about, 
and then I have just one question of my own.
    As you know, Congresswoman Giffords is a leader on 
alternative energy and any energy efficient issues across all 
of government but particularly within the DOD. And the Navy and 
the Marine Corps have been just outstanding leaders on this 
issue.
    On a previous hearing, we discussed a little bit the Marine 
Corps operating base and to figure out a way to better use 
solar power so that they can reduce their fuel consumption. And 
in reducing their fuel consumption, reduce the number of 
shipments that had to be made. And every time, anyone has to 
drive, they are at risk of IEDs [Improvised Explosive Devices] 
so reducing that doesn't just save energy and money, it 
actually saves lives, and we appreciate that leadership.
    And then, of course, we also have the Super Hornet that 
flew with the 50-50 mix of biofuels. I had to call it the Green 
Hornet. The name was just out there. It was very easy and very 
clever. So, we really appreciate your leadership and those 
issues.
    A couple of specific questions, how scalable is all of 
this? Because I think that is one of the blocks that stops 
people from fully embracing alternative energy and energy 
efficiency. It is like, yes, there is a good idea here, a good 
idea there. But what does it really mean? How much does it 
really save?
    I am a true believer, as is Congresswoman Giffords, that if 
we do this and do this aggressively it is very scalable. It can 
save us an enormous amount of money. But can you give us some 
idea of what--where you think this can go? How far can we go 
using alternative fuels? And, Secretary Mabus, if you would 
start off, it would be great.
    Secretary Mabus. I think it is very scalable, Congressman. 
I believe that we will reach our goal of at least 50 percent 
alternative energy or non-fossil fuel energy, both afloat and 
ashore, by 2020. You mentioned the Marines, you know General 
Amos has signed out his plan to aggressively move these things 
forward into the combat zone. We import fuel more than any 
single thing into Afghanistan.
    As you pointed out, we save money by producing energy on 
site. We save lives, because Marines are not guarding fuel 
convoys. And we free up Marines to do what they were sent there 
to do, which is fight or engage or rebuild.
    On the Navy side, we have looked at two things, one is 
energy efficiencies; simply driving down the amount of energy 
that we use. You know things like hull coatings and voyage 
planning tools, things like that. We have also launched our 
first hybrid ship and we are going to do more in terms of 
hybrid drives, using electric drives for lower speeds.
    And those--the Makin Island, our first hybrid ship, in its 
maiden voyage from Mississippi around South America to 
California saved almost $2 million in fuel cost. And so, we 
believe that is very scalable.
    As you said, we have flown the F/A-18 and certified it on a 
50-50 blend of biofuel. And we have also certified our 
helicopters. We have certified our swift boats and we are in 
the process of certifying our large service combatants on 
biofuels.
    We believe that as the market increases, particularly from 
the Navy and Marine Corps, that prices are coming down. We are 
seeing that happening already today. And, that infrastructure 
will be built to support this. So, we think that it is 
absolutely scalable and not only scalable but absolutely 
necessary for our national security.
    Mr. Smith. Great. Gentlemen, do you have anything you wish 
to add?
    Admiral Roughead. Yes, sir. I agree with the Secretary. Two 
years ago, when we established Task Force Energy in the Navy, 
we started looking at where we could go and that led to the 
Green Hornet and to taking our inventory and putting it on 
alternative fuels. I have been very pleased with what I have 
seen. My recent updates indicate to me that it is scalable, 
that costs are coming down.
    I also believe that there is an expanding interest out in 
the commercial sector which is going to be critical and I think 
will be imperative, and that will contribute to bringing these 
costs down.
    We are continuing to press forward with the objectives that 
the Secretary has laid out, and I am encouraged by what I see. 
But I am also encouraged by the energy that our people are 
putting into this. And I think the cultural change is equally 
as important as some of the technical things that we see coming 
along.
    Mr. Smith. That is terrific.
    General Amos. Congressman, the CNO talked about cultural 
change and that is--I think that is really the hinge point 
probably for all services certainly within mine. At the lowest 
level--if you can get the young captains and the corporals 
excited about not having to carry extra batteries up into the 
mountains on patrol, such as in India Company 3rd Battalion 5th 
Marines up in Sangin who have been on a pretty tough fight for 
the last 4 months. They went for 90 days just recharging their 
batteries that we would normally resupply on an almost daily 
basis, just using their solar roll-up blankets that they had, 
to the point where they built their combat outposts and strung 
out all their stuff and then realized they liked it better than 
having generators run and having to haul water and having to 
haul fuel up there and then batteries resupply. So, it is a 
culture change for us. It is catching on.
    Two Fridays ago, I sat with a Marine colonel that had a 
Black Engineer of the Year award and he was the award winner 
from Albany. And he was bragging about this new methane gas 
energy generation capability that they have at Albany. And they 
are using the trash in the dump and using all the land fill and 
then harvesting out the methane to run the generators. But we 
have been doing that at Miramar now for several years, but he 
has taken it to the next step.
    He has captured the exhaust and the heat generated by this 
generator that is run on methane gas to develop steam and 
provide heat for the base. So, it is a culture change. I think 
we are not there yet, but I am very, very encouraged. And my 
sense is that probably all of our services are about ready to 
kind of jump off the edge of this thing. So, I am very 
encouraged by it.
    Mr. Smith. Terrific. Thank you. One question, and you can 
submit it for the record to my staff. You mentioned the other 
services--that was the last question--was how the different 
services are cooperating on this? Because everywhere I go--you 
know Army, Navy, Marine, Air Force--everyone's got sort of 
creative ideas. I wanted--I am curious what sort of synergy is 
going on so that you are learning from each other as you go and 
not duplicating. So if you could just have your staff submit 
something, both to my office and Congresswoman Giffords' 
office, that would be great.
    [The information referred to can be found in the Appendix 
on page 155.]
    Mr. Smith. The only question that I had was on something 
you have mentioned in your testimony about how we changed now 
the aircraft carrier groups; you are reducing the air wings and 
the associated staff. There are 11 aircraft carriers and they 
are going down to 9 strike groups and air wings. And the staff 
and I are not quite clear on exactly how that is going to work 
or what impact that might have on your capability and how you 
feel about how it is going to play out. We understand the 
budget savings, want to make sure it can still work to fully 
support those 11 aircraft carriers.
    Admiral Roughead. Yes, sir. I think a lot of the questions 
that have risen over taking out structure in the Navy really 
gets to some of the headquarters elements that we are talking 
about. As I have looked across the Navy and looked at how we 
were overseeing the operational forces, quite frankly, in my 
opinion, we had too much overhead structure. That structure 
tends to be more senior and, therefore, more expensive.
    But if you look at our ability to still field the 10 
carrier air wings, that is there. What we have done is in the 
submarine community, the destroyer community and the aviation 
community, we have taken out overhead, headquarters, senior 
people so that we could get more junior sailors back at sea in 
positions that really make a difference.
    Mr. Smith. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Bartlett.
    Mr. Bartlett. Thank you. It has all the characteristics of 
a perfect storm. There is general agreement that the world has 
now reached that point that the United States reached 40 years 
ago, that is the peak oil where you have reached the maximum 
ability to produce oil.
    This happens at just the time that the industrialized world 
is struggling to recover from a recession and demanding more 
oil. The developing world led by China and India are demanding 
hugely increased amounts of oil. There is now escalating unrest 
in the Arab world where most of the world's oil reserves are.
    And a couple of weeks ago, WikiLeaks indicated that Saudi 
Arabia has 40 percent less oil reserves than they were 
claiming. That is probably true of most of the OPEC 
[Organization of the Petroleum Exporting Countries] countries 
that we believe increased their projected reserves so that they 
could pump more oil. And all of this is happening at the time 
that the world has quite clearly reached its maximum ability to 
produce oil. We are not going to produce more than about 84, 85 
million barrels a day.
    What is the world's response to this? The leadership in our 
country seems largely unaware of these challenges. We have only 
2 percent of the world's oil. We use 25 percent of the world's 
oil and we are buying reserves nowhere in the world.
    China is now very aggressively buying oil reserves all over 
the world. Why would they do that? In today's market place, 
there is no advantage to owning the reserves, because you can 
go to the global oil auction and buy all the oil that you can 
afford, whether or not you have reserves in your country. We 
buy 25 percent of the world's oil. We have only 2 percent of 
the world's reserves of oil.
    There is only one reason that I could think of that you 
would want to own oil reserves and that is that the time will 
come when you are not going to be willing to share those 
reserves with the rest of the world.
    If that is China's goal, then they need to be able to 
protect the sea lanes. Just a bit ago, they fielded a very 
sophisticated anti-ship missile. We are struggling to develop 
defenses against that.
    Just quite recently we saw their J-20, very large fighter. 
There is a suggestion that it really wasn't designed as a 
fighter aircraft. It was designed to release wave-skimming, 
supersonic anti-ship cruise missiles. What do you make of this 
confluence of events and what contingency plans are you 
pursuing?
    Secretary Mabus. Congressman, on the energy question, I 
think you made the point about not relying on fossil fuels and 
particularly imported fossil fuels more eloquently than I ever 
could. What we are doing is trying to move as rapidly as 
possible, the Navy and the Marine Corps, off dependence on 
fossil fuels, move them to American-based alternative fuels, 
both for expeditionary purposes or afloat purposes and for 
basing purposes.
    We have a goal and we are going to meet it of use--of 
having at least half the Navy and Marine Corps total energy 
coming from non-fossil fuel sources by the year 2020.
    We absolutely think that it is a matter of national 
security, of energy independence that we not be dependent on 
this. It is also simple finances. Every time the cost of oil 
goes up a dollar a barrel, it costs us $31 million. So, if oil 
goes up $30 a barrel, you are talking about spending an 
additional billion dollars just on fuel.
    The Navy has always been a leader in terms of changing the 
types of fuel that we use. We went from sail to coal in the 
1850s, from coal to oil in the early part of the 20th century; 
then, we pioneered nuclear in the 1950s, and we are going to do 
that again. That is our plans, and it is because we need a 
hedge against exactly what you were talking about to maintain 
our warfighting capabilities.
    I would like for the CNO to talk about the specific 
operational things that we are doing about the other part of 
the question.
    Admiral Roughead. Yes, sir. And, thank you for the 
question. And I echo the Secretary's comments on--in what 
really is behind our energy initiatives, it really is an 
operational issue and less a technical issue for me. I mean, it 
is really about how we operate and how unencumbered we can be 
if we get off the foreign oil.
    With regard to the capabilities that are being fielded, you 
cited China; but quite frankly, many of those capabilities tend 
to proliferate today more than they have in the past. So, as I 
look at what we as a Navy must be able to do, it really has a 
global view and not just about China, but in all areas.
    As we look at capabilities that are being developed as we 
have over the years, we look at what are the counters to those, 
what are the strengths that we as a Navy have and we amplify on 
those strengths and we address those areas that we know we want 
to pursue counters to.
    I think in the area of anti-submarine warfare, for example, 
which is one that is--submarines are proliferating globally. 
There is no better anti-submarine warfare weapon than the 
Virginia-class submarine. And that is why we want to get to two 
a year this year. If the C.R. is lifted, we can do that. But 
that is hugely critical.
    We have made significant investments in ballistic missile 
defense, increasing the number of ships in our inventory up to 
41 by the end of this defense plan.
    We also have restructured ourselves within the Navy. We 
have recreated the U.S. 10th Fleet to go after areas of 
electronic warfare, electronic attack and cyber warfare.
    And so, what we have done is we have re-imagined the 
future. We have reinvented ourselves to be able to address 
those challenges that are likely to be occurring in the years 
ahead. Thank you.
    The Chairman. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Gentlemen, welcome and 
thank you for service. I have two main areas that I would like 
for you to address in the 5 minutes allotted to me. As we 
talked the last couple of days about the possibility of a no-
fly zone over Libya and the ability to enforce that, and there 
are a couple of options.
    NATO [North Atlantic Treaty Organization] has been 
mentioned. The United Nations authority is the other. When we 
are talking about the constraints, the uptempo and all the 
things that impact our Navy today, the Navy would be the only 
option to be able to impose that no-fly zone over a place like 
Libya. Am I correct?
    Admiral Roughead. That would depend, Mr. Reyes, on basing 
rights, over flight rights. But to your point, we in the Navy 
don't have to worry about those, because we come from the sea. 
We don't ask permission where we put our airfields. We put them 
where they are needed. So, we are a very good option for that. 
But there are other factors that I think leadership would have 
to take into account.
    Mr. Reyes. Well, my point being--and that--and it goes to 
the question that the Ranking Member talked about in terms of 
going to nine carrier wings versus the 10. When we have 
unexpected emergencies or situations that come up, will--in 
your mind, will we be able to handle those kinds of things 
given the fact that we have these worldwide commitments and, 
basically, the Navy would be the best option in terms of being 
able to project that capability?
    Admiral Roughead. Yes, sir. We are. Today, we have four 
aircraft carriers deployed. Two more are underway. And what we 
do with the fleet is we have it so that it is always forward 
and that we can move those carriers very quickly from one 
region to the other. And that is the beauty of how we have 
designed our fleet response plan.
    So, I feel very comfortable with that. I also believe that 
what we have put in place with respect to our strike fighter 
force, the service life extension on the airplanes, the 
procurement of some additional E and F model Hornets and then 
moving to the Joint Strike Fighter that the Air Force that we 
have, particularly when we coupled with the Marine Corps and 
their Hornet force and what will also be a Joint Strike Fighter 
force that we will be well positioned for the future.
    Mr. Reyes. Okay. Thank you, Admiral. General, I have one 
question. And, again, I was as impressed with the change in 
conditions in Southern Afghanistan particularly in the area 
where the Marines where, we were wondering where they are going 
to be able to take it back. But one of the--we heard a very 
moving story about an IED attack on one of the--one of the 
units and I guess it was the convoy commander that got hit the 
hardest on there. But clearly, one of the big issues which also 
affects the Army is the traumatic brain injury. Can you address 
specifically in terms of the Marine Corps the kinds of programs 
or what you are doing to address TBI [Traumatic Brain Injury]?
    General Amos. Congressman, I would be happy to. This has 
been evolutionary and I know that you are close to General 
Croley when I was the assistant commandant of the Marine Corps. 
We worked for--both General Croley and I worked for 2 years in 
earnest trying to capitalize on all of the latest technology as 
far as being able to determine what is traumatic brain injury, 
what is it, what are the effects of that on that mass inside 
that skull.
    We have come a long way since 2003 when, quite honestly, 
nobody was even talking about TBI. In a nutshell, today, we 
recognize it, we understand some of it, we don't understand all 
of it, but we have taken lessons learned from the National 
Football League, worked very closely with University of 
California, Los Angeles, the head of traumatic brain injury out 
there, Dr. David Hovda and using that as--and bringing in great 
minds across the country that understand this.
    We built about 2 years ago--about a year-and-a-half ago 
what we call a concussive protocol. And what that means is 
recognition first of all that a concussive event of any kind 
that either knocks a Marine down, perhaps, or throws him up 
against the wall, or worse yet, he is standing 5 meters away 
from his buddy that steps on a pressure plated IED that goes 
off, all that has a great effect on the brain. Each brain is 
different. It is affected different.
    So what we have done now using this protocol is we have 
brought every single Marine, and it has happened to every 
single soldier now that this happens to in Afghanistan. You 
enter this protocol. In other words, you have the event. It is 
registered. You come back to your combat outpost, forward 
operating base, wherever you are. You see the corpsman, medic 
in the case of the Army. The next person is the doctor if there 
is one available.
    Depending on the extent of the injuries, we will fly our 
Marines from our forward operating base or combat outpost in 
the Leatherneck and they start this procedure where we do an 
exam of the head. There is a physical examination and then 
there is a cognitive test, a series of cognitive test over 
days. And depending how you--whether you were knocked out, 
depending on how feel, depending on how you look, with regards 
to the examination, dictates what the next step is.
    But in a nutshell, this is the--what we have discovered is 
the brain needs to be rested after a concussive event. The very 
best thing you can do is take the brain and put it at rest. In 
that case, just keep it in the combat outpost, kept it at the 
forward operation base or fly back to a resuscitative--not a 
resuscitative, but a care unit which we have established at the 
Leatherneck.
    And then depending on how long you were knocked out or how 
severe it is, it dictates how long it is before you go outside 
the wire again. You could conceivably never leave what we call 
the wire of the combat outpost again. In our case, we have what 
is known as ``three strikes you are in,'' which means on the 
third concussive event, you are not going anywhere. You are not 
going on patrol anymore. You are not leaving the wire.
    So, these are things we are doing. We have set up the 
organization at Leatherneck which examines Marines and helps 
them with rehabilitation. The final thing, Congressman, is that 
we are in the process now of deploying an MRI [Magnetic 
Resonance Imaging] into Camp Leatherneck. That should happen 
this year and that will then give the local folks an 
opportunity to examine the brain and then send that information 
digitally back to the United States of America for analysis.
    So, great recognition that is real. We are doing something 
about it. I think a concussive protocol will probably save 
mental lives down the road yet to be seen.
    The Chairman. Thank you.
    Mr. Reyes. Thanks.
    The Chairman. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman, and thank you, our 
witnesses here this morning.
    First of all, Admiral Roughead, the brief that you gave, I 
believe, was 2 or 3 weeks ago in the SCIF [Secure Compartmented 
Information Facility] was tremendously helpful. It was fast 
paced, but you covered a lot of territory and maybe quieted a 
lot of fears in certain people relative to naval capabilities 
and some of the new threats. That was a very helpful briefing.
    And also, General Amos, thank you for taking time to review 
the EFV decision that you had worked through. I still have some 
reservations as you know. We will probably have a committee 
hearing about it just to try to look into that. But I 
appreciate your availability and your candor in saying this is 
what we are trying to do.
    And as you know, Mr. Secretary, and General Amos, we are--
part of our job is to say, ``Wait a minute. We think you guys 
are being too good of soldiers'' in terms of maybe being too 
tough on the budget, and there may be sometimes where we need 
to push back. We have tried to do that, members of this 
committee making the case that the overall national budget 
problem can't be fixed by cuts to defense and that that may be 
very unwise.
    Certainly, the number of 288 ships that we are the same 
place we were in 1916 is not something that gives us a lot of 
sense of peace here. And you have heard me complain before that 
the more that you can include us in the process and help us to 
go to bat for you, particularly, General Amos, in terms of your 
reset necessity because of having had all this equipment 
deployed for so long, we want to try to help you in that 
regard.
    Help us to help you in giving us as much heads up as you 
are making different decisions and things are going along 
instead of catching us. And you know, that has been my 
continuous complaint, and I repeat it too much. But all three 
of your availability, we are very appreciative.
    We are supposed to know something about the political 
situation of what is going on and we, as you know, the House 
did pass an appropriations bill because we understand the 
pressure that you are under. However, we are not the only 
players in this game and so far, that hasn't gone anywhere.
    My recommendation is that you prepare just as Secretary and 
a number of you listed off--I forget who has made the list 
today--but you listed off some of the things where you need 
transfer authority. If we are continuing on this continued 
resolution approach, I think it would be good to have the 
second arrow and that would put together the most important 
transfer authority requirements that you need so that we can go 
to bat and if we have to include those in the--we can't do it 
in this little short continued resolution, as I understand it, 
because the bus has left the station.
    But we may well be back at another one of these Band-Aid 
type things. And if we do have the key transfer authority 
things that you need, it may allow us to try to help you. You 
might think that there are a couple of--particularly a certain 
subcommittee chairman is a pain in the rear for complaining 
about you making decisions and not telling us ahead of time, 
but we are also, in the other hand, fighting in your behalf.
    And we are trying to be a team player and a help, and we 
may be able to get some of those key transfer things through 
even if we don't have the appropriations piece fixed because we 
are in a period of tremendous budget instability as you know. 
The case that we have been making as a member of the Budget 
Committee, if you take a look at the simple numbers, our 
revenues are 2.2 trillion. Maybe you know this. Maybe you 
don't.
    Two point two trillion, that is how much money comes in, 
and our entitlements plus debt service is 2.2 trillion. So we 
can zero defense and it doesn't solve the problem. And so we 
are making that case that we have to deal with this other 
budget problem aside from trying to continuing to whack defense 
and to run a Navy at the 1916 level. So help us to help you, 
but do help us by giving us this--the most important transfer 
authority pieces that you need. That was--so that was really 
all I had, unless you want to respond, I have a few seconds 
left here so----
    Secretary Mabus. Thank you, Congressman. And just to 
respond very quickly on a couple of issues. One is it is not 
just transfer authority that we are lacking. It is new START 
Authority. That is what is really going to hamper so much on 
ship construction, for example, and you pointed out that we 
are, as the CNO said, 288 ships the lowest since 1916. But if 
we build our 5-year and then 10-year shipbuilding plan, we will 
get to around 325 ships in the early 2020.
    So we will pass the 313 floor, and we will go up to the 
mid-320s in the early 2020s, but we won't be able to do that 
absent the New START Authority to build the second Virginia-
class submarine, the two Aegis-class destroyers, the mobile 
landing platform. So I would add that.
    The Chairman. Thank you.
    Mr. Akin. Thank you.
    The Chairman. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and, gentlemen, thank 
you once again for being before our committee. Secretary Mabus, 
February of last year, the Department of Defense took up what I 
believe is a commendable step in reversing the ban that 
prohibits women from being on Navy submarines. And as you 
probably know, I have been a strong advocate to allow women to 
fulfill all the positions currently available in our military, 
and I hope more of that happens.
    So, Secretary, can you provide our committee with an update 
now, a year later, how that is going and if it is being 
successful and what more do you need. Do you need anything from 
us to ensure that that goes well?
    Secretary Mabus. Well, thank you, and I share that that 
women should be absolutely integrated into all parts of the 
Navy in, particularly, the submarine community. We are moving 
forward the first group of women, are in nuclear power school 
and in submarine training, preparing to go on board our 
ballistic missile submarines and our guided missile submarines 
at the--late this year is the best estimate that we have.
    The level of volunteers that when we made this announcement 
from both the Naval Academy and ROTC programs around the 
country was simply astounding. And the quality of the young 
women that are going through these--this program heading for 
our submarines is as high as can be imagined. Now we are also 
moving laterally some Supply Corps officers to be department 
heads on submarines and act as mentors for these new 
submariners, and that is also coming along.
    And finally, we notified Congress in December of our intent 
to begin do design work on our attack submarines so that women 
could also be integrated into those. But we think that at this 
point, it is going very, very smoothly.
    Ms. Sanchez. Great. That is great to hear. I wanted to give 
the opportunity to one of our members who is sitting very close 
to you--that would be Mrs. Hanabusa because she represents 
Hawaii, which, you know, the Navy and Marines are very 
important to. She sits on the, what we call, the bottom row, 
which means she probably never gets to ask a question very 
often. I don't know with the rest of my time if the gentlelady 
from Hawaii would have some questions for you.
    Mrs. Hanabusa. Mr. Chair, is that acceptable? Thank you.
    Thank you, gentlemen. I would like to understand something, 
which is--and I hope I am not overstepping Congressman 
Bordallo's question. But in the whole concept of the Guam 
situation, I noticed that there is reference to the fact that 
the budget request includes $33 million intended to move to 
other agencies to mitigate the infrastructure and socioeconomic 
impacts of Guam associated with the move of the Marines.
    Can you explain to me exactly what the concern is that $33 
million would have to be diverted for that specific purpose?
    Secretary Mabus. One of the keys to the Guam strategy is 
one Guam and one government here that we are a total all of 
government solution and not just the Defense Department moving 
toward that. That was the rationale for moving that because 
other agencies would have a more direct interest and ability to 
do some of things that will need to be done to make the Guam 
move go forward.
    Mrs. Hanabusa. So do you sense that there is going to be 
some resistance or concern raised by the people of Guam of this 
move and if that is why the almost a proactive action of taking 
steps to ensure that it is--that you are addressing various 
types of social issues before the move?
    Secretary Mabus. We have been working very closely with the 
government of Guam and with the people of Guam. We have had a 
lot of public input before the environmental impacts. Statement 
Record of Decision was signed last fall. The governor of Guam 
is here now and has been meeting with the Department of Defense 
and Department of Navy officials about this.
    My Under Secretary, Bob Work, has recently returned from 
his fifth or sixth trip to Guam and we are endeavoring to work 
very closely to meet any cultural concerns, any concerns of the 
people of Guam have as this move proceeds.
    Mrs. Hanabusa. Thank you.
    The Chairman. Thank you.
    Mrs. Hanabusa. Thank you.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    General Amos, I wish I had the words to adequately thank 
you for what you have done for our Marine Corps and what our 
Marine Corps does every day for our country, but suffice to 
say, we appreciate it a great deal. And Admiral Roughead, I 
have known you for years, and I know your heart for and service 
to our Navy, and we thank you.
    And, Mr. Secretary, thank you for being here today. One of 
my big concerns is when you look at the recent review by the 
Quadrennial Defense Review independent panel which as you know 
is a bipartisan panel made up of some very talented individuals 
that concerns you when you hear the word train wreck associated 
where they think we are headed with the recent QDR [Quadrennial 
Defense Review]. And they mentioned specifically the Navy and 
the need for us to grow the Navy.
    And then it concerns me when we see the Secretary of 
Defense coming in as he did last year talking about the 
shipbuilding plan and saying that the out-years of the 
shipbuilding plan are simply a fantasy. As you know, our 
shipbuilding plan, we are looking at how many ships we are 
going to have both short-term and down the road. It is a pretty 
simple calculus. It is the number of ships we plan to build 
added to the number that is going to be in our fleet less what 
we decommission.
    OMB disagrees with the number of ships that as you know 
that the Navy projects, they think we are headed towards 270 
and not in the 300s. But suffice that--just put that aside for 
a moment. I am concerned about the ships we have on our fleet 
and, specifically, the estimated lives of those vessels because 
as you know, two things have happened--one, we have used them a 
lot more than we anticipated; but, secondly, we--we know that 
we have had just in 2 fiscal years, fiscal year 2010 and--I 
mean, 2010 and 2012, we have had $567 million of deferred 
maintenance.
    When will we receive a revised assessment showing not the 
initial estimated lives of these vessels, but the current 
estimated projections of the life expectancies of those 
vessels? Is that in the works at any time for us to get?
    Secretary Mabus. Congressman, if I could address one little 
part of the earlier statements. In the QDR review that was 
conducted as you said by some very distinguished Americans 
looking at that, they came up with a number of ships for the 
Navy that was higher than our plans get us in the early 2020s, 
which is in the 325-ship range.
    The major difference though is in the way they counted 
ships. We do not count certain support ships that they did 
count and if you count apples to apples in those two documents, 
we are very close to where they think we need to be in the 
early 2020s. In terms of maintenance, we are very concerned 
because as the CNO says the Navy resets in stride. Maintenance 
is our reset and we are concerned that all our ships reached 
the total lifespan that we expect of them.
    The CNO has established for each class of ship an 
engineering-based maintenance plan so that they will reach the 
end of their life span. We are moving sailors from shore 
afloat, 2,200 sailors will go into the fleet for optimum 
manning of our ships so that more maintenance--more 
preventative maintenance will occur on a routine basis. Four 
hundred sailors are moving to the pier for intermediate 
maintenance so that as ships come in for their scheduled 
maintenance calls, those maintenance calls are more valuable 
and make more of a difference.
    Mr. Forbes. Mr. Secretary, I don't want to interrupt you, 
but I am losing my time.
    Secretary Mabus. But because of--because of these things 
that we are doing, we think that the ships are going to reach 
the end of their schedule of life. And it was a long answer and 
I apologize for that, but----
    Mr. Forbes. I appreciate the answer. The other question I 
have for you is, we know that we have had officials from the 
Navy talking about doing a new force structure assessment to 
look at if that number is correct or not correct, and I am 
always concerned. We talked about getting strategy but limiting 
based on fiscal realities. How can we be confident that when 
that assessment is done we know the part of it, that strategy 
versus the part of it that is being driven simply by budgetary 
concerns?
    Secretary Mabus. Well, Congressman, the force structure 
review of the number of Navy ships which is under way in which 
will be completed soon. We are basing it all on what we need, 
on strategy. But we are also very mindful that we need to be 
good stewards of the taxpayers' money, that we try to be--try 
to make use of every single dollar that we get so that we can 
get to the number of ships.
    But this is a bottom-up strategic review that is not 
budget-driven but nation-driven.
    Mr. Forbes. Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you. Thanks to all three of you for 
your leadership. I have one question for each of you, so in my 
time allotted, I will try to get each of these questions done.
    Mr. Secretary, I appreciate the opportunity to be with you 
and the Secretary of Agriculture. Last year when the biofuels 
agreement was signed at the Pentagon and also to be at the 
maiden flight of the Green Hornet last year on Earth Day, on 
page 27 in your testimony, you mentioned your five energy goals 
in wanting to generate at least 50 percent of all energy from 
alternative sources.
    With the F-35 coming online, is there an effort even now to 
make sure that it can operate on biofuels rather than waiting 
to have to convert it later?
    Secretary Mabus. There--one of the requirements we have for 
any biofuel that we use is that it is a drop-in fuel, but it 
can be used in any engine that we have. So, the Green Hornet 
was not modified in any way to fly on biofuels. Same will be 
true for the F-35. The fuel will have to match that and so far, 
they all have.
    Mr. McIntyre. All right. Great. Thank you, Sir.
    General Amos, on page 14 of your posture report, you 
mentioned MARSOC [United States Marine Corps Special Operations 
Command] which of course has its headquarters in North 
Carolina. Has the Marine Corps resolved the issue of whether 
MARSOC personnel will remain within MARSOC in the special 
operations community for life or will they rotate back to 
conventional forces? And is this affecting the number in terms 
of your consideration for the growth of MARSOC?
    General Amos. Congressman, we have--when MARSOC is fully 
stood up after the--they get that latest tranche of 1,000 
Marines, they will be about 3,600 strong. Of that 3,600, there 
is roughly about 815 what we call critical skill operators. And 
those are those Marines that have the ultimate in training. 
They are the real special operators. They will have their own 
military occupational specialty designation. They will remain 
in MARSOC, that 815 for more--unless they want to come out.
    But they are going to remain in MARSOC probably for the 
length of their career. The other remaining 1,800 will rotate 
out of MARSOC. Those are communicators, those are UAV [Unmanned 
Aerial Vehicles] folks, those are CI HUMINT 
[Counterintelligence and Human Intelligence] folks. They will 
come out at 5-year marks, come back to the fleet Marine force 
and as a rising tide raise all boats in the Marine Corps while 
they spread their goodness that they learned in MARSOC.
    So we have solved it and there is a portion that will 
remain in MARSOC for the remainder of their time in the Marine 
Corps.
    Mr. McIntyre. Thank you, Sir. And Admiral Roughead, thank 
you for coming to Wilmington, North Carolina last fall for the 
commissioning of the USS Gravely, the Navy's newest destroyer 
named for the first African American admiral in the United 
States Navy.
    I know that on page 7 of your testimony, you mentioned 
specifically reducing risk with regard to purchasing more F-18 
Super Hornets. We understand in the next decade, there is an 
assessment of a shortage of about 65 aircraft later in this 
decade.
    What risk do you see that can make the strike-fighter 
shortfall rise even higher in the years ahead and that we may 
have to complement this with the Super Hornet?
    Admiral Roughead. Right now, sir, I think that we are in a 
very good position with the new Super Hornets that are in this 
budget. There are nine as, you know, pending on the hill. And 
then the Service Life Extension Program that we have funded in 
this budget. I am very comfortable with the 35C that is coming 
along.
    So, what we have been able to lay in and with the support 
of Congress, I think we have a good way forward on our strike 
fighter shortfall and, you know, we will continue to watch the 
development of the F-35C but I feel very good about how we 
position ourselves for that future.
    Mr. McIntyre. All right. Thank you. Thank you, gentleman, 
very much. We got it all done. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I have questions that 
I would like to submit for the record and because he is the 
last one to ask a question, I would like to yield my time to 
Mr. Palazzo.
    The Chairman. The gentleman is recognized for 4 minutes and 
50 seconds.
    Mr. Palazzo. Thank you, Mr. Chairman. Kind of caught me off 
guard there. But I appreciate it.
    General Amos, there was recently an article in the 
Washington Times that stated that American combat troops will 
get sensitivity training directly on the battlefield about 
``don't ask/don't tell'' instead of waiting until they returned 
to their home base in the United States.
    The article goes on to say that no units will be exempt. In 
your professional military opinion, do you believe that 
performance sensitivity training of this nature in anticipation 
of the repeal of ``don't ask/don't tell'' while--is the best 
use of military resources at this time?
    General Amos. Congressman, we have about--we have done the 
math now. We have many units on the ground of Afghanistan that 
make the 20 thousand, we have turned several units over.
    Those that are coming in have already--we have rushed to 
make sure that they had to train before they left. We estimate 
about 11 units of lieutenant colonel command battalions and 
squadrons that will need to get the training, what we call 
tier-three training while they are in Afghanistan.
    Honestly, I am not concerned about that. I don't look at it 
as sensitivity training by the way. I look at it as leadership 
training. And my sense is that I have good lieutenant colonels, 
good company commanders, and they will know precisely when the 
optimum time is.
    Not every Marine in combat is busy 24 hours a day, 7 days a 
week as, you know, from your former life. So, there will be 
opportunities where Marines will be able to sit down with their 
company commander, the company first sergeant or squadron 
commander and have that leadership training.
    I don't think it will be onerous. I think it will be 
focused purely on leadership principles. Those things that are 
near and dear to the Marines. And I think actually it will be a 
lot easier to do in combat than we thought--than we might think 
otherwise.
    Mr. Palazzo. All right. Thank you, General. I yield back my 
time.
    The Chairman. Thank you. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Mr. Secretary, 
welcome. It is good to see you. And on page 17 and 18 of your 
testimony, you make reference to the Littoral Combat Ship dual-
block procurement strategy which I agree I think has been very 
beneficial for the department and for the country.
    And you indicate that you are projecting savings of 
approximately $1.9 billion over a 5-year period on the program 
and across to $40 million per ship. To what would you attribute 
those cost savings from the dual-block strategy? In other 
words, what is the wisdom of the strategy that generates those 
savings?
    Secretary Mabus. A couple of things, one is competition. We 
have two variants, they competed against each other and drove 
the prices down significantly.
    Secondly, is we have locked in those savings over the 5 
years by signing firm fixed-price contracts for 10 of each 
variant, so, 20 ships.
    Mr. Andrews. Right.
    Secretary Mabus. If we, by sticking to those two things, 
competition and then doing firm fixed-price contracts, we know 
we are going to--we are going to get these savings and one of 
the things I think is important to point out is that while the 
average is--cost of these ships is of about $433 million 
apiece, the last ship--the last two ships will cost around $360 
million apiece.
    So, the cost of the ships as each ship is built is going 
down--as you go forward, we should see those savings continue.
    Mr. Andrews. I appreciate that. I know this is not a 
decision at your pay grade but I think the Chairman would be 
interested as well in exploring why that same logic doesn't 
apply to the JSF [Joint Strike Fighter] engine program, if 
there are benefits to having two competitors that create those 
efficiencies over the long term, why doesn't that argument 
apply to the second engine?
    Secretary Mabus. Well, if I could take a crack at my pay 
grade, we always planned to have two competitors for--you know, 
for the Littoral Combat Ship. And we have paid for all the 
engineering and R&D, the upfront calls that makes it different 
from the alternate engine in that--the alternate engine are 
the--engine was seen as one. And you would have to pay for all 
the development cost for a second engine. That is a huge 
difference.
    Mr. Andrews. I do appreciate that although I would 
respectfully say that it looks like the savings over time would 
let you catch up and dwarf what it would cost to catch up 
with--the R&D outlay but thank you.
    Let me move on to General Amos, his comments about the 
amphibious combat vehicle. And I guess, I see your comment that 
you are going to begin development of an affordable and capable 
ACV [Amphibious Combat Vehicle] to replace the EFV program.
    When do you think that the alternative would be fieldable? 
I mean under optimal circumstance, we go from where we are 
sitting this afternoon to where we will be able to get those 
vessels in the water, what is the optimal timetable to make 
that happen?
    General Amos. There are two answers to that. One is the 
Commandant of the Marine Corps answer which is before I leave 
office 4 years--3\1/2\ years from now, we have a program of 
record, we will have steel, it will be a vehicle, and I will be 
able to drive that. That is my answer.
    Mr. Andrews. I like that answer.
    General Amos. Okay. That is the answer. And I am trying to 
pressurize industry. I am trying to pressurize the acquisition 
professional folks, I want the word to get out. If I go by the 
standard acquisition timeline which in some cases got us to 
where we are today, it will be 2024.
    So, you understand the exigency. And we will have a vehicle 
by the time I give up this job.
    Mr. Andrews. What would you say the two or three main 
impediments are to you achieving that objective by the time you 
relinquish your job?
    General Amos. I think it is--first of all, I have, in this 
case, I am on reasonably solid ground because I have the full 
support of my Service Secretary, his acquisition professional, 
Sean Stackley, I have the full support of the Secretary of 
Defense and Dr. Ash Carter who is AT&L [Acquisition, Technology 
and Logistics].
    So, they are all behind it and they are going--what we 
would really like to do is use the MRAP [Mine Resistant Ambush 
Protected] model. Understanding the MRAP model was probably too 
aggressive and--but it saved lives. But so--something probably 
that resembles the sense of urgency of the MRAP.
    But probably a little bit more scheduled. And that is what 
we are going to do. We're going to try to move everything to 
the left.
    Mr. Andrews. If I could just permit one moment of 
advertising. You guys did a terrific job on the MRAP without 
Chairman Hunter, former Chairman Skelton, former member Gene 
Taylor and some others that would have never happened, and for 
those who think Congress should not have a direct role in 
spending decisions here, I would refer you to the MRAP 
decision.
    I yield back. I thank you for your answers.
    The Chairman. Thank you, and I appreciate the gentleman's 
question. You are right, I am also interested, and my 
recollection is that the Department also planned for two 
engines originally in the JSF acquisition strategy.
    And if we were a couple of years down the road, we will 
have already--we would have already paid for those acquisition 
costs as we did with the LCS. And then we would have the 
opportunity of realizing the competition going forward.
    Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I am a little taken 
aback by the answer of what the timeframe is on the EFV, I 
mean, I am very concerned about that--that whole decision 
process and the answer because in your answer is a timeframe 
that does not have anything to necessarily reflect on the 
threat.
    I mean the time that you are finished being commandant 
doesn't really answer the question of when is it going to be 
needed. Here is my concern on the whole question of the EFV: We 
know that there is no funding in fiscal year 2012, both you and 
the Secretary have re-affirmed the requirements to conduct 
amphibious assault missions.
    And you intend to develop, as you were describing something 
else, but the--as the Secretary was giving us the answer of his 
cuts when you have announced that there was going to be a cut 
with this vehicle. He says, ``the most plausible scenario of 
power projections from the sea could be handled through a mix 
of existing air and sea systems employed in new ways along with 
new vehicles--scenarios that do not require the exquisite 
features of the EFV.''
    Can you describe the analytical work Secretary Gates is 
referring to in his statement? And was there a report done? And 
the EFV also to my understanding that there were, there was the 
cessation of the testing phase. And I am a little worried about 
our ability to mine or ascertain the innovations with respect 
to the vehicle.
    May I--if I can have your thoughts.
    General Amos. So on your last point, the acquisition 
decision memorandum was released about 2 or 3 weeks ago. Giving 
60 days for the Secretary of the Navy to and the Department to 
take a look at how to shut down the current EFV line.
    The forecast is, is to take the best of what is left in the 
testing for this fiscal year and continue on with that. Those 
decisions are working through right now. So, what you will do 
is you will capitalize between now and the end of this year--
the end of the contract on those things that are probably going 
to be the most fruit-bearing as it relates to the EFV.
    The whole concept is to take those technologies, those 
lessons learned and then apply them to the amphibious combat 
vehicle. So, the shutdown of the line is in work right now. But 
it will be done from my words, it will be done focused on those 
things that it ought to be focused on.
    As it relates to the EFV and the elegance of the EFV, when 
those requirements were developed 2\1/2\ decades ago, we look 
at a threat and said it is 25 miles that is about the farthest 
a naval vessel will have to go over the horizon to be able to 
be out of harm's way.
    Well, we know that that is not the case today. The enemy 
has not gotten any easier, has only gotten more lethal. So, as 
a superpower nation, we could either decide we are going to 
abrogate all that space--the sea space. And get out a thousand 
miles or we can take the technologies and capabilities we 
have--that we know we have right now and integrate them in the 
joint force and allow the naval vessels to come in to be able 
to disembark the Marines in the new amphibious combat vehicle.
    That is the difference between the requirements the way 
they were viewed in the 1980s and the requirements as the way 
they are being viewed in 2011.
    Mr. Turner. As we have had a lot of discussions here today 
about the reductions, ways to find savings and everyone 
understanding that of course we have the cost pressures--we 
would certainly also need to recognize that we are a nation at 
war. And a lot of these cuts and reductions have an effect on 
our capabilities and on our men and women who are serving.
    We have also the end-strength reductions that are planned 
and I am very concerned there. And I wanted to also give some 
of my time to Mr. Runyan who is down in front. But when you 
answer his question, could you also add any thoughts that you 
might have on how those end-strength reductions might affect 
dwell time. I think people are very concerned about the ratios 
of dwell time. You have a goal of one to three. And now, we are 
having difficulty I believe meeting--getting one to two.
    And then I have a minute left but I would like to--I 
concede that Mr. Runyan for him to add additional question.
    The Chairman. The gentleman is recognized for 1 minute.
    Mr. Runyan. Thank you, Mr. Chairman. Thank you the 
gentleman from Ohio. Mr. Secretary Mabus and Admiral Roughead, 
according to recent reports the Aegis radar system is in the 
worst shape ever. Aegis is considered the world's best seagoing 
radar and combat system due to its power and adaptability.
    But the training and maintenance are vital to maintain in 
the system's readiness out in the field, could you please 
discuss any--Aegis fleet readiness concerns that you have and 
how we can help keep the Aegis radar available--a viable option 
once fielded?
    Admiral Roughead. Thank you very much, sir. And then, we 
have--similar to how we looked at all of our ship maintenance 
issues, we have looked at Aegis and also how that system and 
the radar integrates into some other complex areas.
    There are some things that we are working on in a technical 
sense that gets to the interoperability in a much better and a 
more reliable way than what I would like to see. But then we 
have also taken a look at what training do we have to add into 
the pipeline. We are also adding people to those ships because 
as we went through an optimal manning initiative, we took 
people off of the ships which ultimately gets to equipment 
maintenance, equipment reliability.
    So, those are just a couple of the things that we are 
working on.
    Mr. Runyan. Thank you very much.
    The Chairman. Thank you. It is the Chair's intent to call 
two more questioners and then a 5-minute recess. Mr. Conaway. 
Excuse me, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And gentlemen, I 
want to thank each of you, Secretary Mabus, Admiral Roughead 
and General Amos for your testimony here today but most 
especially for all that you do to protect our nation.
    Let me just say that I want to talk briefly about one of 
our nation's most vulnerable strategic--I am sorry--valuable 
strategic assets, our nuclear submarine force.
    We have talked about the Ohio replacement in particular a 
bit this morning. Obviously, our submariners have maintained a 
constant vigilance over the past decades to provide us and our 
allies with strategic deterrence that remains unmatched by any 
other nation on the planet.
    Their work in the silent service, obviously deserves our 
utmost respect and support. So, I believe it is absolutely 
vital that we remain committed to projects such as the Ohio 
Replacement Program.
    I do, however, remain concerned that the large investments 
required for this critical system would be threatened by the 
needs of our surface fleet. Admiral Roughead, as I understand 
you recently stated support for moving the SSBN-X funding out 
of the Navy shipbuilding and conversion account.
    Given our fiscal pressures, can you offer your vision of 
how that could be accomplished? And what legislative authority 
or permissions would be needed to change to be needed--to be 
changed or added? And in addition, the Navy's--Navy officials 
recently told committee staff that our programs--that the 
program's schedule and cost present ``huge challenges and 
tremendous risk,'' which we can all understand of course.
    But what are your views of this program and your confidence 
level that the Navy will meet its cost and schedule goals given 
the critical importance of this program?
    Admiral Roughead. Thank you very much, sir. And my comments 
relative to the SSBN-X dealt with the fact that submarine is 
being recapitalized in the decade of the 2020s and at that 
time, there are several things that are going to happen.
    Many of the submarines and surface combatants that we built 
in the 1980s are going to be aging out and retiring from 
service during that decade. That is when we are starting to lay 
in the SSBN-X.
    On top of that, we will be building the carriers on 5-year 
centers, so there will be likely two carriers built during that 
same time. We are also going to be refueling our aircraft 
carriers which--that is not inexpensive. And at that time also, 
we are going to be decommissioning some of the earlier Nimitz-
class aircraft carriers.
    So, in the 2020s you have a fairly significant demand being 
placed on the shipbuilding account and also on the shipbuilding 
infrastructure. And so I do believe that that has to be 
examined, the recapitalization of the service fleet, 
recapitalization of the ballistic missile submarine, with 
everything else going on, I believe requires some different 
thinking.
    With regard to legislative authorities, my sense is it is 
really a question of how the budget is laid in for that. I am 
not sure that there is a legislative piece but I would leave 
that more to you to have a view of that.
    I am very comfortable with where we are going with SSBN-X. 
The decision and the recommendation that I made with regard to 
the number of tubes--launch tubes are consistent with the new 
START treaty. They are consistent with the missions that I see 
that ship having to perform. And even though it may be 
characterized as a cost-cutting measure, I believe it sizes the 
ship for the missions it will perform.
    We are not backing off on the stealth imperative that that 
ship must have because the last one of that class will be on 
patrol in 2080, and so we have to make sure that we have built 
in the stealth.
    I am very comfortable with our knowledge of how we have 
been able to bring down the cost on Virginia to apply that to 
the SSBN-X and I am very positive about where we are headed 
with it.
    Mr. Langevin. Thank you, Admiral. Also on another topic 
that has been important to me--cyber security. For Secretary 
Mabus or Admiral Roughead, let me just talk about cyber 
security threats to our critical infrastructure in particular.
    Let me just say that I have been relatively disappointed by 
the overall lack of response and commitment to this issue. And 
I firmly believe America is still vulnerable to a cyber attack 
against our electric grid which would obviously cause severe 
damage not only our critical infrastructure but to our economy 
and the welfare of our citizens.
    We need to pay more attention to this issue, because of 
this concern last Congress, I posed a question to heads of 
Cyber Security for all of our military services, and the 
question basically was if our civilian power systems are 
vulnerable, what is being done to protect our numerous military 
bases that rely on them to operate?
    So, the answers though were disturbing but not surprising, 
specifically Vice Admiral Barry McCullough, head of the Navy's 
10th Fleet testified, ``These systems are very vulnerable to 
attack.''
    So, noting that much of the power and water systems for our 
naval bases are served by single sources that have only very 
limited backup capability, with an attack on our power station, 
when an attack on a power station potentially requires weeks or 
even months to recover from, our bases could face serious 
problems maintaining operational status. What is Navy doing to 
address these threats not only to its critical structure but 
also its secured and unsecured networks?
    The Chairman. Gentleman's time has expired. Could you 
please give him those answers for the record please?
    [The information referred to can be found in the Appendix 
on page 156.]
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Gentlemen, welcome. 
Glad you are here. Just an aside, I want to associate myself 
with Mr. Andrews' comments. I do believe competition works. It 
works for LCS, and I think it works across most of our 
platforms that--including the engine.
    But I would like to turn my--our attention to something a 
whole lot more--less exciting and more mundane than the cyber 
attacks or anything else. It has to do with back office at the 
Navy and your inability to provide the taxpayers in this 
country with audited financial statements of the sums of money 
that we--that we give that we provide through the appropriation 
process.
    I want to brag right upfront, the Marine Corps has taken 
the lead as they typically do on most things and that rumor has 
it that the September 30, 2011, financial statements will get 
audited by the Marine Corps and will pass an audit, that same 
issue needs to be spread across all branches, I have had this 
conversation with the Secretary and others as well.
    Nothing in your written statements that I was able to see 
made reference to this issue at all. Without top-down 
leadership this ain't going to happen. I have met with the next 
layer below you guys, with Robert Hale and others, your 
counterparts for the Navy, in the Marine Corps and the Army and 
others, and they get it. And they are ready to go in and they 
are making efforts to do that but without you two saying make 
it happen, then this isn't going to happen.
    I am also concerned, and I am going to appreciate your 
comments in reference to all of the cost savings and cuttings 
and redeployments and swaps around that is going on, I am 
concerned that you will cannibalize the resources needed to 
make this happen in efforts to redeploy those resources 
somewhere else.
    And my final comment as to why this is important. Over and 
over and over this morning, you have talked to us about 
greening the military and how much that is going to ``save 
us.''
    I have professional skepticism about that number. You 
cannot tell us today what the differential between what we 
would have spent had we ignored the greening effort versus all 
we spent on this. You know, you can't tell me that delta and if 
we are going to eliminate the Expeditionary Fighting Vehicle 
because we ``can't afford it,'' then taxpayers need to know 
what it is we are doing and why.
    And so, give me some sense as to your commitments to making 
this happen sooner than later in terms of getting the back 
office in the shape that it can be audited.
    Secretary Mabus. Congressman, as a former elected state 
auditor of Mississippi----
    Mr. Conaway. Good. Glad to hear that.
    Secretary Mabus [continuing]. I understand very well the 
importance of what you are talking about here. And I want to 
echo what you said about the Marine Corps. The Marines are very 
close to being able to do that. I want to also assure you that 
the entire Department of the Navy is taking this very seriously 
and working very hard on it.
    We have two major issues. One is legacy systems just the 
sheer number of legacy systems that we have out there and the 
amount of effort that is taking to convert those. But we are 
doing it and we are also presenting our financial statements to 
you in GAAP [Generally Accepted Accounting Principles] form and 
in meeting the FASB [Financial Accounting Standards Board] 
regulations.
    Secondly, one issue that we are working with GASB 
[Governmental Accounting Standards Board] on is coming up with 
an accurate cost for our assets. For example, USS Enterprise 
was built more than 50 years ago, in the 1960s.
    Going back and finding an accurate cost at that time is 
just onerous. It is going to require a lot of time. It is going 
to require a lot of effort and we won't get much for it in the 
end. So, we are working to try to come up with a good cost-
figure structure so that we can move to the audited financial 
statements.
    If I could say one word on the energy initiatives, one is, 
over the next 5 years we can show absolutely that we are going 
to save $1.5 billion by----
    Mr. Conaway. Yes, okay. I got you. But if we've got the 
accounting sytems in place that allows us to rely on those 
numbers, I would appreciate it. In the closing comments, I 
agree with you figuring out what Ft. Hood costs or a 50- or 60-
year-old aircraft carrier. Don't let that be the reason why we 
don't audit and put in place the things you use every day to 
run your business.
    And we are--I would be glad that I will be working with 
GASB to try to figure out a different standard for the only 
customer, the Federal government. I mean, the fixed asset side 
is important, but just don't let that be the enemy of what we 
need to get that done. And so I appreciate that.
    I yield back. Thanks for your comments.
    The Chairman. Thank you.
    We will now take a 5-minute recess and reconvene at 1 
minute to 12:00.
    [Recess.]
    The Chairman. The meeting will come to order.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    First, I want to thank the Navy for allowing me to have a 
Navy fellow this year. John Krisciunas does an excellent job, 
but he should not be blamed for whatever inadequacies are in 
the following questions.
    Three hundred and thirteen ships is a crude measure of 
capability. Is there a better way to help explain to the public 
platforms and missions so that they can know that our Navy is 
strong enough to do the job?
    Admiral.
    Admiral Roughead. Well, I think you are right onto it, sir, 
because too often we do look at the number. And as was 
mentioned by one of your colleagues earlier, we could drive to 
that number rather quickly, but it would be rather ineffective 
force.
    I think it is important that we continue to have a dialogue 
with the American people about the types of capabilities that 
we need, but I think it also is on full display every day.
    The four aircraft carriers that we have deployed now are 
there, flexible, and ready to respond particularly as we see 
events sweeping through the Middle East. In the Western Pacific 
and in the Arabian Gulf and in the Mediterranean are surface 
combatants who are providing ballistic missile defense 
capability.
    Our submarines are forward-providing intelligence, 
surveillance, and reconnaissance. And so the real key is 
designing the type of force and the balance in the force that 
allows us to go forward as a nation to protect our interest to 
support and operate with our friends, allies, and partners. And 
that discussion is something that I really believe is necessary 
if we want to have a valid discussion about the Navy the nation 
needs.
    Mr. Cooper. Secretary Mabus, when will the new force 
structure assessment be ready do you think?
    Secretary Mabus. It would be ready very soon, and we will 
certainly get it to you. But to the CNO's point, to your point, 
new force structure assessment was built on capability needs 
and mission needs and not to reach a certain arbitrary number. 
We wanted to look at the mix of ships, the type of capabilities 
and the missions that we have been asked to do in order to come 
up with that force structure.
    Mr. Cooper. It is about a lot more than hulls in the water.
    Tell me, the CBO [Congressional Budget Office] may have 
outdated numbers, but they were estimating the Navy's needs to 
be about $19 billion a year in funding. And it is my 
understanding you are going to have to make do with something 
more like $15 billion a year. Is that doable?
    Secretary Mabus. Well, if you look at our 5-year 
shipbuilding plan and then on out to 10 and then 30 years, one 
of the things we try to be very realistic about was how much 
money we could expect, and the average is $15 billion a year. 
For our shipbuilding needs, we think that that falls within the 
historic average. And it will give us the ships we need if we 
manage that money correctly and if we bring those ships in at 
the budget that they need to be brought in at.
    Mr. Cooper. I thank you, Mr. Chairman.
    The Chairman. Thank you.
    And I appreciate that question about the 313 versus the 
platforms performing the missions. However, it was pointed out 
I believe in the QDR that at some point numbers do count, too. 
So, it has to be a combination of both.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman, and Admiral Roughead, 
Secretary Mabus, and General Amos. Thank you all for your 
service, long service to our country, distinguished service.
    Secretary Mabus, I just want to clarify this. Under 
Secretary of Defense Carter's memo of February 16th, 2011, 
directs you within 60 days to provide a plan for the 
cancellation of the Expeditionary Fighting Vehicle including 
termination cost for the program and a plan to harvest 
technology from the program for future efforts.
    How do you plan on maximizing the return on taxpayer 
dollars already invested in the EFV program in terms of 
technology harvested and lessons learned?
    Secretary Mabus. Well, as you pointed out, Congressman, the 
directive tells us to harvest as much of those technologies as 
is possible. We would much prefer to use the monies remaining 
in the current contract to harvest that technology instead of 
paying termination fees.
    And so the plan that we are coming up with to the very 
maximum extent possible gets those technologies so that we can 
use those and use the lessons learned as we develop the next 
amphibious assault vehicle, as General Amos has talked about 
earlier today.
    Mr. Coffman. Well, Mr. Secretary, let me ask you a follow-
up. How long do you anticipate it will be before you have a new 
amphibious tractor, a new EFV or add initial operating 
capability?
    Secretary Mabus. I absolutely agree with my Commandant. I 
want to add one thing here. We can build a new tracked 
amphibious assault vehicle in a reasonable amount of time.
    The EFV, had it been continued, would not have reached full 
operating capability until the mid 2020s. And we were going to 
have to do how to take mitigating steps in terms of upgrading 
our AAVs [Amphibious Assault Vehicles], slipping our AAVs, 
things like that, regardless of what amphibious assault 
vehicles that we were doing.
    And I think we ought to be able to build these things a lot 
quicker than we have historically. And as I said, I absolutely 
trust my Commandant in his estimate.
    Mr. Coffman. General Amos, do you have any response?
    General Amos. Sir, I think the benefit of--I mean, it is 
regretful that we spent $3.2 billion over the last 2\1/2\ 
decades, and that pains me. I won't belabor why I came to a 
decision that I want to recommend my Secretary. I won't do that 
here.
    But here is the good news out of this thing. We will take a 
lot of that technology, a lot of the capabilities that have 
been developed for the EFV to include the remainder of this 
year.
    And I have every expectation that we will be able to 
translate some, if not the large percentage of that, over to 
the amphibious combat vehicle. So it will not all be lost to 
include the remainder of the money, sir, for this year, sir.
    Mr. Coffman. Thanks, General Amos.
    Admiral Roughead, one of the Navy's core requirements is 
amphibious power projection. In a recent Navy Times article, 
you spoke about increasing the manning levels of our Navy's 
amphibious fleet to ensure these vessels are properly staffed 
to carry out their vital missions.
    Given the personnel challenges, the problematic first 
deployment of the LPD-17 USS San Antonio and projection of 30 
operational amphibious ships in fiscal year 2012, what other 
steps are you taking in terms of shipbuilding, operational 
readiness assessments, and service life extension to ensure 
that the nation retains its ability to project power with our 
amphibious fleet? How effective have efforts been to extend the 
service life of the USS Nassau and USS Peleliu?
    Admiral Roughead. Well, thank you, sir.
    A range of things we have underway talk about manning. We 
leaned out some of these headquarters so I could put more 
sailors on ships so that the ships can be properly maintained. 
Sailors have the time now to go off to school to be trained in 
the skills they are going to need.
    We have moved maintenance back onto the waterfront. Again, 
that is also very helpful. We put in place a structured, 
engineered life cycle plan to get the ships to the end of their 
service life.
    The other thing that we have done and what we have been 
forced into by this continuing resolution is some of those 
ships are getting ready to go into a midlife upgrade. And in 
order to make sure that I can get to that, those are some of 
the other--I am canceling other availabilities to try to hang 
on to that midlife. Because if we don't get to midlife, then we 
have a real issue. So, that is one aspect of it. So, there is a 
whole collection of activities that we have in place to make 
sure that our ships get to the end of their service life.
    With regard to Nassau and Peleliu, I believe that we do 
have enough life to get them to where we now have them going 
out. But in any efforts to keep those ships for additional 
time, we will run into maintenance issues and then also the 
manpower piece because those sailors are destined to go on to 
the new force structure. So we have to keep that in mind as 
well.
    I do believe that we are through the woods on the LPD-17 
quality issues. We have worked that very hard. And I am pleased 
with how those ships are now starting to perform. But it is 
also a lesson to be learned that you don't take ships before 
they are finished and that you really make sure that you are 
leaning on the quality early on in the construction process.
    Mr. Coffman. Thank you, Admiral Roughead.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses for your outstanding 
testimony today.
    This past weekend, there was kind of a lot of news reports 
about the speech that was given by one of the senior senators 
in New England area who talked about communities have to be 
ready, ``when the 2015 base realignment and closure process 
begins.''
    You know, someone who is now in the middle of--I think this 
is our third hearing on the cost efficiencies over the next 5 
years. Secretary Gates, Admiral Mullen, I mean, none of the 
witnesses have ever uttered the word BRAC [Defense Base Closure 
and Realignment]. And I am just wondering if you could speak to 
whether the Navy or the Pentagon is preparing for new BRAC, has 
requested one or plans to before the completion of the 2005 
round.
    Secretary Mabus. No.
    Mr. Courtney. Thank you.
    And again for folks maybe who are in the room here, I think 
it is important to, again, reiterate that Congress authorizes 
the BRAC process.
    Again, if you extrapolate from the 2005 BRAC round, the 
authorization occurred in 2002, so if we were really heading 
down that path, I mean, this really is the year that we would 
have to authorize it because it takes a while to get a 
commission up and running. And is that--I am just wondering if 
you could help sort of explain that process a bit.
    Secretary Mabus. Congressman, first, I know of no effort to 
plan for one in the Navy, or in larger DOD. You are right that 
it is a long process. It takes a long time. In fact, we are 
still dealing with a lot of the issues that previous BRAC round 
surfaced and we continue to work those. And it is a long 
process, it is a congressionally mandated process. And I don't 
know of anything in the Navy or Marine Corps that we are 
looking at to process such as that.
    Mr. Courtney. Thank you.
    I think that answer is going to be very helpful. And again, 
just the budget which came over from the administration 
actually has about another $300 million this year just to, 
again, continue to implement the last round. So, we are far 
from done with that last process.
    Admiral, the New York Times editorial page about 2 weeks 
ago had a piece about cost savings in the Pentagon. I think 
someone has got it stuck in their word processor a phrase that 
says that the Virginia-class program is a Cold War relic 
because that is how they referred to it in that piece.
    And you talked earlier about the proliferation of 
submarines around the world, and I am just wondering if you 
could just address, again, the question of whether or not this 
really fits within the strategic needs of our country, the 
Virginia-class program.
    Admiral Roughead. Absolutely, Mr. Courtney.
    The Virginia-class submarine is not looking back, it looks 
forward. And it is the best submarine in the world today. Its 
capabilities are absolutely extraordinary. It is a submarine 
that is here. It is not something that we are thinking about.
    We already have three of them homeported in Hawaii, out in 
the Pacific. And we have deployed the submarine. We are very 
pleased with the results. And it is, as I have said on many 
occasions, the best anti-submarine weapon that we have in our 
inventory and it is going to be relevant for a long time.
    Mr. Courtney. Thank you. And I want to find that guy who 
writes those things because it just--and sit down with them 
because--and thank you for your answer.
    You know, lastly, there has been some discussion about the 
second engine battle. I think this Committee could tell it 
looks like that beer commercial where one side yells ``tastes 
great'' and the other side says ``less filling'' in terms of 
the debate that is there.
    But, you know, Admiral Roughead, you spoke very eloquently 
about the fact that you can't just look at the production cost, 
you also have to look at the life cycle cost in terms of, you 
know, having systems to repair and maintain two separate engine 
systems. And I was wondering if you could maybe reiterate that 
point again because I think it really is a very powerful 
argument about why we have to make a choice here.
    Admiral Roughead. Yes, sir, I agree. I mean, if you 
introduce, in my opinion, the second engine you are talking 
about, dual logistics, dual training, dual maintenance, and 
that all comes into play.
    The other thing for the Navy that is important and why we 
have long advocated the single engine is that when we go to sea 
in our aircraft carriers and our amphibious ships, we are 
rather space constrained.
    And so, for the Navy, one variant where we have one 
training track for people, one logistic system and one 
maintenance system is the way that we must be because we can't 
afford to have the redundancy in the space that would drive. 
So, we have long advocated for the single engine. And for the 
Navy, I think that that is really the most effective cost 
approach that we can have.
    The Chairman. Thank you.
    And we have not had any discussions on the BRAC on our side 
or Mr. Smith and I have not discussed it and we are not 
contemplating it. So if that helps too.
    Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    And Secretary Mabus, CNO Roughead, and Commandant Amos, 
from one American to another thank you very much for your 
distinguished service. I appreciate what you are doing to 
protect our young men and women and give them the best 
equipment and leadership when we put them in harm's way.
    And I would like to direct our attention today to our East 
Coast carriers home porting of those carriers, the threats that 
may come against those carriers and mitigating those risks.
    And can you tell us today are there times we have five in 
ports on the East Coast, or are times when there are fewer than 
five in port and as few as, say, two carriers in port at any 
one time?
    Admiral Roughead. Yes sir, the carrier numbers fluctuate 
depending on how many are deployed, how many may be out for 
local operations, so the number of carriers in port at any 
given time varies.
    Mr. Rigell. And it can down to--we have had times then 
where we had as few as two and that even as few as one, 
correct, in port, and--?
    Admiral Roughead. I have been in Norfolk, I was assigned 
there for a long time, and I have seen the piers empty at 
times.
    Mr. Rigell. That is correct, and so, there are times the 
ship's log would indicate that there have been zero carriers in 
port and for some period of time. So we know that the 
Enterprise is being decommissioned and the math is pretty 
simple. That is going to take us down to four.
    Is it reasonable to assume then that as the number of 
carriers decreases on the East Coast that the number of days 
that--total days that our carriers are in port would also 
decrease, correct? Do you follow me on that logic?
    Admiral Roughead. I am following you very well. Yes, sir.
    Mr. Rigell. Okay. So as the target for the terrorists, the 
number of targets decrease, the threat also decreases against 
that particular asset, would you agree with that Admiral?
    Admiral Roughead. I think it is important to think not 
simply in terms of the ships alone but the infrastructure that 
is required to support them and to maintain them, to husband 
them.
    So even though if an aircraft carrier is at sea it still 
has to come back in to perhaps have nuclear maintenance 
performed on it and right now Norfolk, Virginia, or the Hampton 
Roads area, an area of about 15-mile radius is the only place 
on the East Coast where we can do that.
    Mr. Rigell. Correct and that also is true, isn't it of our 
SSBNs? We have--you know, the operations on the east at King's 
Bay and also on the West Coast, just one, is that correct?
    Admiral Roughead. That is not true when you get to the 
infrastructure, sir, because we have King's Bay, we can bring a 
nuclear ballistic submarine into Hampton Roads to do 
maintenance there, either at Newport News or at the shipyard. 
And then if we have to, we could also take it up to New London 
to have work done at Electric Boat up there.
    So I have three sites on the East Coast where I can take 
care of our nuclear submarines. I have many sites on the East 
Coast where I can take care of our conventional ships. I 
currently have one place on the East Coast where I can maintain 
a nuclear aircraft carrier.
    Mr. Rigell. Because I read your testimony which I 
appreciate you sharing with us that it indicated that one of 
the risks is I guess the weather or environmental things like 
that. Given that carriers by their nature are mobile, I frankly 
don't place that much weight on that particular one, I am fully 
concerned about a terrorist attack.
    But given the fact that we are already in a decreasing risk 
environment just by the sense that we are decreasing from five 
to four on the East Coast and also in this context of 
extraordinary times that we are in from a fiscal standpoint 
that with my business background I can see--unfortunately it is 
only going to increase and in a rather dramatic way.
    The decisions that we make here, those who follow us 2, 4, 
6, 8, 10 years down the road I think are going to continue to 
be under enormous pressure. So it is disconcerting to me to see 
that Mayport still is a path that is being considered by the 
Navy for an East Coast home port for one of our nuclear 
aircraft carriers.
    Would you consider, if formally requested, an evaluation at 
this time which would recognize that our fiscal situation is 
very dynamic and would you reevaluate that decision just given 
the fact that there is enormous fiscal pressure on us?
    Admiral Roughead. I think the going in argument from me, 
from the very beginning of the strategic dispersal was the fact 
that having the flexibility and especially looking to the 
South. We are going to see changes in shipping patterns when 
the Panama Canal expands, so the southern regions, I think, 
will become more dynamic and not less.
    I believe as we look out into the future the approaches 
from the South Atlantic and particularly as Africa really 
becomes more central to international security affairs and 
resources. I think having the strategic dispersal, having the 
redundancy and being able to take care of these very capital 
ships that we have will be more and more important to us.
    Mr. Rigell. Admiral, I would say this, in a perfect 
environment I would be fully supportive of more strategic 
dispersal. I do, as I look at our SSBNs and see we really, in 
many ways, have not dispersed those assets, it is difficult to 
process why we are so committed in this extraordinary fiscal 
environment of dispersing the carriers.
    I think once it gets there if there is one that is moved 
you are dealing with one carrier and then it goes to sea and 
all these assets--you know, all the infrastructure's there are 
for nothing in effect.
    Admiral Roughead. I would say that infrastructure is 
available to give us the redundancy that we need in the carrier 
force but it is also maintenance capability that can be used on 
other ships of the Navy as well.
    Mr. Rigell. Thank you for your time.
    The Chairman. Thank you.
    Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    And thank you to all of you for your perseverance today and 
your testimony, and your hard work on behalf of our nation. I 
appreciate it very much.
    Secretary Mabus, thank you for our recent phone call and 
your assistance and advice on the shipyard in my state, Bath 
Iron Works. But I want to talk to you today a little bit about 
the Portsmouth Naval Shipyard which is in Portsmouth, New 
Hampshire, and Kittery, Maine.
    I am pleased that the shipyard has continued to be a bright 
beacon in this hard economic time both locally and for the Navy 
with a delivery of the Virginia-class submarines, it is clear 
that the yard has a solid workload for years to come.
    And I know, Secretary Mabus, that you visited the shipyard 
in 2009, thank you for that, and you saw firsthand the 
extensive projects that are underway and the positive 
advancements in efficiency in technology that the yard is 
taking on. I am concerned though about the continued 
modernizations at the yard that are necessary to ensure 
efficient production.
    As you know the shipyard has received strong support from 
both state delegations for many years. The shipyard is an 
economic engine for the region which I know everyone says that 
about their local entity but even during this tough economic 
times the shipyard has been to keep hiring and that was due in 
large part because of the investments in efficiency that have 
been made over the years.
    I welcome, along with everyone else, the important efforts 
to reduce spending, but all the upgrades at the Portsmouth 
Naval Shipyard have been a direct result of congressional 
requests, or earmarks, as we used to call them.
    These upgrades not only have improved the work there but 
are also shared with other naval facilities for the betterment 
of the armed forces as a whole. While the possibility is there 
of including this funding in the Navy's base budget, so it 
won't be as reliant on member support, this was not addressed 
in the fiscal year 2012 budget.
    Because of the current ban on placing such requests and the 
reduction of spending in the President's budget, how do you 
plan to address such important efficiency needs that are 
directly related to ensuring our national security and 
readiness?
    Secretary Mabus. Congresswoman, first I want to agree with 
you wholeheartedly on the value of not only Portsmouth but our 
other public naval shipyards that we have. They perform an 
amazingly valuable service for the country and for the Navy.
    As we looked at the budget and add the maintenance 
requirements that we had, we tried to balance it out in terms 
of risk and in terms of absolute necessity for that 
maintenance. One thing that I would point out that was specific 
to shipyards was when the civilian hiring freeze was put into 
effect.
    Shipyards were exempt from that so that shipyards can 
continue to hire the skilled workers that they need to hire to 
meet these maintenance requirements. So I think we are 
addressing the needs in a fiscally constrained environment for 
not only Portsmouth but for the Navy.
    Ms. Pingree. So I guess what I would say is we have 
developed a habit over what I think is 30 or 40 years of the 
shipyard, which is an old yard but does great work, requiring 
upgrades and efficiency but receiving all their support through 
the earmarking process. And while I understand we are in a 
transition here of how we do our budgeting, and we are in need 
of making tremendous cuts, and you had to be respectful of that 
in your budgeting process.
    I am concerned that the yard will not be able to do the 
high-quality work that the Navy depends on if the efficiency 
military construction doesn't continue.
    So I know that is a hard thing for you to answer but, you 
know, just one more time I want to say that this is very 
important funding, it is not in the President's budget, and it 
is not clear to me how we are going to continue that necessary 
work.
    Secretary Mabus. I do appreciate that and it is, as you 
pointed out a transition period between, from one source of 
funding to migrating to the Navy's base budget. That and a lot 
of other things we will be taking close looks at because I know 
that the CNO maintenance and the maintaining of the fleet is 
among his very highest priorities as it is with mine.
    Ms. Pingree. Great, well, I appreciate your answer, and I 
know you will continue to hear from my delegation and that in 
New Hampshire as well.
    The Chairman. Thank you.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    And thank you, Admiral, and Mr. Secretary and General for 
being with us today. I appreciate your service to our country 
and for your stamina here today.
    I want to follow up, Admiral Roughead, on your mentioning, 
in a general way, the Navy's efforts to restructure how it 
deals with Cyber. And I would if you could specifically speak 
to the current status of the Tenth Fleet and its interface with 
other entities within DOD or within the Department of the Navy 
with respect to Cyber and whether those relationships are now 
clarified.
    Admiral Roughead. Yes, sir, and I have been very pleased 
with how Tenth Fleet has come on. It has only been in existence 
now for a little over a year but the way that we aligned Tenth 
Fleet as a direct reporting component to U.S. Cyber Command and 
then the joint task forces under the Tenth Fleet, it has proven 
to be very responsive and very nimble and has given us a global 
view and a global response quite frankly that we did not have 
in the past.
    I think the command relationships are strong. I have 
empowered the Tenth Fleet commander budgetarily in ways that I 
have not done with other fleet commanders so they can move much 
more quickly. He can respond much more quickly.
    I believe that the dialog and the interaction, and the 
coordination that takes place among the service components is 
also going very well. So I think it is--I am very pleased with 
what I see.
    Mr. Young. Thank you, Admiral.
    This line of conversation came up. I represent a district 
in southeastern Indiana and there is a large naval base, Crane, 
the naval service warfare center just outside the boundaries of 
our district. There is a great electronic warfare component to 
the services they offer there but they are also quite skilled 
in some different cyber areas.
    And we were discussing whether there are any training 
programs, First Doctrine, has that been developed in a joint 
way with respect to Cyber? And then training programs pursuant 
to that doctrine? And could you perhaps speak to that, and I am 
hopeful that Crane will find some role in assisting with that 
training too.
    Admiral Roughead. Yes, sir. And I think that the other 
thing that we have put a lot of emphasis on is the human 
dimension to this. We created the information dominance core, 
bringing together all the skills, about 45,000 people. And we 
in the Navy have the center for information dominance, 
essentially the school house for all of the services down in 
the Pensacola area for the Navy.
    The other thing that we have done and I think this is where 
it ties in to Crane, Indiana, is that the Space and Warfare 
Systems Command has now--it really couples in better to Tenth 
Fleet and Cyber and the N26 organization the director for 
information dominance on my staff in ways it has never been 
able to do before, and I think it has the potential to bring 
the centers, the labs, places like Crane into that environment 
where we can be much more effective and where we can train and 
where we can also use those assets more effectively.
    Mr. Young. Thank you, Admiral.
    One final follow-up here. If our Navy and I have seen naval 
service and especially as a Marine myself, if our Navy and 
Marine Corps were to have a Pearl Harbor-level cyber attack, so 
to speak, would we be able to reconstitute our capabilities in 
a short period of time or would--is there some methodology, 
some apparatus out there for us to continue operations, even 
after having absorbed such an attack?
    Admiral Roughead. I think that was one of the reasons why 
we have restructured ourselves, why we have created the Tenth 
Fleet was to be able to respond and be much more nimble and 
agile.
    I think it would be--you know, there is probably not one 
definition of a Pearl Harbor type Cyber attack. If it is 
regional clearly we have the redundancies globally to be able 
to respond to that. If it is at a particular system or network 
I believe that we have redundancies to be able to accommodate 
that.
    Would there be effects? Absolutely. But that is why we put 
in place the structures that we have, and as you know this is 
really an evolving area, but I believe that how we posture 
ourselves organizationally and with our talent today and the 
young sailors that do this. They are absolutely eye-watering. I 
believe we are well positioned to go into the future.
    Mr. Young. Thanks so much.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for your service and for being 
here, and on a personal level for always being available for 
questions. It has been a really strong relationship, and I 
really am grateful for that.
    I am not sure whether anyone has asked about this question 
but I wanted to be sure I had a chance to check in with you on 
it. I know that the Navy, like so many other services, has had 
a challenge really of filling the number of medical personnel 
that it deems necessary.
    And I want to know what the current assessments are now for 
the Navy reserve and active duty component. How do you plan to 
meet a 100 percent of the need that you have by the end of the 
year?
    Secretary Mabus. In terms of doctors and nurses we are--we 
think we will meet the 100 percent requirement, where we are 
continuing to have some issues with psychological health 
professionals.
    And we are trying to cast as broad a net as possible, we 
are also doing incentives to come in to naval service for 
people like that and also incentives for remaining on active 
duty. But as you pointed out, the medical corps whether 
doctors, nurses, or on the battlefield, corpsmen constitutes 
one of the strongest links that we have to have to take care of 
our sailors and our Marines, and it is something that the CNO, 
the Commandant and I focus on in a very strong way on an 
enduring basis.
    And one of the great strands in that link is Balboa and the 
work that they are doing with our wounded warriors on things 
like amputations and bringing our wounded warriors back into 
either the service or the civilian community whole and ready to 
move forward with their lives.
    Mrs. Davis. It is an extraordinary job that is being done 
for those who have been severely wounded. I would certainly 
agree with that.
    Our numbers would indicate that the reserve is coming close 
to the 100 percent but that the Navy really is still falling 
quite a bit below that, somewhere in the neighborhood of 55 
percent. Are we just off in seeing that?
    Admiral Roughead. I think we are challenged a bit on the 
reserve side because as you know many of the reserve is filled 
with people leaving active duty. We don't have as many people 
leaving active duty as we used so there are some challenges 
associated there.
    But we really have stepped up the efforts in the active 
side. As the Secretary mentioned in the mental health area we 
are--right now we are about 139 short out of around 830 or so 
professionals, but I would submit that that is a national issue 
that we are dealing with as well in the area of mental health. 
That there is a greater demand than there is a supply for that, 
but we continue to work this very hard, and we will stay in 
very close touch with you and with your subcommittee on this.
    Mrs. Davis. Can I turn to the issue of tuition quickly 
because perhaps you haven't had a chance to talk about that. I 
understand that the Navy has begun to track the tuition 
assistance programs to gain a better understanding of how 
sailors are actually using this money.
    And you have distinguished between the profit and the not-
for-profit schools. Could you go into a little bit of detail 
regarding how these degrees are being used and if there is a 
difference between the degrees obtained from these 
institutions?
    Admiral Roughead. Ma'am, I will take the question on the 
differences in how we are using the degrees between profit and 
nonprofit. And I would like to take that for the record if I 
could, but we have given our tuition assistance programs a very 
hard look as we look across all of the programs that are 
available to our sailors, whether it is the GI Bill and the 
Transferability Tuition Assistance and then MyCAA [Military 
Spouse Career Advancement Account Program] is another program 
to see how they all fit together.
    [The information referred to can be found in the Appendix 
on page 155.]
    Admiral Roughead. We did put in place some guidelines, some 
new guidelines on the tuition assistance. We want it to lead to 
something so we have wanted sailors to have a plan. We also put 
some restrictions on the first year of service because as a 
sailor comes in and checks into a command they may take on some 
educational obligations that then become a little difficult to 
deliver on because of the pressures of their jobs.
    So we have put some more structure and some more guidelines 
in place.
    Mrs. Davis. May I ask very quickly. General Amos, has the 
Marine Corps stopped giving tuition assistance and relying only 
on the GI plan now, understanding that the constraints that you 
are under, but is that--am I representing that correctly?
    General Amos. Ma'am, I am going to have to come back to you 
on that for the record as well. What I know today is there has 
been no change in the way that we have done business over the 
last 5 or 6 years but let me double-check, and I will get you 
an absolutely drop-dead accurate answer.
    [The information referred to can be found in the Appendix 
on page 156.]
    Mrs. Davis. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And Admiral, General, and Mr. Secretary, I have a question 
that stems kind of from what is going on when it comes to 
Libya, when it comes to Bahrain, when it comes to Egypt, when 
it comes to all these places that we are in, and we are not 
completely thrilled with their form of government but we know 
that we have to be there anyway, and we are going to stay there 
as long as we have to, I guess you would say. But we would like 
to operate from a, you could say, a floating platform that 
Admiral Roughead mentioned it earlier.
    We have airfields on aircraft carriers obviously that 
operate anywhere we want them to operate. And I think there is 
going to be a point in time that I can see in the next decade 
or so where we have to leave some of these places where we have 
been operating simply because we cannot support their type of 
government, whether it is a semi-tyrannical rule or a total 
dictatorship but they let us use their air.
    So my questioning goes to shipbuilding, and I have been 
reading this, General Amos, the posture of the United States 
Marine Corps, it is a motivating document and a lot of talking 
there is about projecting force. So when it comes to the number 
of amphibs [Amphibious Assault Ships] your number is 33, that 
is the minimum. I believe you have 31 and you would like 38.
    So as we are moving forward to this time or we might be 
having to pull off of our land basis that we have established 
at various places throughout the world which in my mind makes 
amphibs that much more important. Why are we operating at the 
bare minimum? That just doesn't seem to square with me, Mr. 
Secretary, maybe, or General or everybody, if you don't mind 
answering that. Thank you.
    Secretary Mabus. Congressman, thank you, and I will give an 
overview and then ask General Amos to talk to it as well.
    Several years ago the Commandant and the CNO sat down and 
looked at amphibious requirements and in an unconstrained 
environment 38 is the number, 33 can get the job done that the 
Marines need to get done in terms of getting two brigades 
across a beach in a contested environment.
    We are building toward that 33. We are also building toward 
a little different mix of the 33, 11 big deck amphibs, LHAs 
[Amphibious Assault Ships] or LHRs [Amphibious Assault Ship 
Replacements], 11 of the LPDs [Amphibious Transport Docks], 11 
of the LSDs [Dock Landing Ships] which will give us more 
flexibility in terms of how we set up amphibious ready groups 
and how we deploy a Marine expeditionary unit as you know so 
well from your previous service.
    So I think that we have the number right, and what we have 
got to do is make sure that we get to those 33 and that we get 
to the right mix. I would like to say that in fiscal year 2016, 
the next LHA that we are going to build, we are going back to 
putting a well deck in it to give the Marines more flexibility 
in how they move on and off those ships.
    Mr. Hunter. If I could be more pointed in my question, 
these requirements were written in 2009. These requirements 
were written before what has happened this year--happened 
obviously and we can all say that in December the world will 
look a lot different than it looked in January. I think we can 
all agree on that.
    And that a lot of these places where there is civil unrest 
and that we might have to take action or not, or that we decide 
it is not worth propping up a regime simply to be there 
militarily, your requirement of 38 was done then.
    So are we--I don't know, I am still not squaring it away, 
when you say 38 is a good number and we are working towards it, 
that was 2 years ago or a year-and-a-half ago, it could be 45 
right now, and we could not have enough amphibs if we had to 
operate in two different theaters and do something because I 
know for a fact the operational number of amphibs that the 
Commandant is able to deploy at any given time is much less 
than that 33 number or the 31 number because of the rotation 
cycle and the maintenance cycle.
    So his numbers are extremely low in what he could actually 
deploy in any given time. The numbers you are working on, sir, 
are old. Those are old numbers that don't take into account, I 
don't think what has happened just this year.
    Could you respond to that please?
    Secretary Mabus. Well, number one the way that the 33 
number was arrived was in terms of operational, what is 
operational at any given time given the maintenance 
requirements and the other things that you talked about.
    Number two though is coming up with this number. It was not 
coming up with a number in a static environment. It was under 
the terms of the last QDR in 2010 presented in early--presented 
in early 2010 for the 2009 QDR. It was not only two major 
combat operations at any given point but also other--the force 
was tested against three different scenarios which included two 
major combat operations at the same time, but also other things 
that were unforeseen, that you could have a situation occur in 
a specific area of the world, in addition to the major combat 
operation which I believe is what you are getting at.
    And this force of 33 amphibs was tested against that, and 
we believe will meet those requirements.
    Mr. Hunter. Thank you, gentlemen, for your service, 
dedication and unwavering duty. We really appreciate it and so 
does the nation. We are all lucky to have you. Thank you.
    The Chairman. And just for the record, we were talking 
about 33, like we have 33. My numbers are that we currently 
have or will have by 2012, 30. We won't have 33 if everything 
goes right until 2017.
    Secretary Mabus. That is correct, Mr. Chairman.
    The Chairman. Mrs. Hanabusa.
    Mrs. Hanabusa. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here.
    First of all I would like to thank Admiral Roughead, who I 
remember from Hawaii in your years there. And my first question 
is, is to the Admiral.
    Admiral, you made an interesting comment in your testimony 
and it has to do with building tomorrow's Navy. I am curious. 
Other than the hardware, the 313 that we want to get to, and 
you did mention the whole concept of the cyber terrorism and 
battles with that. Do you have a view of what tomorrow's Navy 
is going to look like? You have been Chief of Navy now for 4 
years.
    What is your view of tomorrow's Navy that you want to 
build?
    Admiral Roughead. Thank you for the question. And I would 
say that tomorrow's Navy still has to have the flexibility, the 
agility, and the ability to respond very quickly, the ability 
to operate far from the homeland in areas that are of great 
interest to us.
    But I do believe that it also requires us to move into this 
cyber world, which is something that we are all coming to grips 
with, to be able to operate systems, particularly unmanned 
systems, not just in the air, which is what most tend to think 
of when we talk about unmanned systems. But I think there is a 
huge potential for unmanned underwater systems. And I think how 
those net together will be a shape of the force into the 
future.
    I also look at the proliferation that is taking place and 
what are the systems that we will need there. There is no 
question in my mind that ballistic missiles will continue to 
proliferate, will continue to become more sophisticated and 
will threaten at longer ranges, which is why we in the Navy 
made the move to really make ballistic missile a core mission.
    And the reason I mentioned that is because something that 
is in Hawaii that is absolutely key to that is the Pacific 
Missile Range Facility at Barking Sands. There is no other 
place on the planet where that type of work is done, where the 
developments of this future capability will have to continue to 
evolve.
    So, you know, those are some of the things. And at the 
bottom of it all will be the young men and women that operate 
this very sophisticated force, because even when we talk about 
unmanned, it still requires a human being to direct it to make 
critical decisions and to operate it. And so, looking and 
attracting those young men and women who want to be part of 
this future Navy is something that is probably the most 
important thing that we will all be doing.
    Mrs. Hanabusa. And thank you, Admiral. And I think one of 
the understated facts that it takes someone to come here to 
know is really the ability of the Navy to have stepped up in 
Afghanistan and Iraq. And I know that a lot of the--what we 
call--OCO [Overseas Contingency Operations] is attributed to 
all of you, and I think that we owe you a great deal of 
gratitude for that.
    I also would like to know from the Secretary, one of the 
things that I have been intrigued by when we talk about the 
nuclear capabilities and the Ohio class and going from 14 to 12 
and 22 capabilities. How is that really--for lack of a better 
description, how do you get that and the President's view of a 
nuclear-free weapon type of situation? How do we get those two 
things to work together? It just seems like we are talking 
about nuclear weapons and we are talking--and our President is 
saying we are going to work towards non-nuclear weapons.
    So how do you do that?
    Secretary Mabus. Well, for the current time being, we have 
a triad of deterrence, and our Ohio-class submarines provide 
one leg of that deterrence, and I think that it is a critical 
national mission today.
    We hope to work toward a reduction in that. But until that 
day comes, I think, it is incumbent on us to not only have that 
capability, but for it to be credible, for it to be up-to-date, 
and for it to be very survivable.
    Mrs. Hanabusa. One tube, what is that capable of doing? It 
just seems like 24 to 20. They may not mean that much of a 
difference. I mean, you are talking about nuclear weapons, 
aren't you?
    Secretary Mabus. Yes, you are. But you are also talking 
about, in terms of, what the mission is and what the targets 
would be under consideration. And in terms of coming up with 
the number of tubes, we have looked particularly with the 
uniform service of what the requirements are, what the mission 
is for this submarine. And we feel confident that the number of 
tubes that we are laying in for the Ohio-class replacement will 
meet all the missions that we have.
    Mrs. Hanabusa. Thank you.
    The Chairman. Thank you.
    Mrs. Hanabusa. Thank you, Mr. Chairman.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    Mr. Secretary, I see you sitting there beside Admiral 
Roughead and General Amos. What is your title?
    Secretary Mabus. Secretary of the Navy, sir.
    Mr. Jones. Secretary of the Navy. Okay.
    In 1947, the National Security Act stated that we have four 
equal services and, in fact, it says the Marine Corps, Army, 
Navy, and Air Force as the four services given statutory 
missions. So I would assume in my mind that means they are 
equal.
    You, many times--in the 16, 17 years I have been here, I 
have heard many times that we are--the Navy and Marine Corps 
are one fighting team. Would you agree with that statement--one 
fighting team?
    Secretary Mabus. Yes, sir, one fighting team and one 
family.
    Mr. Jones. Right, one family. Well, I am pleased to hear 
that because I, again--and I won't fight the Chairman and the 
previous Chairman who have been very supportive going back to--
I believe in--that the family should carry one name and that 
name would obviously be Navy and Marine Corps.
    I have another issue, and I would like to bring this up, 
but our time goes so quickly. But I can assure you that when--I 
hope you have been to see the Navy football team play since you 
have been Secretary of the Navy.
    Secretary Mabus. I have. So far, they haven't lost when I 
have gone either.
    Mr. Jones. Well, I am sure the Navy and Marine Corps loves 
to hear that, and I mean that sincerely.
    Well, a few years ago, we were here on the weekend and the 
Navy was playing Notre Dame. And so for the first time, sitting 
in my office, I happen to observe that on one sleeve, it has 
the Navy anchor. On the other sleeve, it has the Marine emblem 
of the globe and anchor. I guess, you have noticed that on the 
jerseys.
    Secretary Mabus. Yes, sir.
    Mr. Jones. Okay. Well, again, we will fight this. We had 
423 co-sponsors in the House last year, Pat Roberts had 80 
senators and I made the statement, ``You couldn't get 80 
senators last year to agree there is a Santa Claus.''
    So we are going to take the same fight up this year. We 
believe that it is the right thing to do to share that the 
families are fully and clearly recognized as four separate 
fighting teams. And even though the Navy and Marine Corps are a 
family and we appreciate that, they should have--the coach of 
the team or the leader of the team should carry the name of 
both.
    It is a tragedy when a Marine dies in this country. And I 
have a copy of a letter that when a Marine dies, he receives a 
letter from the Secretary of the Navy, Washington D.C., with 
the Navy flag, nothing in the condolence letter about the 
Marine Corps--nothing.
    Yes, it does have in the first paragraph where it has the 
name of the Marine who was killed, that he was a Marine, but in 
the heading, the family's name in the heading does nothing 
about Marine Corps. So thank you for your precise answers. I 
appreciate that very much.
    I want to go back to a point now. I have received letters 
from you, Mr. Secretary, and the new Commandant and previous 
Commandants about my concern about clearing the name of two 
pilots who were killed in Arizona. Nineteen Marines were killed 
when they were asked to do something they never should have 
been asked to do because the plane was not ready.
    In the 1 minute I have left, I have a copy of the 
guidelines for the British Royal Air Force. If there is a plane 
crash, these are the guidelines that they try to follow. And I 
don't have the time, and you wouldn't have time enough to 
answer--to ask you but one question. I want to go to the part 
that deals with guide to the consideration of human failings. 
We call them human factors. They say human failings.
    This is the question. I would like to know if you agree 
with this or not. I realize these are the British regulations 
and not yours or not ours. Maybe I should say it that way. 
``Only in cases where there is absolutely no doubt whatsoever 
should deceased aircrew be found negligent.'' Do you agree with 
that?
    Secretary Mabus. Well, what I would agree with, 
Congressman, is that we should follow very carefully our 
regulations in terms of when we investigate an accident and the 
reports that come out of that.
    Mr. Jones. Mr. Secretary, that is fine. But I would tell 
you that your rules and regulations, when dead men cannot speak 
for themselves and dead men were put in a plane that should not 
have been doing the procedure it was, then we need to follow 
what the British say, and I will repeat it again, ``Only in 
cases where there is absolutely no doubt whatsoever should 
deceased aircrew be found negligent.''
    Thank you for your answer.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Roughead, I think I am expecting a letter from you 
by Friday regarding the P-8 and so I--well, that is all I will 
say about it. You can thank me later. But with regards to Aegis 
and looking at some other issues on one of the other 
subcommittees I have--Strategic Forces, and of course as well 
as on the Seapower, can you discuss the Sea-based Missile 
Defense requirements for our surface combatants. I know they 
are still in review.
    Has there been progress in determining what the 
requirements are for the Navy to meet the requirements of the 
Phased, Adaptive Approach and what kind of timeline are we 
seeing--what investment do we see in this budget and what kind 
of timeline do we see to meet those requirements?
    Admiral Roughead. Yes, sir. Thank you.
    We are moving forward on Phased, Adaptive Approach. And, in 
fact, the first ship and the first phase will be sailing this 
month to be part of the Phased, Adaptive Approach in Europe. We 
also have been maintaining another ship in the Mediterranean 
with ballistic missile defense capability.
    I do believe that we have been able to settle on the number 
of ships that are required. And that is what really drives the 
request in this budget to ramp up the number of ships and then 
the number of interceptors.
    Those ships are still going to be very busy, there is no 
question about that, through this 5-year plan that we have in 
place. But we have closed in and your support to get us to have 
the 41 BMD [Ballistic Missile Defense]-capable ships by the end 
of this FYDP [Future Years Defense Plan] is going to be very 
key to minimizing the stress on that BMD force.
    Mr. Larsen. Just a question on that. Is the Navy's plan to 
make these primarily BMD ships first or are these going to be 
on-call for that? That is--obviously, they can do everything a 
destroyer can do, but are we going to ask them to be BMD first?
    Admiral Roughead. They will receive more extensive training 
in BMD. They will be heavily focused on BMD. We will make sure 
that they are exercised routinely in BMD. So that will be an 
overriding case.
    But as you mentioned, these are multi-mission ships. They 
can do much more than that and, in fact, in this past week, the 
USS Stout which is the BMD ship in the Mediterranean is the 
ship that escorted the ferry that was carrying the Americans 
from Libya to Malta.
    So we can't simply say they are BMD. We expect them to do 
more. They will do more. But they are going to be the BMD 
horses of the Navy.
    Mr. Larsen. Great. With regards to the Next Generation 
Jammer, do we have a timing on the fielding of that? I know the 
budget just starts putting money into it, but what is the 
timing on fielding to replace--do you have anything on that?
    Admiral Roughead. I will get back to you on the exact 
timeline on that. But clearly, by the end of the decade, it is 
where we want to be with that--capabilities.
    [The information referred to can be found in the Appendix 
on page 156.]
    Mr. Larsen. And that will be able to ship to the 35, sorry 
to the 18G.
    Admiral Roughead. Absolutely. Yes, sir.
    Mr. Larsen. Yes. Yes.
    And, Commandant, is the Marine Corps anticipating that the 
35B will have electronic attack capability or is that going to 
be--I am not quite sure. Is that going to be all in the Navy 
now or as you move away from your EA-6Bs?
    General Amos. Congressman, we transitioned from the 
Prowlers to the F-35B. We will have a significant electronic 
warfare, electronic attack capability in that airplane resident 
just the way it is coming off the line. So it is pretty 
significant.
    There is every expectation that they will take the Next 
Generation Jamming Pod that is being developed--or is developed 
now for the F-18G and more than likely--you know, or translate 
that to the F-35B. So it will be an electronic attack-capable 
airplane.
    Mr. Larsen. Okay. Okay. That is great. We have been 
tracking that--has been tracking that--this progress for a 
while.
    Secretary Mabus, see you don't get off too easy, again, we 
are going to be discussing these issues of satellites and 
probably in Strategic Forces. But the Mobile User Objective 
System programs experienced significant challenges, have 
increased costs and schedule delays, and don't feel special. 
You can apply that to a lot of our satellite programs, 
something we have all been watching and trying to get on top 
of.
    But it now appears to be on track for the first launch in 
2011 this year. Do you have concerns about any capability gaps 
or have we looked at alternatives to fill those gaps until this 
is up, as well as any gaps once the first one is up until we 
get further buses launched?
    Secretary Mabus. You are correct on all of these things. 
And the thing we are looking at to fill any capability gaps is 
commercial service on a commercial satellite to make sure that 
we don't have the gaps because this is such a critical 
component of everything that we do.
    Mr. Larsen. That is right.
    Thank you, Mr. Chairman.
    The Chairman. Secretary, Admiral, and General, thank you 
very much for your time here today and for your responsiveness. 
I am sure we will continue to work together as we go through 
the budget process.
    This hearing is now adjourned.
    [Whereupon, at 1:00 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 1, 2011

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5108.001
    
    [GRAPHIC] [TIFF OMITTED] T5108.002
    
    [GRAPHIC] [TIFF OMITTED] T5108.003
    
    [GRAPHIC] [TIFF OMITTED] T5108.004
    
    [GRAPHIC] [TIFF OMITTED] T5108.005
    
    [GRAPHIC] [TIFF OMITTED] T5108.006
    
    [GRAPHIC] [TIFF OMITTED] T5108.007
    
    [GRAPHIC] [TIFF OMITTED] T5108.008
    
    [GRAPHIC] [TIFF OMITTED] T5108.009
    
    [GRAPHIC] [TIFF OMITTED] T5108.010
    
    [GRAPHIC] [TIFF OMITTED] T5108.011
    
    [GRAPHIC] [TIFF OMITTED] T5108.012
    
    [GRAPHIC] [TIFF OMITTED] T5108.013
    
    [GRAPHIC] [TIFF OMITTED] T5108.014
    
    [GRAPHIC] [TIFF OMITTED] T5108.015
    
    [GRAPHIC] [TIFF OMITTED] T5108.016
    
    [GRAPHIC] [TIFF OMITTED] T5108.017
    
    [GRAPHIC] [TIFF OMITTED] T5108.018
    
    [GRAPHIC] [TIFF OMITTED] T5108.019
    
    [GRAPHIC] [TIFF OMITTED] T5108.020
    
    [GRAPHIC] [TIFF OMITTED] T5108.021
    
    [GRAPHIC] [TIFF OMITTED] T5108.022
    
    [GRAPHIC] [TIFF OMITTED] T5108.023
    
    [GRAPHIC] [TIFF OMITTED] T5108.024
    
    [GRAPHIC] [TIFF OMITTED] T5108.025
    
    [GRAPHIC] [TIFF OMITTED] T5108.026
    
    [GRAPHIC] [TIFF OMITTED] T5108.027
    
    [GRAPHIC] [TIFF OMITTED] T5108.028
    
    [GRAPHIC] [TIFF OMITTED] T5108.029
    
    [GRAPHIC] [TIFF OMITTED] T5108.030
    
    [GRAPHIC] [TIFF OMITTED] T5108.031
    
    [GRAPHIC] [TIFF OMITTED] T5108.032
    
    [GRAPHIC] [TIFF OMITTED] T5108.033
    
    [GRAPHIC] [TIFF OMITTED] T5108.034
    
    [GRAPHIC] [TIFF OMITTED] T5108.035
    
    [GRAPHIC] [TIFF OMITTED] T5108.036
    
    [GRAPHIC] [TIFF OMITTED] T5108.037
    
    [GRAPHIC] [TIFF OMITTED] T5108.038
    
    [GRAPHIC] [TIFF OMITTED] T5108.039
    
    [GRAPHIC] [TIFF OMITTED] T5108.040
    
    [GRAPHIC] [TIFF OMITTED] T5108.041
    
    [GRAPHIC] [TIFF OMITTED] T5108.042
    
    [GRAPHIC] [TIFF OMITTED] T5108.043
    
    [GRAPHIC] [TIFF OMITTED] T5108.044
    
    [GRAPHIC] [TIFF OMITTED] T5108.045
    
    [GRAPHIC] [TIFF OMITTED] T5108.046
    
    [GRAPHIC] [TIFF OMITTED] T5108.047
    
    [GRAPHIC] [TIFF OMITTED] T5108.048
    
    [GRAPHIC] [TIFF OMITTED] T5108.049
    
    [GRAPHIC] [TIFF OMITTED] T5108.050
    
    [GRAPHIC] [TIFF OMITTED] T5108.051
    
    [GRAPHIC] [TIFF OMITTED] T5108.052
    
    [GRAPHIC] [TIFF OMITTED] T5108.053
    
    [GRAPHIC] [TIFF OMITTED] T5108.054
    
    [GRAPHIC] [TIFF OMITTED] T5108.055
    
    [GRAPHIC] [TIFF OMITTED] T5108.056
    
    [GRAPHIC] [TIFF OMITTED] T5108.057
    
    [GRAPHIC] [TIFF OMITTED] T5108.058
    
    [GRAPHIC] [TIFF OMITTED] T5108.059
    
    [GRAPHIC] [TIFF OMITTED] T5108.060
    
    [GRAPHIC] [TIFF OMITTED] T5108.061
    
    [GRAPHIC] [TIFF OMITTED] T5108.062
    
    [GRAPHIC] [TIFF OMITTED] T5108.063
    
    [GRAPHIC] [TIFF OMITTED] T5108.064
    
    [GRAPHIC] [TIFF OMITTED] T5108.065
    
    [GRAPHIC] [TIFF OMITTED] T5108.066
    
    [GRAPHIC] [TIFF OMITTED] T5108.067
    
    [GRAPHIC] [TIFF OMITTED] T5108.068
    
    [GRAPHIC] [TIFF OMITTED] T5108.069
    
    [GRAPHIC] [TIFF OMITTED] T5108.070
    
    [GRAPHIC] [TIFF OMITTED] T5108.071
    
    [GRAPHIC] [TIFF OMITTED] T5108.072
    
    [GRAPHIC] [TIFF OMITTED] T5108.073
    
    [GRAPHIC] [TIFF OMITTED] T5108.074
    
    [GRAPHIC] [TIFF OMITTED] T5108.075
    
    [GRAPHIC] [TIFF OMITTED] T5108.076
    
    [GRAPHIC] [TIFF OMITTED] T5108.077
    
    [GRAPHIC] [TIFF OMITTED] T5108.078
    
    [GRAPHIC] [TIFF OMITTED] T5108.079
    
    [GRAPHIC] [TIFF OMITTED] T5108.080
    
    [GRAPHIC] [TIFF OMITTED] T5108.081
    
    [GRAPHIC] [TIFF OMITTED] T5108.082
    
    [GRAPHIC] [TIFF OMITTED] T5108.083
    
    [GRAPHIC] [TIFF OMITTED] T5108.084
    
    [GRAPHIC] [TIFF OMITTED] T5108.085
    
    [GRAPHIC] [TIFF OMITTED] T5108.086
    
    [GRAPHIC] [TIFF OMITTED] T5108.087
    
    [GRAPHIC] [TIFF OMITTED] T5108.088
    
    [GRAPHIC] [TIFF OMITTED] T5108.089
    
    [GRAPHIC] [TIFF OMITTED] T5108.090
    
    [GRAPHIC] [TIFF OMITTED] T5108.091
    
    [GRAPHIC] [TIFF OMITTED] T5108.092
    
    [GRAPHIC] [TIFF OMITTED] T5108.093
    
    [GRAPHIC] [TIFF OMITTED] T5108.094
    
    [GRAPHIC] [TIFF OMITTED] T5108.095
    
    [GRAPHIC] [TIFF OMITTED] T5108.096
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 1, 2011

=======================================================================

      
 RESPONSE TO QUESTION SUBMITTED BY MR. SMITH ON BEHALF OF MS. GIFFORDS

    Secretary Mabus and Admiral Roughead. To avoid duplication of 
efforts, Navy is collaborating with the other Services to develop and 
implement the use of energy efficient and alternative energy 
technologies. Specifically, Navy is fostering synergies in the 
following areas:
    Fuels: Navy is an active participant in, and former chair of, the 
Tri-Service Petroleum, Oil and Lubricants Users Group. This Group 
brings together technical fuels experts from the research, test & 
evaluation, and logistics communities to address operational issues at 
the service user level. Navy and the other services are also involved 
in the Interagency Working Group (IAWG), an information-sharing 
organization chaired by the Defense Logistics Agency and the Department 
of Energy that deals with alternative energy issues, including 
biofuels.
    Aviation: As a member of the Joint Propulsion Coordinating 
Committee, Navy coordinates with propulsion leadership and technical 
experts from the three Services to address propulsion technology 
issues. In addition, Navy is working with representatives from Army, 
Air Force, NASA, and private industry to advance the Variable 
Affordable Advanced Turbine Engine Initiative, which focuses on the 
development of aircraft propulsion and related systems technology.
    Maritime: Military Sealift Command (which provides services to 
Navy, U.S. Transportation Command, Army, Air Force, Marine Corps, 
Missile Defense Agency, and other U.S. Government Agencies) and Naval 
Sea Systems Command are collaborating on a number of initiatives such 
as Hybrid Electric Drive, shore power metering, HVAC system efficiency 
modifications, ship energy surveys, and development of energy 
dashboards to provide users with real time ship energy consumption 
information. These two organizations are also working together to 
develop an energy portfolio manager position to prioritize and track 
the progress of existing and future energy initiatives.
    Expeditionary: Navy and Army have joined forces to test an 
innovative hybrid hydraulic energy recovery system for use in military 
heavy construction equipment. Once operational, this system should 
result in significant energy savings for amphibious and expeditionary 
forces around the world. In addition, Navy anticipates a partnership 
with Army's Tank Automotive Research, Development and Engineering 
Center (TARDEC) to test a hybrid bulldozer in the near future. [See 
page 15.]

    General Amos. The Marine Corps is supported by the Naval Facilities 
Engineering Command (NAVFAC ) and energy efficiency efforts across the 
Department of Navy are implemented in both Military Construction, where 
U.S. Green Building Council Leadership in Energy and Environmental 
Design (LEED) Silver is a standard for new construction, and 
renovations and repairs. In addition, NAVFAC carries out a ``technical 
Evaluation'' program that evaluates promising technologies for larger 
scale use across the Services. Additionally, the Geothermal Program 
Office assists in geothermal resource exploration with both technical 
and geological expertise in the search for commercially viable 
geothermal resources on Marine Corps installations.
    The Marine Corps participates in Working Group efforts hosted by 
the Office of the Deputy Under Secretary of Defense (Installations and 
Environment) (DUSD(I&E)). These groups ensure that ideas are shared 
across the Services. DUSD(I&E) also develops policies that apply to all 
Services. The annual GovEnergy Conference enables the Services to share 
information with other Federal Agencies. Under this OSD oversight, the 
Marine Corps executes projects using funds from the DoD Energy 
Conservation Investment Program (ECIP). The ECIP program also funds 
demonstrations of ``pre-commercial'' facility energy technologies for 
demonstration through the Environmental Security Technology 
Certification Program (ESTCP). The Marine Corps is currently 
participating in a ``Smart Grid'' demonstration with General Electric 
that will result in valuable information on smart grid implementation 
as well as some of the practical aspects of implementing grid 
monitoring and control for energy conservation, reliability and support 
to critical infrastructure. [See page 15.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MRS. DAVIS
    Admiral Roughead. Our Sailors use their education benefits for 
professional and personal development. The Navy has partnered with 
accredited public, non-profit and for-profit colleges to offer rating-
related associate's and bachelor's degrees for all of our enlisted 
ratings. This approach enables our Sailors to improve knowledge and 
skills relevant to their profession, while providing them a valuable 
degree for transition to civilian life. For example, one of our newest 
partners, Bismarck State College in North Dakota, provides an on-line 
associate's degree in Energy Management for our Gas Turbine System (GS) 
rating. We award advancement points to our junior enlisted Sailors for 
satisfactory completion of an accredited associate's or bachelor's 
degree. Degree completion may be considered during advancement 
selection board deliberations for senior enlisted Sailors. Our Enlisted 
Sailors may also use their degrees to apply for officer commissioning 
programs.
    We do not currently differentiate among the degrees obtained from 
different schools provided the institutions are accredited by the 
Department of Education. We are working with the Office of the 
Secretary of Defense (OSD) to establish a process to conduct third-
party quality assessments of all schools that receive Tuition 
Assistance funding. This will help us identify schools, regardless of 
the type, that may not be providing a quality education for our 
Sailors. We have also supported OSD in establishing a formal complaint 
tracking process that will help us identify problem schools and take 
corrective action. [See page 44.]

    General Amos. We continue to provide tuition assistance to our 
Marines. For FY10, the Marine Corps paid $51M in tuition assistance. 
FYTD11 (though 1 March 2011), we have paid $27M from an annual budget 
of $48M.
    We do not plan to eliminate the program. The Tuition Assistance 
Program budget for FY12 has been reduced to $29.9M due to budget cuts 
and to better align with the Post 9/11 education benefit. [See page 
44.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. LANGEVIN
    Secretary Mabus and Admiral Roughead. Vulnerabilities to the Navy's 
infrastructure and facilities are reviewed through threat assessment 
analyses and incorporated into our force protections plans. Similarly, 
we conduct cyber vulnerability assessments to protect the Navy's 
utility distribution systems (electricity, steam, natural gas, fuel, 
water) and facility control systems (heating, ventilating, air 
conditioning).
    These assessments have led the Navy to identify the need for 
deployment of an Industrial Control System (ICS) sensors on a secure 
framework, to provide monitoring and prevent unauthorized access. The 
architecture of the secure framework is a closed network that carries 
all alarms, sensors, controlled access points, intrusion prevention/
detection systems and security against malware and viruses. Secure ICS 
integration is currently being piloted and will inform enterprise-wide 
implementation. The envisioned enterprise-wide implementation will be a 
phased plan to integrate all ICSs, including over 685 unique legacy and 
new shore sensor systems. We are validating the security and robustness 
of this system with Department of Homeland Security's cyber security 
experts working at the Idaho National Laboratory.
    Operationally, Fleet Cyber Command (FCC)/10th Fleet takes 
additional measures to ensure network security and reduce overall risk 
to the Navy's Command and Control infrastructure. FCC/10th Fleet 
manages stand-alone emergency power and HVAC systems at over 50 
discrete mission critical sites, which warrant added protection. [See 
page 32.]

    General Amos. [The information was not available at the time of 
printing.] [See page 32.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN
    Admiral Roughead. Next Generation Jammer is on track to achieve 
Block I Initial Operational Capability (IOC) in the fourth quarter of 
fiscal year 2019 on the EA-18G. This first block will cover the 
majority of the electromagnetic spectrum with which we are concerned. 
We will IOC Blocks II and III in 2021 and 2024, respectively, again on 
the EA-18G. [See page 50.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. The Navy estimates that its annual shipbuilding budget 
requirement, on average, is $15.0 billion per year, to attain its 
minimum floor of 313 battle-force ships. However, the Congressional 
Budget Office (CBO) estimates that the Navy will require, on average, 
$19.0 billion per year to attain its minimum floor of 313 ships. Given 
that there will be minimal to no real budget growth in the upcoming 
years, are you concerned with the Navy's ability to reach its required 
force structure?
    Secretary Mabus. No. The requirement of 313 ships remains the floor 
and the Navy is committed to building to that floor. The disparity of 
funding requirements in Congressional Budget Office's (CBO) assessment 
of the Fiscal Year (FY) 2011 Long-Range Shipbuilding Plan results from 
the difference in Navy and CBO estimating methods and assumptions about 
the design and capabilities of future ships. In the near term, CBO's 
and Navy's cost estimates are similar, however the differences become 
more pronounced over time as CBO acknowledges they have made different 
assumptions about both the size and capabilities of ships that led to 
different cost estimates.
    The Navy recognizes that building the required force structure will 
largely depend on controlling shipbuilding costs (including combat 
systems) within an affordable range. Navy is committed to maintaining 
stability in requirements, funding, and profiles in an effort to 
control costs. This will require the combined efforts of the Navy, the 
shipbuilding industry and the combat systems industry. Working in 
conjunction with Congress, the Navy will procure and sustain the force 
structure necessary to deliver the naval capabilities needed to support 
our national interests.
    Mr. McKeon. Northrop-Grumman plans to spin-off its shipbuilding 
portfolio at some point in the near future. Can you provide us your 
view on how that will affect shipbuilding infrastructure and workforce, 
and what challenges the Navy may confront as it relates to maintaining 
cost, schedule and delivery times for ships currently under contract 
with Northrop-Grumman?
    Secretary Mabus. Having performed due diligence through extensive 
analysis and protracted discussions, and following appropriate 
adjustments, the Navy does not object to Northrop Grumman Corporation's 
(NGC) spin-off of its shipbuilding business. The Navy recently awarded 
Huntington Ingalls Industries, Inc. (HII) the contract for LPD 26, and 
we are in negotiations with HII for the DDG 113 contract. The Navy's 
decision not to object to the spin-off is based on a critical review of 
HII's proposed capital structure, current contract financials, required 
capital investment and proprietary forward-looking projections. 
Ultimately, the Navy has been able to resolve concerns about the risk 
involved to this important segment of our shipbuilding industrial base 
with appropriate adjustments made by NGC. These adjustments were a 
result of the Navy's findings and captured within an agreement between 
NGC and the Navy. The Navy's concern with HII's credit rating, driven 
by its initial debt, has been offset by NGC's agreement to relieve HII 
of first quarter 2011 debts, to provide a starting cash balance of $300 
million, and to assign retentions, performance incentives, and economic 
price adjustment (EPA) payments that the Navy might owe under current 
shipbuilding contracts with NGSB to HII. The Navy regards HII as a 
responsible contractor and is proceeding to finalize the negotiations 
with the intent to award the contracts for construction of DDG 113 to 
HII.
    Mr. McKeon. Navy officials testified last year that the Department 
would be conducting a ship Battle-Force, Force Structure Assessment 
over the course of the past year to evaluate whether or not a force 
inventory floor of 313 ships is adequate to meet the National Military 
Strategy requirements applicable to the Navy. Can you provide us an 
update as to when we can expect to be provided the new Force Structure 
Assessment, and can you share with us any insight to its preliminary 
conclusions and recommendations?
    Secretary Mabus. The 2010 Force Structure Assessment has been 
completed and is currently in staffing. We expect to be able to provide 
the results to Congress within 30-60 days.
    Mr. McKeon. Last year, the Navy testified that sea-based missile 
defense requirements for surface combatants (cruisers and destroyers) 
were still in the review. Has there been any progress in determining 
sea-based missile defense requirements as it relates to Navy surface 
combatant requirements, and if so, can you describe what the forward-
based requirements are for Navy surface combatants and what that means 
to the battle-force inventory requirements regarding destroyers and 
cruisers?
    Secretary Mabus. Each Geographic Combatant Commander (GCC) 
determines its own requirements for surface combatants in each mission 
area. These requirements are adjudicated through the Department of 
Defense's Global Force Management process, which allocates the 
available Aegis ships. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet GCC demands for 
Ballistic Missile Defense (BMD) surface combatants without breaking 
established deployment length redlines. Based on threat analysis and 
steady state presence indications from the GCCs, the Navy, working with 
Missile Defense Agency, have concluded that the demand for BMD-capable 
Aegis ships will outpace capacity through approximately 2018, assuming 
standard six month deployment lengths.
    Sea-based BMD requirements in the United States Central Command and 
European Command are sourced through the rotation of Aegis ships home-
ported in the United States. The Pacific Command's sea-based BMD 
requirements are sourced primarily from the Forward Deployed Naval 
Force in Japan.
    As the demand for these ships increase, either the inventory of 
Aegis BMD-capable ships or deployment lengths must increase. 
Accordingly, Navy, in conjunction with MDA, has established a plan to 
increase the total number of Aegis BMD-capable ships across the FYDP 
from 21 to 41, of which 27 will be deployable in FY16. This plan 
includes the increase in capacity and capability of surface combatants 
either through the installation of the Aegis BMD 3.6.1/4.0.1 suite or 
Aegis Modernization program, as well as through new construction 
(commencing with DDG 113). The addition of BMD capabilities to the 
Aegis Fleet provides improved operational flexibility to GCC and Fleet 
Commanders to fulfill their various missions.
    Mr. McKeon. The Navy's budget documentation notes that, ``the 
Department's budget increases by over $900 million across the FYDP to 
address a significant increase in the cost of [the] solid rocket motor 
(SRM) component of the Trident II D5 SLBM as a result of a shrinkage 
and reorganization of the national SRM industrial base.'' Do you share 
these concerns about the solid rocket motor industrial base, what are 
their impacts, and how is the Navy mitigating these impacts?
    Secretary Mabus. Yes, the Navy shares these concerns as there has 
been an increase in the unit cost of Solid Rocket Motor (SRM) due to a 
decline in customers (end of NASA's Space Shuttle Rocket Booster and 
end of Air Force Minuteman III) for Solid Rocket Motors. Additional 
Weapons Procurement, Navy funding is required in FY 2012 to fund an 
increase in the unit cost of TRIDENT II D5 rocket motor production from 
$10.7M to $19.2M. Also included in the $191.3M are increases for 
production requalification, HMX procurement, and tooling. The Navy's 
TRIDENT II D5 rocket motor production program is now responsible for a 
significantly larger portion of the industrial base fixed costs. The 
Navy's PB12 submit estimate is based on the assumption that NASA 
continues RDT&E investment at $400M per year and the Air Force 
maintains a warm line production investment of $40M per year for 
Minuteman III to maintain critical skills. In an effort to mitigate 
impacts, Navy Strategic Systems Programs is working closely with 
Lockheed Martin Missile Space Corporation and Alliant Techsystems Inc.
    Mr. McKeon. Can you provide the committee with more detail about 
how the FY12 budget request increases research and development of 
capabilities to increase satellite communications bandwidth and 
survivability for off-ship connectivity?
    Secretary Mabus. Navy SATCOM RDT&E budget supports three major 
efforts to increase bandwidth and survivability for off-ship 
connectivity, eXtended Data rate (XDR) testing with the Advanced 
Extreme High Frequency (AEHF) satellite, development of AEHF Time 
Division Multiple Access Internet Protocol (ATIP), and the Split 
Internet Protocol (Split IP) capability.
    In FY12, both the AEHF satellite and the XDR waveform become 
available. Coupled with these capabilities, the Navy Multi-band 
Terminal (NMT) system will provide a four-fold increase in the off-ship 
survivable bandwidth. The RDT&E budget supports the formal testing of 
the NMT terminal with the AEHF satellite and the resolution of 
discrepancies discovered as a result of this testing.
    ATIP is an ancillary NMT component that allows the bandwidth from a 
single AEHF Satellite spot beam to be dynamically shared amongst 
multiple Navy NMT users. The dynamic sharing increases off-ship 
survivable bandwidth on one ship when needed, but reallocates the 
bandwidth to other ships when not needed. With the ATIP enabled 
bandwidth sharing, the Navy NMT users can fully leverage the DoD's 
space investments to effectively increase survivable off-ship bandwidth 
to all users.
    The Split IP effort develops the software to allow tactical units 
to transmit Internet Protocol traffic over one type of satellite link 
and receive the traffic over a different type of satellite link. 
Separating the transmit and receive paths efficiently uses the full 
array of DoD satellite systems for maximum off-ship bandwidth while 
increasing the survivability of these communications.
    Both ATIP and Split IP initiatives mitigate the limitations in 
bandwidth posed in a hostile satellite communications environment.

    Mr. McKeon. The Navy estimates that its annual shipbuilding budget 
requirement, on average, is $15.0 billion per year, to attain its 
minimum floor of 313 battle-force ships. However, the Congressional 
Budget Office (CBO) estimates that the Navy will require, on average, 
$19.0 billion per year to attain its minimum floor of 313 ships. Given 
that there will be minimal to no real budget growth in the upcoming 
years, are you concerned with the Navy's ability to reach its required 
force structure?
    Admiral Roughead. No. The requirement of 313 ships remains the 
floor and the Navy is committed to building to that floor. The 
disparity of funding requirements in Congressional Budget Office's 
(CBO) assessment of the Fiscal Year (FY) 2011 Long-Range Shipbuilding 
Plan results from the difference in Navy and CBO estimating methods and 
assumptions about the design and capabilities of future ships. In the 
near term, CBO's and Navy's cost estimates are similar, however the 
differences become more pronounced over time as CBO acknowledges they 
have made different assumptions about both the size and capabilities of 
ships that led to different cost estimates.
    The Navy recognizes that building the required force structure will 
largely depend on controlling shipbuilding costs (including combat 
systems). Navy is committed to maintaining stability in requirements, 
funding, and profiles in an effort to control costs. This will require 
the combined efforts of the Navy, the shipbuilding industry and the 
combat systems industry. Working in conjunction with Congress, the Navy 
will procure and sustain the force structure necessary to deliver the 
naval capabilities needed to support our national interests.
    Mr. McKeon. The Air Force Chief of Staff, General Schwartz, 
testified last week to this committee that an ``Air-Sea Battle Plan'' 
is being jointly developed, between the Air Force and Navy, for future 
operations. Can you provide us your perspective of the plan, why you 
feel it is necessary to implement, and an estimate of when we can 
expect to receive the plan's details?
    Admiral Roughead. Air-Sea Battle is a limited operational concept 
that focuses the development of integrated air and naval forces on 
addressing the evolving anti-access/area denial (A2/AD) environment. 
ASB encompasses three key elements:
    <bullet>  Institutional cooperation will be enhanced by 
establishing an enduring organizational construct that will continue 
formal collaboration to address the A2/AD environment as it evolves 
over time.
    <bullet>  Conceptual alignment will be perpetuated through the 
operational design that describes how capabilities and forces are 
integrated to accomplish operational objectives in an A2/AD 
environment.
    <bullet>  Materiel solutions and innovations will be 
collaboratively vetted to ensure they are complementary where 
appropriate; redundant when mandated by capacity requirements; fully 
interoperable; and fielded with integrated acquisition strategies 
seeking efficiencies where they can be achieved.
    Air-Sea Battle is necessary because various states and their 
surrogates are developing capabilities specifically designed to deny 
access and challenge freedom of action. Failure to effectively address 
this threat could increase risk to our forces or compel them to operate 
at extended distances from an area of conflict. Either circumstance 
threatens the ability of joint and allied forces to accomplish assigned 
operational objectives. ASB identifies and characterizes specific A2/AD 
challenges presented to the joint force, and provides solutions to 
those challenges. We expect to be able to brief key stakeholders on the 
ASB Concept in the coming months.
    Mr. McKeon. The LPD-17 San Antonio-class of amphibs has been 
plagued by quality workmanship and reliability issues. Can you provide 
us an update on how the Navy is progressing on addressing these 
deficiencies and to what extent these issues have been addressed with 
the shipyard to preclude future issues?
    Admiral Roughead. The Navy has completed thorough reviews and 
assessments of the LPD 17 Class that revealed issues in the areas of 
construction oversight, manning, and training. Corrective actions are 
being implemented and lessons learned from earlier ships in the class 
have been incorporated into later new-construction ships.
    Specifically, quality assurance (QA) and production oversight 
during ship construction were not sufficient by the Navy Supervisor of 
Shipbuilding, Conversion and Repair (SUPSHIP) and the shipbuilder, 
which impacted Main Propulsion Diesel Engines, lube oil systems, piping 
welds, and foundation bolts and power train alignment. The shipbuilder 
has since developed new procedures and training for its personnel and 
added additional QA checkpoints to the shipbuilding inspection process. 
We have added additional staffing to the SUPSHIP staff with a focus on 
compliance, and we have instituted comprehensive quality audits of both 
SUPSHIP and the shipbuilder.
    The Navy is strengthening LPD 17 Class crew training by 
establishing more traditional schoolhouse training that will result in 
a blended approach of classroom, shipboard and computer based training, 
rather than relying on the previous model of extensive computer-based 
shipboard training.
    Initial system reliability issues with the engine controls, ship 
controls and interior communications systems have been addressed 
through major software upgrades to each system as well as the 
replacement of critical obsolete parts with rugged current technology 
hardware. We are replacing the ships' 1990s-era technology asynchronous 
transfer mode (ATM) shipboard wide area network (SWAN) with a current 
Gigabit Ethernet technology network hardware and software.
    An LPD 17 Class Wholeness Task Force was formed by the Fleet to 
undertake a comprehensive assessment of the overall state of readiness 
for the entire LPD 17 Class. The task force is addressing shipboard 
manning, adequacy of shore-based infrastructure support, performance of 
critical mission and propulsion systems, spare parts support, and 
adequacy of maintenance resources.
    The actions taken are resulting in better reliability and 
operational availability of the commissioned ships of the class, while 
improving the projected operational availability of the ships currently 
under construction. Recent examples are USS NEW YORK (LPD 21) 
completing, in February 2011, a highly successful Board of Inspection 
and Survey (INSURV) Final Contract Trials and USS MESA VERDE (LPD 19), 
in March 2011, departing early for its second overseas deployment in 
response to world events.
    Mr. McKeon. Last year, the Navy testified that sea-based missile 
defense requirements for surface combatants (cruisers and destroyers) 
were still in the review. Has there been any progress in determining 
sea-based missile defense requirements as it relates to Navy surface 
combatant requirements, and if so, can you describe what the forward-
based requirements are for Navy surface combatants and what that means 
to the battle-force inventory requirements regarding destroyers and 
cruisers?
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet expected future GCC 
demands for Ballistic Missile Defense (BMD) surface combatants without 
breaking established deployment length redlines. Based on threat 
analysis and steady state presence indications from the GCCs, the Navy, 
working with Missile Defense Agency, has concluded that the demand for 
BMD-capable Aegis ships will outpace capacity through approximately 
2018, assuming standard six month deployment lengths.
    Sea-based BMD requirements in the United States Central Command and 
European Command are sourced through the rotation of Aegis ships home-
ported in the United States. The Pacific Command's sea-based BMD 
requirements are sourced primarily from the Forward Deployed Naval 
Force in Japan.
    With the President's decision to pursue a phased adaptive approach 
(PAA) for the missile defense of Europe, the Navy has been working 
within the Department of Defense to identify the most efficient method 
to provide the required afloat BMD capability. The establishment of a 
forward deployed force in Europe is one of the options being assessed, 
however, no final decision has been made.
    As the demand for these ships increase, either the inventory of 
Aegis BMD-capable ships or deployment lengths must increase. 
Accordingly, Navy, in conjunction with MDA, has established a plan to 
increase the total number of Aegis BMD-capable ships across the FYDP 
from 21 to 41, of which 27 will be deployable in FY16. This plan 
includes the increase in capacity and capability of surface combatants 
either through the installation of the Aegis BMD 3.6.1/4.0.1 suite or 
Aegis Modernization program, as well as through new construction 
(commencing with DDG 113). The addition of BMD capabilities to the 
Aegis Fleet provides improved operational flexibility to GCC and Fleet 
Commanders to fulfill their various missions.
    Mr. McKeon. Can you discuss how the missile defense mission and the 
multi-mission capability of Aegis ballistic missile defense (BMD) ships 
are affecting the overall force structure requirements for the Aegis 
fleet? How is the Navy managing the limited number of Aegis BMD ships 
when demand is greater than supply?
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for its multi-mission Aegis ships; 
however, we do not have the capacity to meet all Geographic Combatant 
Commander (GCC) demands for Ballistic Missile Defense (BMD) without 
exceeding established Personnel Tempo program limits for deployment 
lengths, dwell tempo, or homeport tempo. Based on threat analysis and 
current indications from GCCs, and assuming standard six month 
deployment lengths, the Navy and the Missile Defense Agency (MDA) 
concluded that GCC demand for surface combatants with Aegis BMD 
capability will outpace capacity through approximately 2018.
    To meet the increasing demand for these ships and reduce the risk 
to our long term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan (see Figure 1 on page 165) to increase 
the number of BMD-capable Aegis ships from 23 in FY2011 to 41 in 
FY2016. This plan balances the need for meeting current operational 
requirements against the need to upgrade existing BMD-capable Aegis 
ships to pace the future threat. Included in this plan are increases in 
the Navy's capacity and the capabilities of Aegis ships through the 
installation of an Aegis BMD 3.6.1/4.0.1 suite, the Aegis Modernization 
program, or new construction (commencing with DDG-113).
    To mitigate the impact of the BMD mission, Navy has implemented an 
operating concept for AEGIS ship's conducting BMD missions that 
features a graduated readiness posture that allows BMD-capable surface 
combatants to be on an operational tether and available for other 
tasking when not directly involved in active BMD operations. Surface 
combatants operating in support of a BMD mission do not lose the 
capability to conduct other missions; however, specific mission 
effectiveness may be affected by ships' position and/or application of 
ship resources to those missions.
    Navy analysis of evolving BMD and other mission area requirements 
indicates that the current Navy BMD upgrade plan will support BMD 
Global Force Management requirements while simultaneously fulfilling 
Navy's requirements in other mission areas.
    Mr. McKeon. Aegis ships support multiple Navy missions such as 
maritime security, anti-submarine warfare, surface warfare, etc. It has 
also been noted in previous committee hearings that when an Aegis ship 
is in missile defense mode, it has less capability for ship self-
defense and therefore requires support from a second Aegis ship. \1\ 
Please discuss some of these mission optimization challenges and 
tradeoffs, and how the Navy is addressing them.
---------------------------------------------------------------------------
    \1\ Hearing of the House Armed Services Committee, ``New Plan for 
Missile Defenses in Europe and Implications for International 
Security,'' October 1, 2009, p. 25 from the hearing transcript.
---------------------------------------------------------------------------
    Admiral Roughead. All Aegis BMD capable ships have the ability to 
defend themselves against both traditional and advanced air and cruise 
missile threats while also executing the BMD mission. Simultaneous BMD 
and Anti-Air Warfare engagements were demonstrated by USS LAKE ERIE on 
June 22, 2006 and this capability is the current BMD Fleet standard. It 
is proven and remains ready today. Navy continues to work with the MDA 
to ensure that future BMD upgrades will further improve the multi-
mission capabilities of our BMD ships.
    Mr. McKeon. Admiral Roughead, according to a Defense News article 
in June 2010, ``U.S. Aegis Radars' Readiness Plunges,'' the Aegis radar 
systems are ``in their worst shape ever, raising questions about the 
surface fleet's ability to take on its high-profile new mission next 
year defending Europe from ballistic missiles.'' Discuss any Aegis 
readiness concerns you may have and how it might impact the Navy's 
ability to meet missile defense mission requirements.
    Admiral Roughead. I am confident in Navy's ability to meet our 
missile defense requirements, and I am pleased to report that the USS 
MONTEREY (CG 61) is currently deployed in the Mediterranean Sea as the 
first ship on station in support of the first phase of the President's 
European Phased Adaptive Approach to Ballistic Missile Defense.
    While several reports and studies, completed last year as part of 
Navy's ongoing self-assessment and continuous improvement efforts, 
indicated the beginning of some declining trends in various elements of 
Aegis readiness, the overall readiness of our Aegis Fleet remains high. 
A product of their ongoing success, these assessments reflected the 
elevated standards we are employing in measuring Aegis readiness, which 
may have led to the misperception that these ships are having 
difficulty meeting their assigned missions; nothing could be further 
from the truth.
    To ensure continued readiness in the future, we have initiated a 
study that will integrate previous assessment findings and provide a 
holistic assessment of Aegis readiness in terms of interoperability, 
maintainability, test & evaluation, manpower, training, and current 
development efforts. We will use the results to inform our continued 
improvement of Aegis readiness in a targeted, affordable manner to 
ensure that Aegis warships remain ready for tasking.
    Mr. McKeon. The Navy's budget documentation notes that, ``the 
Department's budget increases by over $900 million across the FYDP to 
address a significant increase in the cost of [the] solid rocket motor 
(SRM) component of the Trident II D5 SLBM as a result of a shrinkage 
and reorganization of the national SRM industrial base.'' Do you share 
these concerns about the solid rocket motor industrial base, what are 
their impacts, and how is the Navy mitigating these impacts?
    Admiral Roughead. Yes, the Navy shares these concerns as there has 
been an increase in the unit cost of Solid Rocket Motor (SRM) due to a 
decline in customers (end of NASA's Space Shuttle Rocket Booster and 
end of Air Force Minuteman III) for Solid Rocket Motors. Additional 
Weapons Procurement, Navy funding is required in FY 2012 to fund an 
increase in the unit cost of TRIDENT II D5 rocket motor production from 
$10.7M to $19.2M. Also included in the $191.3M request are increases 
for production requalification, HMX procurement, and tooling. The 
Navy's TRIDENT II D5 rocket motor production program is now responsible 
for a significantly larger portion of the industrial base fixed costs. 
The Navy's PB12 budget submission is based on the assumption that NASA 
continues RDT&E investment at $400M per year and the Air Force 
maintains a warm line production investment of $40M per year for 
Minuteman III to maintain critical skills. In an effort to mitigate 
deleterious fiscal impacts, Strategic Systems Programs (SSP) is working 
closely with Lockheed Martin Missile Space Corporation and Alliant 
Techsystems Inc toward cooperative solutions that support the 
industrial base and the nation's strategic needs.
    Mr. McKeon. Can you provide the committee with more detail about 
how the FY12 budget request increases research and development of 
capabilities to increase satellite communications bandwidth and 
survivability for off-ship connectivity?
    Admiral Roughead. The Navy SATCOM RDT&E budget supports three major 
efforts to increase bandwidth and survivability for off-ship 
connectivity: eXtended Data rate (XDR) testing with the Advanced 
Extreme High Frequency (AEHF) satellite, development of AEHF Time 
Division Multiple Access Internet Protocol (ATIP), and the Split 
Internet Protocol (Split IP) capability.
    In FY12, both the AEHF satellite and the XDR waveform become 
available. Coupled with these capabilities, the Navy Multi-band 
Terminal (NMT) system will provide a four-fold increase in the off-ship 
survivable bandwidth. The RDT&E budget supports the formal testing of 
the NMT terminal with the AEHF satellite and the resolution of 
discrepancies discovered as a result of this testing.
    ATIP is an NMT component that allows the bandwidth from a single 
AEHF Satellite spot beam to be dynamically shared amongst multiple Navy 
NMT users. The dynamic sharing increases off-ship survivable bandwidth 
on one ship when needed, but reallocates the bandwidth to other ships 
when not needed. With ATIP enabled bandwidth sharing, the Navy NMT 
users can fully leverage DoD's space investments to effectively 
increase survivable off-ship bandwidth to all users.
    The Split IP effort develops the software to allow tactical units 
to transmit Internet Protocol traffic over one type of satellite link 
and receive the traffic over a different type of satellite link. 
Separating the transmit and receive paths efficiently uses the full 
array of DoD satellite systems for maximum off-ship bandwidth while 
increasing the survivability of these communications.
    Both ATIP and Split IP initiatives mitigate the limitations in 
bandwidth posed in a hostile satellite communications environment.
[GRAPHIC] [TIFF OMITTED] T5108.101

                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SMITH
    Mr. Smith. The USMC LAV Program Manager met with HASC staff in 
January 2010 and reported significant benefits associated with Side and 
Wheel-well Armor added to the USMC fleet of LAV's. These kits were 
developed by Armatec and installed at the Barstow and Albany USMC 
Depots.
    The HASC understands that several allied countries are 
incorporating, into their LAV fleets, additional technologies developed 
by this company such as Mine Blast floor and Underbelly Protection 
Kits, Roof Mounted Blast Attenuating Seats, and Armored Self-sealing 
Fuel Tanks. Given this, along with the success of the past LAV Side and 
Wheel-well Armor Kit upgrades, the Committee believes these additional 
technologies should be evaluated as part of the LAV Survivability II 
Upgrade Program.

    <bullet>  Has the USMC LAV Program evaluated these additional 
vehicle and occupant survivability technologies? If so, report to the 
HASC all findings and follow-on actions. If an evaluation has not taken 
place, the Committee recommends that the LAV Program evaluate these 
technologies and requests a report of the findings be submitted to the 
Committee.

    <bullet>  When does the USMC LAV program expect to release RFP's 
for the Survivability II Upgrade program?

    <bullet>  Will these RFP's allow for full and open competition?

    General Amos. The Marine Corps Light Armored Vehicle Program 
Manager's Office (PM LAV) has an open dialogue with Armatec, as well as 
with other companies offering survivability capabilities, to evaluate 
follow-on vehicle and occupant survivability technologies for the LAV 
program.
    The PM LAV Office has evaluated incorporating Mine Blast Floor and 
Underbelly Protection Kits, Roof Mounted Blast Attenuating Seats and 
Armored Self-sealing Fuel Tanks as a part of the LAV Survivability II 
Upgrade Program. The Marine Corps Survivability II Upgrade Program will 
be contracting for Blast Attenuating Seats and structural reinforcement 
in the vehicle chassis. A Request for Proposal (RFP) is anticipated to 
be announced for the second quarter of FY12 under full and open 
competition. As an interim solution, the Armatec driver's seat has been 
procured for LAV use, in Operation Enduring Freedom (OEF), to improve 
driver survivability. Additionally, a contract for Self-sealing Fuel 
Tanks was awarded in September 2010. The RFP was issued as full and 
open competition with no restrictions on who could submit a proposal. 
The contract was awarded from a competitive source selection.
    Regarding Mine Blast Floor and Underbelly Protection Kits, the USMC 
LAV currently uses an underbody protection kit designed by the PM LAV 
engineering staff that has proven to be effective in the field. Our 
Light Armored Reconnaissance Battalion in OEF currently uses this kit. 
At their request, our Australian allies also are now procuring the PM 
LAV underbody solution on their vehicles in OEF.
    PM LAV's survivability upgrade evaluation efforts are fluid and 
ongoing. We will continue to evaluate increasing occupant survivability 
technologies through (1) market research across industry; (2) 
participating in a bi-annual LAV User Nation's Group meeting with the 
U.S. Army, Canadian Forces, New Zealand Army and Australian Army to 
collaborate on LAV survivability technologies that include the Armatec 
product line; and (3) participating in annual survivability technology 
review meetings with the Office of Naval Research and the Army Research 
Laboratories at which time we provide research direction to the science 
and technology community so that they can better tailor their efforts 
to meet our projected needs.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN
    Mr. Akin. For the last ten years we have been operating our 
aircraft carriers and battle group in the Arabian Gulf and Indian Ocean 
regions leaving a power vacuum in the Mediterranean. With the recent 
uprising in Tunisia, Egypt and now Libya do you see a need for our 
carrier navy to reassert itself in the Mediterranean Ocean and what 
affect will that have on our Fleet Readiness Plan and carrier Cycles?
    Secretary Mabus. Carrier Strike Groups are deployed in the 
Mediterranean several times per year. There are several factors 
involved in the timing and duration of those deployments, all of which 
require the approval of our senior civilian leadership. At this time, 
bolstered by the deployments of our coalition partners, there is no 
requirement for continuous Carrier Strike Group deployment in the 
Mediterranean. If additional Carrier presence is required in the 
Mediterranean Sea, carriers would have to shift from other areas of the 
world or curtail time for training and maintenance.
    Mr. Akin. The QDR independent panel recommended a fleet size of 
roughly 340 ships. What kind of budget would you need to get to a 340 
ship fleet?
    Secretary Mabus. The 2010 QDR Independent Panel recommended an 
Alternate Force Structure of 346 ships, the number found in the 1993 
Bottom-Up Review (BUR). However, the BUR occurred as the US Navy and 
the other three Services were trying to establish the force structure 
floor for the post-Cold War drawdown. The 346 ships called for in the 
BUR represented a simple projection of the size of the Navy in Fiscal 
Year 1999 (FY99), not a statement of long-term steady-state 
requirements. For example:

    <bullet>  The FY99 fleet projection was for 52 SSNs, but the BUR's 
long-term goal for SSNs was 45 boats.

    <bullet>  Similarly, the FY99 fleet projection included over 40 
amphibious ships, against a long-term goal of 36 ships, and over 40 
combat logistics force ships, against a long-term goal of 30-35 ships.

    Indeed, less than six months after the BUR was published, the Navy 
dropped the FY99 fleet target by 16 ships--primarily tenders and 
obsolete amphibious ships. In testimony, Navy leaders assured Congress 
that ``This difference will not affect our warfighting and forward 
presence capabilities.'' Moreover, the BUR fleet included ships not 
normally included in official battle force counts. For example, the BUR 
fleet included 27 mine warfare vessels. However, 11 of these ships were 
to be maintained in Mobilization Category B status, which do not count 
in official fleet numbers.
    If one focuses on the BUR's long-range steady-state fleet 
requirements rather than the FY99 projection, and only those ships that 
contribute to official battle force counts, the BUR essentially called 
for a fleet of some 300-305 ships. The differences between the BUR 
fleet and the Navy's current 313-ship plan are thus minor.

    <bullet>  The nucleus of the BUR fleet included 11 active and one 
reserve aircraft carrier; 45-55 SSNs, with a long-term goal of 45 SSNs; 
110-116 active surface combatants, 8-10 reserve frigates, and 27 mine 
warfare vessels (some in reserve), for a total of 145-153 surface 
warships; and 36 amphibious ships to carry 2.5 MEBs.

    <bullet>  The steady-state 313-ship fleet includes 11 CVNs; 48 
SSNs; 88 large surface combatants and 55 Littoral combat ships, for a 
total of 143 surface warships; and 33 amphibious ships to carry 2.0 
MEBs.

    <bullet>  The biggest difference between the BUR and 2010 QDR 
fleets is found in combat logistics, mobile logistics, and support 
ships. The 1993 BUR Combat Logistics Force (CLF) included single-
purpose ships like the Ammunition Ships (AEs) and Combat Stores Ships 
(AFS) that have been replaced by multi-purpose/multi-product ships in 
the fleet today. Moreover, although today's fleet includes fewer ships 
in these categories, most are now more efficiently manned and operated 
by Military Sealift Command, and meet all fleet requirements.

    Navy is confident that 313 ship force structure requirements in the 
long-range shipbuilding plan reflect the latest approved Naval Force 
Structure Assessment and should be considered the baseline vice those 
articulated in the 1993 BUR.
    The Chief of Naval Operations has stated that the Navy requires a 
minimum of 313 ships to meet operational requirements globally, and, as 
detailed in the Long-Range Plan for Construction of Naval Vessels for 
FY 2011, the Department of the Navy remains committed to reaching this 
ship number by 2020. While this minimum number remains the current 
target for force planning, the Department continues to examine this 
requirement to address the increased operational demands and expanding 
requirements for ballistic missile defense, intra-theater lift, and 
forces capable of confronting irregular challenges.
    Mr. Akin. The Navy has seen a steady decline in their manning 
numbers through such force shaping tools such as Perform-To-Serve 
(PTS). This has been occurring at the same time as their OPTEMPO has 
been steadily increasing through the War on Terror, our other Deployed 
Assets and Humanitarian response. At what point do you believe the Navy 
will reach their breaking point with regards to dwell time?
    Secretary Mabus. The various metrics that may be used to assess how 
we are doing, suggest that we are operating within acceptable 
parameters, and that we are not approaching a breaking point, nor do we 
see that occurring on the horizon. While we are currently experiencing 
high tempo thresholds, particularly in certain units or missions areas, 
Navy expects to remain above Dwell limits based on current and 
projected operational requirements.
    Mr. Akin. What are the costs associated with the purchase and later 
SLAP of an F-18E/F over a current SLEP of a current F-18C? Is it not 
more cost effective long term to purchase a more capable platform that 
can last for 9000 hours then to extend a legacy system for 1400 
additional hours?
    Secretary Mabus. The weapon systems procurement cost of an F/A-18E/
F is an average of $84.4 million (CY11$), based on the current 
multiyear procurement (FY10-13). The current planned service life of 
the F/A-18E/F is 6,000 hours ($14,000 per planned flight hour). At this 
time, the cost for a future SLEP of F/A-18E/F aircraft from 6,000 to 
9,000 hours is yet to be determined. A Service Life Assessment Program 
(SLAP) is underway and will identifying the critical areas required to 
be addressed, which will inform future costs of E/F SLEP. The estimated 
average cost to extend the service life (SLEP) of 150 F/A-18A-D Legacy 
Hornets from 8,600 to 10,000 hours is an average of $14.1 million 
(CY11$) per aircraft ($10,000 per planned flight hour).
    The Department of the Navy conducted a cost benefit analysis to 
compare alternatives to mitigate the Strike Fighter Shortfall 
considering cost, technical risk and operational requirements. The 
result of the analysis shows that the shortfall cannot be mitigated to 
a manageable level without Service Life Extension Program (SLEP) of 
some legacy F/A-18s to meet operational requirements; procuring 
additional F/A-18E/F alone will not mitigate the shortfall to a 
manageable level. Moreover, over-buying F/A-18E/Fs now is not 
consistent with the DoN strategy to procure one squadron of F-35C Joint 
Strike Fighters for each active Carrier Air Wing (CVW). SLEPing legacy 
aircraft as a bridge to the JSF is a much better transition strategy.
    Consistent with this thinking, and as presented in the Fiscal Year 
2012 President's Budget request, the DoN planned to procure a total of 
556 F/A-8E/Fs and extend the service life (SLEP) of 150 F/A-18A-D 
aircraft. The plan balances the strike fighter inventory requirement 
within the Department's limited financial resources within the Future 
Years Defense Plan (FYDP), mitigates the shortfall to a manageable 
level with acceptable risk. The addition of nine aircraft by Congress 
in the Fiscal Year 2011 Appropriations Act will increase the number of 
F/A-18E/Fs to 565, which will further reduce the risk associated with 
the inventory shortfall.
    Mr. Akin. Assuming that we cannot fill the strike fighter shortfall 
what is your aircraft allocation plan for squadrons and airwings in the 
future?
    Secretary Mabus. The Department of the Navy (DON) has an existing 
inventory of 628 Navy and Marine Corps F/A-18A-D aircraft that will 
comprise over half of Naval Aviation's TACAIR force structure until 
2013. They are scheduled to remain in the inventory through 2023. The 
Navy has also received 418 F/A-18E/Fs to date.
    In December 2010, the Secretary of Defense made changes to the 
Programs of Record (POR) for both the F-35B/C and F/A-18E/F programs. 
Compared to Fiscal Year 2011 President's Budget, the DON's procurement 
of F-35B/C aircraft was decreased by 60 and the F/A-18E/F procurement 
was increased by 41. This action also extended the last year of 
procurement for the Super Hornets from Fiscal Year 2013 to Fiscal Year 
2014. By adding 41 Super Hornets and extending the life of 150 F/A-18 
A-D aircraft to 10,000 flight hours, the strike fighter shortfall 
estimate has been reduced from about 100 aircraft to a peak of 65 
aircraft, occurring in 2018. The Department has testified that this 
level of aircraft shortfall is manageable.
    DON's procurement objectives are presented in the FY-12 President's 
Budget. The budget reflects the optimum balance of procuring new 
aircraft for a total of 556 F/A-18E/Fs, extending the service life of 
150 existing legacy Hornets, and procuring F-35B/Cs. This balanced 
approach will address the Department's need for Tactical Aircraft to 
meet requirements.
    Mr. Akin. Have we included the savings in fuel costs of a Super 
Hornet over a legacy Hornet in the long term cost analysis/benefit of 
SLEPing a legacy Hornet versus a new Super Hornet purchase?
    Secretary Mabus. The fuel consumption of a Super Hornet is 
approximately 100 gals per hour more than a Legacy Hornet; this is 
driven by engine design and aircraft weight. Hence, there are no fuel 
savings. Fuel consumption for both Super Hornets and legacy Hornets has 
been included in the Operations & Support cost estimates for each 
respective aircraft in the Cost Benefit Analysis in support of the FY 
2011 National Defense Authorization Act.
    Mr. Akin. How many planes will the Department of the Navy be short 
of its requirement of 1240 strike fighters at the peak of the strike 
fighter shortfall?
    Secretary Mabus. The Department of the Navy (DoN) is challenged 
with a Strike Fighter Shortfall due to the current F/A-18A-D aircraft 
reaching the end of their service life before the replacement aircraft 
(the F-35B/C) can be delivered into service. To address this shortfall, 
41 additional F/A-18E/F aircraft and 150 F/A-18A-D service life 
extensions (SLEP) were added to the Fiscal Year 2012 President's Budget 
request. These actions, in conjunctions with the Joint Strike Fighter 
post-Technical Baseline Review procurement rate, reduces the inventory 
shortfall to 65 aircraft in 2018. Congress' addition of 9 F/A-18E/F in 
the FY11 appropriations process further reduces the predicted shortfall 
peak to 52 aircraft in 2018. The DoN has determined that this shortfall 
is a manageable level.
    Mr. Akin. With ISR requirements increasing across the whole of the 
DOD and the Navy specifically, the Air Force appears to be maxed out in 
their ability to provide 24 hours coverage across the globe. What is 
the Navy's need and capability to provide ISR for the short and long 
term future?
    Secretary Mabus. The Global Commons, which comprises the littoral 
regions and the contiguous brown water and inshore areas, contains over 
three-quarters of the world's population, over eighty percent of all 
capital cities, and nearly all the marketplaces of international trade. 
The United States ability to operate in the Global Commons is of 
critical importance for all nations of the world who wish to be part of 
the global economy and who wish to have free access to the markets of 
the world. The United States Navy's ability to operate on the high seas 
in the conduct of future operations requires an increasingly robust 
maritime domain awareness of these waters and is the key driver for 
future Navy ISR requirements. The United State's ability to influence 
those regions and to win Overseas Contingency Operations (OCO), as well 
as future conflicts, requires not only control of the littorals, but 
rest upon a clear understanding of what is happening on those waters. 
The ability of existing and projected U.S. forces to gain access and 
conduct sustained operations in this near-land battlespace can be 
limited by the demanding natural environment (including restrictive 
features such as choke points, high shipping densities, and shallow 
waters) and a considerable adversary area-denial competency. All of 
which necessitates a robust Maritime Domain Awareness (MDA) capability.
    Another essential requirement exists to sustain and improve 
maritime ISR capabilities for U.S. Naval forces in traditional, Joint 
and combined roles to counter changing and emerging threats. Maritime 
and littoral ISR demands already outstrip the capacities of available 
naval ISR assets. The importance of establishing the capability of 
launching ISR assets from a Sea Base cannot be understated. Sea Basing 
offers an alternative to basing forces ashore in host nations that is 
less vulnerable to attack from the opposition. Sea Basing also offers 
the ability to quickly establish an ISR capability anywhere in the 
world at a moment's notice.
    The Navy's ISR ``Family of Systems'' integrates land-based and sea-
based, manned and unmanned air systems to increase capability across a 
full spectrum of maritime and littoral missions while adhering to 
fiscal restraints in a challenging budgetary environment. The legacy 
platform, EP-3, will be sustained until the system is fully 
recapitalized in accordance with the FY11 National Defense 
Authorization Act and the 2008/2009 Consolidated Intelligence Guidance. 
All aircraft will be sustained through the Special Structural 
Inspections and Special Structural Inspection Kits. The Joint Airborne 
SIGINT Common Configuration (JCC) includes the Signals Intelligence 
(SIGINT) spiral upgrades. The latest upgrade, JCC Spiral 3, will meet 
current threat and supportability challenges with advances in 
technology, and will be the baseline for any EP-3 follow-on capability.

    Currently, the Navy is focused on five land- and ship-based UAS 
platforms:

    1) Broad Area Maritime Surveillance (BAMS) UAS: An ACAT 1D program 
with an FY16 IOC, the land-based BAMS will provide persistent (24 
hours/day, 7 days/week), multi-sensor (radar, EO/IR, ESM) maritime 
surveillance capability with worldwide access, enhancing situational 
awareness of the battlespace and shortening the sensor-to-shooter kill 
chain. BAMS UAS mission operations, which are adjunct to P-8A, will 
share facilities and personnel between the manned and unmanned assets. 
Additionally, Navy and Air Force are working together to exploit 
synergies between the BAMS UAS and Global Hawk UAS programs. The FY12 
President's Budget (PB 12) requests $ $548.5M in research, development, 
testing, and evaluation (RDTEN).

    2) Unmanned Carrier Launched Airborne Surveillance and Strike 
(UCLASS): The UCLASS program will build upon technologies and lessons 
learned from the Unmanned Combat Air System Demonstration (UCAS-D). 
Utilizing the Northrop Grumman X-47B demonstrator air vehicles, UCAS-D 
will perform catapult launches, arrested landings, flight operations in 
the vicinity of a carrier, and automated air refueling by the end of 
2013. The program of record, UCLASS, will enhance the Navy's 
Information Dominance mission and will shorten the timeline to find, 
fix, track, target, engage, and assess time sensitive targets. With an 
initial capability in FY18 timeframe, the UCLASS system will integrate 
with the carrier air wings to increase the flexibility, versatility, 
and capability of the carrier force. PB12 provides $121.2M in RDTEN 
funding for UCLASS and $198.3M in RDTEN funding for the UCAS-D.

    3) MQ-8 Fire Scout Vertical Takeoff UAV (VTUAV): The MQ-8 system is 
designed to operate as an integral component of the Littoral Combat 
Ship (LCS) Mission Modules and from hangar-equipped, air-capable ships 
with an FY12 Initial Operational Capability (IOC). OSD directed Navy to 
support interim Special Operations Force (SOF) maritime sea-based 
urgent needs through FY18 using MQ-8 until a new Medium Endurance 
Maritime UAS is fielded. Support includes increasing aircraft and ship 
control station procurement, integration onto twelve additional ships, 
and implementing an Engineering Change that increases MQ-8 endurance 
(the larger airframe VTUAV+) and integrates mission specific payloads. 
Also, Navy is using the Rapid Deployment Capability process to 
integrate a weaponization capability. The PB12 funding request includes 
$108.2M in RDTEN and $192.0M in APN.

    4) Medium Range Maritime UAS (MRMUAS): MRMUAS is a planned FY11/12 
new start program to develop a multi-intelligence ISR and targeting 
platform capable of operations from any hangar-equipped, air-capable 
ship in support of MDA and Irregular Warfare mission sets, including 
maritime ISR in support of SOF. The PB12 funding request includes 
$15.0M in RDTEN.

    5) Small Tactical UAS (STUAS): STUAS is an organic ISR asset for 
Navy Special Warfare (NSW) and LSD-41 class ships with an FY13 IOC. It 
provides the deployed unit the capability to control its own ISR 
capability for use at the tactical level. The Navy plans to buy four 
systems. USMC still plans to buy 32 systems and shares RDTEN costs with 
the Navy. PB12 funding includes $12.8M in APN and $22.7M in RDTEN.

    Mr. Akin. For the last ten years we have been operating our 
aircraft carriers and battle group in the Arabian Gulf and Indian Ocean 
regions leaving a power vacuum in the Mediterranean. With the recent 
uprising in Tunisia, Egypt and now Libya do you see a need for our 
carrier navy to reassert itself in the Mediterranean Ocean and what 
affect will that have on our Fleet Readiness Plan and carrier Cycles?
    Admiral Roughead. Carrier Strike Group's are deployed in the 
Mediterranean several times per year. There are several factors 
involved in the timing and duration of those deployments. At this time, 
bolstered by the deployments of our coalition partners, there is no 
requirement for continuous Carrier Strike Group deployments in the 
Mediterranean. If additional carrier presence is required in the 
Mediterranean Sea, carriers could be shifted from other areas of the 
world or we could adjust training and maintenance schedules.
    Mr. Akin. The QDR independent panel recommended a fleet size of 
roughly 340 ships. What kind of budget would you need to get to a 340 
ship fleet?
    Admiral Roughead. The cost of a 340-ship Navy depends upon the 
capabilities and mix of ships desired in the Fleet; the associated 
effects and costs related to the shipbuilding industrial base, 
including second and third tier suppliers; and the manpower and 
operations and maintenance funding necessary to operate a 340-ship 
Navy. These factors must be determined before addressing the resources 
required to get to a 340-ship Navy.
    Mr. Akin. The Navy has seen a steady decline in their manning 
numbers through such force shaping tools such as Perform-To-Serve 
(PTS). This has been occurring at the same time as their OPTEMPO has 
been steadily increasing through the War on Terror, our other Deployed 
Assets and Humanitarian response. At what point do you believe the Navy 
will reach their breaking point with regards to dwell time?
    Admiral Roughead. The metrics we use to assess impact to the force 
on high operating tempo and lower dwell time, indicate we are operating 
within acceptable parameters, and that we are not approaching a 
breaking point for our sailors. While we are currently experiencing 
high tempo with particular units or within certain mission areas, Navy 
expects to remain above established Dwell limits based on current and 
projected operational requirements.
    Mr. Akin. What are the costs associated with the purchase and later 
SLAP of an F-18E/F over a current SLEP of a current F-18C? Is it not 
more cost effective long term to purchase a more capable platform that 
can last for 9000 hours then to extend a legacy system for 1400 
additional hours?
    Admiral Roughead. During the five-year timeframe in which our 
strike fighter shortfall will peak, there is not a significant yearly 
cost difference between performing SLEP on our F/A-18A-D aircraft and 
procuring new F/A-18E/F aircraft when the costs are amortized over 5 
and 20 years respectively. Costs associated with extending the F/A-18A-
D aircraft and operating them for an additional five years is estimated 
at $10.2 million a year, per aircraft. Procuring additional F/A-18E/F 
aircraft and operating them for five years is estimated to be $10.8 
million per year. The Navy's decision to SLEP 150 F/A-18A-D aircraft 
and procure 41 additional F/A-18E/F aircraft and the Joint Strike 
Fighter is the most viable and cost effective strategy to mitigate the 
impact of the projected strike fighter shortfall. (Costs provided in 
CY11$.)
    The Service Life Assessment Program (SLAP) for F/A-18E/F is 
underway; however there is no cost estimate on extending F/A-18E/Fs to 
9,000 flight hours. F/A-18E/F SLAP effort has not produced data yet to 
support a cost estimate for SLEP of E/F, therefore those costs are not 
included in the comparison.
    Mr. Akin. Assuming that we cannot fill the strike fighter shortfall 
what is your aircraft allocation plan for squadrons and airwings in the 
future?
    Admiral Roughead. Navy's peak strike fighter shortfall of 65 
aircraft in 2018 is manageable. With the fidelity and understanding we 
possess today, we do not plan to develop an alternative allocation plan 
for dealing with our anticipated strike fighter shortfall. Should Navy 
experience a greater strike fighter shortfall than expected, we will 
investigate a variety of options for dealing with the projected 
shortfall.
    Mr. Akin. Have we included the savings in fuel costs of a Super 
Hornet over a legacy Hornet in the long term cost analysis/benefit of 
SLEPing a legacy Hornet versus a new Super Hornet purchase?
    Admiral Roughead. Fuel consumption for both Super Hornets and 
Legacy Hornets has been included in the Operations & Support cost 
estimates in the SLEP Cost Benefit Analysis conducted in support of the 
FY 2011 National Defense Authorization Act. Because the fuel 
consumption of a Super Hornet is approximately 100 gals per hour more 
than a legacy Hornet, we do not anticipate any fuel-related cost 
savings.
    Mr. Akin. How many planes will the Department of the Navy be short 
of its requirement of 1240 strike fighters at the peak of the strike 
fighter shortfall?
    Admiral Roughead. Based on the 2012 President's Budget, the 
Department of the Navy projects it will experience a peak inventory 
shortfall of 65 aircraft in 2018, should the following conditions 
exist: accelerated transition of ten F/A-18 legacy Hornet squadrons 
into Super Hornets; the service life extension of approximately 150 
legacy Hornets; and procurement of a total of 556 F/A-18E/F Super 
Hornets. As I testified, this aircraft shortfall is manageable.
    Mr. Akin. With ISR requirements increasing across the whole of the 
DOD and the Navy specifically, the Air Force appears to be maxed out in 
their ability to provide 24 hours coverage across the globe. What is 
the Navy's need and capability to provide ISR for the short and long 
term future?
    Admiral Roughead. The Navy's need to conduct current and future 
operations in service, Joint and combined roles requires robust 
maritime domain awareness and is the primary driver for Navy 
Intelligence, Surveillance and Reconnaissance (ISR) requirements.
    Current demand for maritime and littoral ISR exceeds existing Navy 
ISR capacity. We are investing in an ISR ``Family of Systems'' that 
integrates land-based and sea-based, manned and unmanned, air systems 
to increase ISR capability and capacity for the full spectrum of 
maritime and littoral missions. Programs essential to improving our ISR 
capability and capacity include: Broad Area Maritime Surveillance 
(BAMS) Unmanned Aerial System (UAS), Unmanned Carrier Launched Airborne 
Surveillance and Strike (UCLASS) system, MQ-8 Fire Scout Vertical 
Takeoff UAV (VTUAV), Medium Range Maritime UAS (MRMUAS), and Small 
Tactical UAS (STUAS). Our Presidential Budget FY12 submission funds 
development and/or procurement of each of these systems. We will 
continue to sustain and modernize our EP-3 aircraft, including spiral 
upgrades of SIGINT capability, until a replacement capability can be 
fielded.

    Mr. Akin. What is your goal for the cost of the replacement for the 
EFV?
    General Amos. We will assess affordability of future vehicles based 
on assumptions of a declining budgetary environment. Historically, 
ground combat and tactical vehicle procurement has accounted for 33% of 
our overall Service level procurement account. The addition of the EFV 
alone at a projected $17M cost per vehicle in a continuously forecasted 
declining budgetary environment would have consumed the preponderance 
of our procurement account and 100% of our operations and maintenance 
account through 2025. Procuring a modern amphibious vehicle at a unit 
cost of $8M (calculated in FY11 dollars) is affordable based on 
procurement budget projections. Operations and maintenance allocations 
are expected at 7% annually of the vehicle price, or $560K/year per 
vehicle. A vehicle of $12M also is affordable if funding continues at 
the projected FY16 level. Therefore, we judge that a range of $8-12M 
per vehicle is affordable
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Secretary Mabus, there seems to be some confusion 
here on the Hill about the Administration's position on the realignment 
of Marines from Okinawa, Japan to Guam. Can you detail the rationale 
behind the current budget of $155 million for military construction on 
Guam directly related to the military build-up? This direct U.S. 
funding for the realignment is significantly smaller than the 
Government of Japan contributions. Why is there a discrepancy and does 
this mean there is any shift in position by the Obama Administration 
for the realignment of Marines? In my opinion, the current funding 
level seems consistent with concerns that were raised by this Committee 
last year and are concurrent with the Adaptive Program Management 
mitigation measure outlined in the Record of Decision but we would 
appreciate your insights on this matter.
    Secretary Mabus. In determining the request for FY-12, the 
Department considered the concerns noted by Congress in the FY-11 
National Defense Authorization Act Joint Explanatory Statement. The 
Department is committed to executing the realignment in a deliberate 
manner and funding decisions were made to take the time to work towards 
resolution of these issues. Additionally, as discussed in the Record of 
Decision for the Guam and Commonwealth of the Northern Mariana Islands 
Military Buildup, the Department will use Adaptive Program Management 
to adjust the pace and sequencing of construction projects so that the 
buildup does not exceed Guam's infrastructure capacities. Efforts are 
underway to increase the capacity of Guam's commercial port, using; $50 
million in Department of Defense (DOD) funding and $54 million in 
United States Department of Agriculture financing; improve roadways 
using Defense Access Road funding ($49M authorized in FY10 and $67M 
authorized in FY11); and address critical improvements to Guam's 
utilities systems by applying financing from the Government of Japan. 
As these upgrades come online, the pace of construction can be adjusted 
accordingly. Projects requested in FY-12 are those that are necessary 
at this time to support future vertical construction and also to 
support the introduction of off-island workers necessary to ramp-up 
construction over the next few years.
    At $167 million, the Government of Japan's direct cash contribution 
for Japanese Fiscal Year (JFY) 2011 is comparable to DOD's $156 million 
request. The Japanese Diet is currently considering $415 million in 
utilities financing in JFY-11 in addition to the direct cash 
contribution. $273 million of this utilities financing will be applied 
to critical upgrades to wastewater systems off-base, which will support 
the relocating Marines and Guam's population growth in the long-term 
and in time to support the requirements of the off-island construction 
workforce. The balance of the JFY-11 utilities financing will be used 
for improvements to the Navy's water system on base and will eventually 
be married up with the P-2048 Finegayan Water Utilities FY12 MILCON 
project request. Coupled with the efforts noted above, these 
improvements will allow for the construction program to ramp-up.
    Ms. Bordallo. My top legislative priority is the passage of H.R. 44 
the Guam World War II Loyalty Recognition Act. We advanced the bill 
forward with the Senate by agreeing to some compromises but that was 
due in large part to the Department of Defense's support. As you know, 
the people of Guam are expected to concede additional land for a firing 
range for the Marines and I would be remiss if I didn't point out that 
the resolution of Guam war claims is important to getting the build-up 
done right. To that end, Secretary Mabus and General Amos can we count 
on both of you to support H.R. 44? Is there recognition of the 
importance of this bill's passage to getting the build-up done right?
    Secretary Mabus. The Department understands the importance of 
resolving war reparations to the people of Guam. In December 2010, 
Deputy Secretary of Defense William Lynn sent a letter to Senate Armed 
Services Committee chairman Senator Carl Levin in support of the Guam 
Loyalty Recognition Act. The Department remains in support of the Guam 
Loyalty Recognition Act as stated in the letter.

    Ms. Bordallo. Under Secretary Work outlined 4 key pillars for the 
military build-up and one of those was 24/7, unimpeded access to the 
Pagat cave and nearby historical and cultural sites. Can you tell me 
what is being done to reconfigure to the potential firing range to meet 
this pillar? I remain skeptical that the Department of Defense will be 
able to obtain the land necessary for this firing range and so, again, 
I urge the Marines and the Department of the Navy to seriously consider 
using Tinian for the firing range to meet the full spectrum of 
individual and unit-sized training that is necessary. Are the Marines 
continuing to look into Tinian to meet the full spectrum of training 
requirements?
    General Amos. The Department of the Navy has not yet issued the 
Training Record of Decision finalizing the location of the firing 
ranges at Route 15. When that decision is made and a follow-on survey 
of the Route 15 area occurs, the Marine Corps will be able to finalize 
a range design that allows 24/7 unimpeded access to the Pagat 
historical site. The ranges planned in the Final Environmental Impact 
Statement (FEIS) for Guam are critical to meeting Marine Corps 
individual training requirements. The Tinian ranges outlined in the 
FEIS complement, rather than replace, the Guam ranges and provide 
limited small unit common skills training utilizing up to 5.56mm 
ammunition only.
    Ms. Bordallo. My top legislative priority is the passage of H.R. 44 
the Guam World War II Loyalty Recognition Act. We advanced the bill 
forward with the Senate by agreeing to some compromises but that was 
due in large part to the Department of Defense's support. As you know, 
the people of Guam are expected to concede additional land for a firing 
range for the Marines and I would be remiss if I didn't point out that 
the resolution of Guam war claims is important to getting the build-up 
done right. To that end, Secretary Mabus and General Amos can we count 
on both of you to support H.R. 44? Is there recognition of the 
importance of this bill's passage to getting the build-up done right?
    General Amos. The Marine Corps fully supports the Department of 
Defense position in support of the Guam World War II Loyalty 
Recognition Act as stated by the Deputy Secretary of Defense in his 
December 8, 2010 letter to Chairman Levin. The Marine Corps lauds the 
courage and fidelity displayed by the people of Guam during this dark 
chapter in their history and acknowledges this legislation as a 
significant step forward in providing closure for the People of Guam 
who endured unimaginable hardship, but who never lost faith in the 
United States.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. 1. Given predicted FY12 shortfall of $367 million and 
deferral of 44 maintenance availabilities, how do you plan to maintain 
a ready surface fleet that meets estimated service life and reduces 
INSURV failure rate?
    Secretary Mabus. Although it would be desirable not to defer 
maintenance, most of the work being deferred are the small, non-
docking, pier-side surface ship maintenance periods that we know by 
experience can be temporarily delayed without substantial risk to 
achieving expected service life. The Surface Maintenance Engineering 
Planning Program (SURFMEPP) enables the Navy to mitigate risk by using 
available funding to schedule and complete the most critical 
maintenance in FY12. SURFMEPP also formally tracks deferred work and 
reschedules it for future maintenance periods, allowing future budget 
requirements to accurately reflect the full surface ship maintenance 
requirement. The FY12 President's Budget represents the best balance of 
risk and available resources across the Navy Enterprise portfolio.
    Mr. Forbes. 2. With regards to your ongoing Force Structure 
Assessment:
    a. What assurances will you provide Congress that your conclusions 
on required force structure are based on the totality of threats and 
the strategy to handle those threats rather than driven by budgetary 
constraints?
    b. In light of numerous recent INSURV failures and clear evidence 
that the expected service lives of our ships are being reduced due to 
deferred and unperformed maintenance, can we expect the Force Structure 
Assessment to consider shorter service lives of our current fleet in 
assessing the future requirements?
    c. On Feb 3, 2010, the Secretary of Defense testified that the 
``outyears toward the end of the 2030's'' of the 30-year shipbuilding 
plan ``is mainly fantasy.'' Given this assessment, should we be 
prepared to see a lowering of the current ``floor'' of 313 ships, 
driven by budgetary pressures, when the Force Structure Assessment is 
released?
    Secretary Mabus. a. In addition to A Cooperative Strategy for 21st 
Century Seapower and the Naval Operations Concept 2010, the Quadrennial 
Defense Review, Nuclear Posture Review and Ballistic Missile Defense 
Review provided strategic guidance, threat assessments and analysis 
that validated Navy's force structure requirements. This guidance 
supports a global posture of distributed, mission-tailored ships, 
aircraft, and units capable of regionally concentrated combat 
operations and peacetime theater security cooperation.
    The Long-Range Plan for Construction of Naval Vessels projects the 
affordable procurement and available inventory of ships over the next 
30 years. This shipbuilding plan is where the Navy balances the demands 
for naval forces with expected future resources.
    b. The Navy force structure requirements provide sufficient 
rotation base to sustain global posture indefinitely without 
jeopardizing service lives of platforms. Additionally, the Navy will 
carefully manage and closely monitor the material condition of these 
legacy ships during the various maintenance and modernization periods 
as they progress through their service lives. The Navy intends to 
utilize spiral upgrades to the maximum extent possible to help 
modernize existing ships and prevent block obsolescence causing 
unacceptable gaps in capability and capacity.
    c. 313 remains the floor. Since the release of the Maritime 
Strategy, the Chief of Naval Operations has stated that the Navy 
requires a minimum of 313 ships to meet operational requirements 
globally. This minimum remains valid. The Navy will continue to examine 
this requirement in conjunction with the increased operational demands 
and expanding requirements for ballistic missile defense, intra-theater 
lift, and irregular challenges.
    Mr. Forbes. Regarding the Department of the Navy proposal to base a 
carrier in Mayport, FL beginning in 2019:
    a. In testimony before the House Armed Service Committee on January 
26th, 2011, VADM Greenert stated that the move to Mayport was 
considered when the Department of the Navy evaluated it's efficiency 
initiatives and that the strategic necessity of the move outweighed the 
cost. In a conversation with Under Secretary of the Navy Work on 
January 6th, I was informed that the Mayport proposal was not 
considered in the efficiency decision. Which of these statements is 
accurate?
    b. If the Navy evaluated this proposal as part of its efficiency 
determination, please provide this analysis.
    c. How does the strategic priority of basing a carrier at Mayport 
compare with the priority of fully funding the maintenance of our 
existing fleet to ensure that our current inventory of ships achieve 
their intended service life? Please provide details.
    d. Given that the FY12 budget proposal includes $15 million for 
road improvements at Naval Station Mayport in anticipation of future 
carrier basing, along with an additional $549 million in other related 
MILCON over the next 3 years, why is the Navy willing to accept a $367 
million shortfall in its ship repair account and the deferral of 44 
maintenance availabilities?
    Secretary Mabus. a. Admiral Greenert testified that the costs 
associated with moving a nuclear carrier to Mayport were considered as 
part of the Navy's ``budget preparation'', vice as an efficiency. This 
is not contradictory with Under Secretary Work's statement that the 
costs associated with moving a nuclear carrier to Mayport were not 
considered in the efficiency initiatives.
    b. This proposal was not evaluated as part of the efficiency 
initiatives.
    c. Both are strategic priorities. The Navy's budget submission 
represents the best balance of funding amongst all priorities.
    d. The Navy's FY12 budget submission, which includes $15M for road 
improvements at Naval Station Mayport, and an additional $398M in other 
related MILCON across the FYDP for completing the remaining projects 
necessary to homeport a carrier there, represents the best balance of 
funding amongst all the Navy's priorities. Although we will defer $367M 
of maintenance, primarily in the Surface Force, the work accomplished 
by the Surface Maintenance Engineering Planning Program (SURFMEPP) 
enables us to mitigate risk by scheduling and completing the most 
critical maintenance in FY12.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. In relation to the Navy's ``Green Hornet'' Program, 
where a Navy F/A-18 successfully completed test flights using a 50/50 
bio-fuel blend and the Marines Corps' 3rd Battalion 5th Marines 
employment of the Experimental Forward Operating Base (ExFOB) in 
Afghanistan can you answer the following questions:

    <bullet>  How do these types of programs fit within the context of 
the Navy's overall Operational Energy Strategy?

    <bullet>  What is the inter-service process for sharing these 
operational energy lessons learned?

    <bullet>  Can you describe the strategic impact of access to a 
scaleable bio-fuel on the Department of the Navy's global roles and 
responsibilities?

    Secretary Mabus and Admiral Roughead. The Navy's Biofuels Program 
and the Marine Corps' Experimental Forward Operating Base Program are 
on the leading edge of our Operational Energy initiatives. In order to 
achieve the SECNAV goal of having 50% of Department of the Navy's 
energy come from alternative sources by 2020, we need to be bold and 
innovative. Our operational energy strategy relies on programs like 
these to continually push the envelope.
    Within our biofuels program, we are sharing data and information on 
our testing and certification process on our hydrotreated renewable jet 
fuels. We are going to work together on the CV-22/MV-22 airframe since 
Navy and Air Force both fly it. With the lessons learned in our 
Experimental Forward Operating Base, we are sharing the technologies 
and information with the Navy Expeditionary Warfare Group and the Army.
    The Department of the Navy's switch to biofuels, in and of itself, 
will not reduce the nation's total energy consumption by a significant 
margin. To achieve this and extend our tactical reach, the Department 
of the Navy is pursuing energy efficiency initiatives, which together 
with the use of alternative fuels will achieve significant cost 
savings, guarantee energy supply, and reduce operational risk.

    Benefits of our approach include:

    <bullet>  Cost savings. Increasing our use of alternative energy 
sources helps us achieve a level of protection from energy price 
volatility. For every $10 increase in the cost of a barrel of oil, the 
Navy spends an additional $300 million dollars a year. Operating more 
efficiently saves money by reducing the amount we spend for fuel. 
Savings can be reinvested to strengthen combat capability. The cheapest 
barrel of fuel afloat or kilowatt-hour ashore is the one we will never 
use.

    <bullet>  Guaranteed Supply. Our reliance on energy can be 
exploited by potential adversaries. Efficiency and alternatives may be 
our best countermeasure. Energy efficiency increases our mission 
effectiveness by expanding our range and endurance, and reducing our 
need for logistics support. Efficiency improvements minimize 
operational risks of that logistics tether, saving time, money, and 
lives. Alternative fuels provide the Navy an `off-ramp from petroleum,' 
mitigating the risk to a volatile and ever more expensive petroleum 
market.

    <bullet>  Early Adopter of Technologies. The military has often led 
in the development of new technologies where there was a compelling 
military use, even if the civilian use was ultimately greater (ex. GPS, 
the Internet). The operational use of alternative fuels by the 
Department of the Navy will be hastened by collaborating with federal 
agencies and private industry at every step of the research, 
development, and certification process. The alternative fuel program 
establishes the Department of the Navy as an early adopter for 
investors in a nascent industry that could significantly enhance energy 
security, and thereby national security, in the mid- to long-term.

    <bullet>  Fossil Fuel Independence. The Navy recognizes that our 
dependence on fossil fuels and foreign sources of oil makes us more 
susceptible to price shocks, supply shocks, natural and man-made 
disasters, and political unrest in countries far from our shores.

    <bullet>  Combat Capability. Making our ships and aircraft more 
efficient improves their fuel economy. We can increase the days between 
refueling for our ships, improving their security and combat 
capability. We can also extend the range of our aircraft strike 
missions, allowing us to launch our aircraft farther away from combat 
areas. Increasing our efficiency and the diversity in our sources of 
fuel improves our combat capability strategically and tactically.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. MILLER
    Mr. Miller. Secretary Mabus, according to recent media reports, the 
Secretary of the Army has halted the insourcing of contractor positions 
within his department because the expected cost savings were not 
realized. Do you plan to implement a similar freeze within the 
Department of the Navy?
    Secretary Mabus. The DON is not abandoning all in-sourcing, but re-
evaluating priorities and all workforce balancing efforts to meet FY 
2012 budget expectations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. 1. When will the Navy achieve a 50% bio-fuel usage 
level?
    Admiral Roughead. DoN does not have a specific bio-fuel usage goal. 
The Secretary of the Navy's goal is for DoN tactical energy use to 
consume at least 50% alternative energy, to include nuclear, by 2020.
    Mr. Kissell. 2. What percent of Navy fuel is nuclear? What 
percentage will be nuclear once we achieve 50% bio-fuel usage level?
    Admiral Roughead. Tactical fuel usage is defined as all fuel usage 
to maintain operations of our ships (including logistics ships), 
submarines, aircraft, and expeditionary ground vehicles/equipment. The 
Navy currently utilizes nuclear propulsion only for its aircraft 
carriers and submarines. As the below graph indicates, the Navy's 
tactical energy usage today is 72% petroleum and 28% nuclear power. 
Nuclear power's contribution is not projected to change appreciably as 
the Navy goes about achieving the Secretary of the Navy's energy goal 
of 50% alternatives by 2020. As is graphically depicted, Navy's Energy 
Vision is multi-faceted: enhancing our combat capability through 
operational efficiencies, an ethos towards energy that saves us 5M 
barrels of oil per year by 2020, and supplanting 8M barrels of 
petroleum with `drop-in' biofuels to give us an `off-ramp', in terms of 
price and availability, from petroleum. Much of this fuel, particularly 
for our local training needs, could be domestically produced. Together 
with nuclear, these new fuels will reduce our risk to petroleum 
volatility.

[GRAPHIC] [TIFF OMITTED] T5108.103

    Mr. Kissell. 3. What type of bio-fuel is being utilized?
    Admiral Roughead. The Navy is currently testing and evaluating 
hydrotreated renewable fuels. These fuels are derived from algae and 
camelina.
    Mr. Kissell. 4. What is the Navy's/DOD's primary source of bio-
fuel?
    Admiral Roughead. The Navy is currently testing and evaluating 
hydrotreated renewable fuels derived from algae and camelina. Defense 
Logistics Agency--Energy (DLA Energy) procures all fuels for the Navy 
through competitive procurement.
    Mr. Kissell. 5. What is the daily percentage of bio-fuel 
consumption in all Department of the Navy operations?
    Admiral Roughead. Bio-fuel usage for tactical systems is limited to 
test and evaluation only. It is not yet approved for operational use 
and therefore not currently incorporated into the DON fuel supply.
    Mr. Kissell. 6. What percentage of total naval fuel consumption is 
this (bio-fuel usage)?
    Admiral Roughead. Currently 0% of total naval tactical fuel 
consumption is from biofuel. In FY09 and FY10, 285,000 gallons of bio-
fuel were procured for test and evaluation purposes only.
    Mr. Kissell. 7. What is the Navy's current capability to produce 
bio-fuels? If the Navy is not the lead on production then what efforts 
are the Navy and the Department of Defense taking to establish a 
production capacity that will facilitate a 50% bio-fuel usage by 2020?
    Admiral Roughead. The Navy is only testing and evaluating biofuel 
to support the Secretary of the Navy's goal for 50% alternative energy 
use (including nuclear) by 2020. The Navy is not producing and does not 
plan to produce bio-fuel. The Navy and the Department of Defense are 
partnering with commercial entities that use biofuels to establish a 
demand signal that demonstrates industry viability. Additionally, the 
Navy and Department of Defense are partnering with the Department of 
Energy and the US Department of Agriculture to spur biofuel 
development.
    Mr. Kissell. 8. What generation bio-fuel is being utilized?
    Admiral Roughead. The classification system used to categorize the 
generation of bio-fuels has not been standardized; however, the Navy is 
testing a range of bio-fuels, which include those considered to be 
second or third generation fuels.
    Mr. Kissell. 9. What efforts/initiatives is the Navy implementing 
to address the Chinese anti-ship missile?
    Admiral Roughead. The Navy has made significant investment in 
kinetic and non-kinetic capabilities to counter the threat of anti-ship 
ballistic missiles and advanced cruise missiles, including increased 
investment in Aegis modernization, which will upgrade our existing 
Aegis technology to continually improve our Integrated Air and Missile 
Defense capability. I would be pleased to provide a classified briefing 
for you to address our efforts in more detail.

    Mr. Kissell. What is the impact to the 3-1 dwell time effort by the 
Marine Corps, once the Marine Corps achieves their target reduction of 
at least 15,000 Marines?
    General Amos. Our overall objective is a 1:3 deployment-to-dwell 
ratio for the Marine Corps Active Component and a 1:5 deployment-to-
dwell ratio for the Reserve Component in a post-Operation ENDURING 
FREEDOM (OEF) environment. Currently, my stated goal, in concert with 
the Office of the Secretary of Defense, is for deployment-to-dwell 
ratios in support of combat operations in Afghanistan to be 1:2 for the 
Marine Corps Active Component and 1:4 for the Reserve Component.
    Based on our current force level in support of OEF and other global 
force requirements, the Marine Corps could achieve a 1:2 deployment-to-
dwell ratio across the Service within 18-24 months following the 
scheduled OEF draw-down. The Marine Corps' deployment-to-dwell ratio 
will continue to improve in a post-OEF environment and reach the stated 
goals of 1:3/1:5 as we balance requirements in support of the 
Geographic Combatant Commanders and the President's draw-down plan for 
Afghanistan.
    Establishing a sustainable deployment-to-dwell ratio is based upon 
forces available and the need to meet our global operational demands. 
We will closely monitor the pace of reduction in our end strength to 
best support Geographical Combatant Commander requirements while also 
fostering the best health and resiliency of our Total Force.
    Mr. Kissell. If the Marines are going to maintain their amphibious, 
assault capability following the cancellation of the EFV (Expeditionary 
Fighting Vehicle). What efforts are currently ongoing by the Marine 
Corps to maintain this capability? How quickly will the Marines 
introduce a proposal to take the EFV's place or refurbish their current 
fleet of amphibious assault vehicles? What is the expected 
refurbishment and maintenance cost to ensure an operational capability 
with an older fleet and what is the timeline for refurbishment?
    General Amos. Instead of procuring the EFV, the Marine Corps will 
pursue an integrated new vehicle program crafted from the beginning for 
affordability and taking advantage of the investment made in the EFV. 
As we move forward, the Marine Corps intends to mitigate risks 
associated with a new vehicle program and to maximize value by the use 
of an integrated acquisition portfolio approach. This approach will 
have three efforts: 1) an acceleration of the planned procurement of 
Marine Personnel Carriers (MPC); 2) investment in a service life 
extension program (SLEP) and upgrades for a portion of the existing 
amphibious assault vehicles (AAV); and 3) the development of a new 
amphibious combat vehicle (ACV). We will manage the overall 
requirements and acquisition of these from a portfolio perspective. 
From an investment perspective, and understanding the imperative for a 
modern amphibious vehicle capability, the Amphibious Combat Vehicle 
emerges as a priority effort.
    From the perspective of current operations and near term relevance, 
the AAV SLEP is a near-term operational priority. We must upgrade a 
portion of the current inventory of AAVs now in order to provide a more 
survivable capability until the ACV is fielded. The complementary 
capability to achieve greater protection for our forces is the Marine 
Personnel Carrier.
    The Amphibious Combat Vehicle and the Marine Personnel Carrier 
represent the modern and enduring capability solution. The ACV will 
provide the surface amphibious assault capability and will be the heavy 
armored combat vehicle during sustained operations ashore. The MPC will 
provide armored mobility for the reinforcing element of the amphibious 
assault and will also provide armor protected mobility during sustained 
operations ashore. As the MPC is a wheeled vehicle, we envision it as a 
versatile platform capable of employment across the Range of Military 
Operations and in urban settings, and it will incorporate the high 
levels of underbody protection needed in an irregular warfare 
environment. Together, the ACV and MPC will satisfy the Marine Corps' 
lift requirement for 12 infantry battalions- 8 Battalions supported by 
ACV and 4 Battalions supported by MPC.
    Prior to EFV cancellation, we funded a basic AAV Survivability 
Improvement Program which would add armor and blast protective seats, 
and also would move the fuel tank. Early analysis in support of that 
effort has begun and will proceed to research and development in FY12. 
We are now developing an additional upgrade for the AAV. This new 
initiative is intended to improve the AAV's mobility, lethality, 
communications, environmental and habitability capabilities and provide 
a bridge in capability until the Amphibious Combat Vehicle enters 
service. The timing of the decision for a comprehensive SLEP is 
dependent on how rapidly we can acquire a replacement amphibious 
vehicle.
    The Marine Corps released a series of ``Requests for Information'' 
(RFI) to industry in February covering the three vehicles that comprise 
the Amphibious Vehicle portfolio. Responses to the RFI, received in 
May, will provide a better understanding of available technology and 
associated costs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. General Amos, the Joint Chiefs of Staff signed off on a 
letter conveying their ``strong support for the military health care 
program changes that are included in the President's proposed fiscal 
year 2012 budget.''
    a. Please explain in your own words why you support the proposed 
changes.
    b. These changes will go beyond the beneficiaries and will impact 
the people who support the Department of Defense health system. Are you 
concerned about the implications these changes will have on hospital 
employees, pharmacists, vendors, just to name a few? In your opinion, 
will these effects harm the quality and access to care for our service 
members, military retirees, and their families?
    c. For example, there are hospitals located very close to Camp 
Lejeune, New River Air Station, Beaufort Air Station, Parris Island and 
Yuma Air Station that will be significantly affected by the plan to 
reduce the rate that TRICARE pays them to care for our beneficiaries. 
Does that concern you?
    General Amos. I support the proposed changes because I believe they 
will allow the Department of Defense to continue providing the finest 
health care benefits in the country for our active and retired service 
members and their families while also ensuring that the Department 
remains a responsible financial steward of the taxpayers' investment in 
our military. The Marine Corps, along with the other Services, will 
actively monitor any negative trends on access to or quality of care, 
but I do not anticipate any unfavorable impacts in these parameters as 
a result of the military health care program proposals outlined in the 
President's FY12 budget.
    The proposed changes will facilitate the application of current 
Medicare criteria to determine which hospitals that provide access to 
service members should receive special designations to ensure that they 
are appropriately compensated. These criteria are applied to all 
hospitals in the United States that request a special status from 
Medicare. TRICARE has similarly adopted these criteria to appropriately 
compensate hospitals that regularly support service member care.
    Some hospitals that regularly receive TRICARE funding, including 
some that serve Marines, have received a special designation in the 
past for which they may no longer qualify due to changes peculiar to 
their local conditions. In these cases, a level playing field would 
dictate that they be re-classified.
    Mr. Wilson. General Amos, in light of the results of the F-35's 
technical baseline review and the previous initial operating capability 
date of 2012, when does the Marine Corps now plan to achieve F-35B 
initial operating capability?
    General Amos. Our plan is to maintain our operational requirements, 
field the aircraft, train to the capabilities as they are cleared for 
operational use and achieve Initial Operating Capability (IOC) when the 
program office and contractor delivers the aircraft without 
limitations. IOC will depend on the results of the Joint Program Office 
technical and sustainment reviews. It also will depend on when we have 
a more clear understanding on flight test plans, software development 
improvements, and aircraft delivery schedules.
    Delivery of aircraft to the first training squadron will occur 
later this year. Delivery of our first operational aircraft is 
anticipated in 2012.
    Mr. Wilson. General Amos, what risks do you see of the F-35B not 
meeting its cost, schedule, and performance objectives in the two-year 
probationary period?
    General Amos. The current two-year probationary period brings with 
it a reduced rate of production. In turn, this slows down our rate of 
transition from legacy tactical fighter aircraft--F/A-18 and AV-8B--all 
of which are nearing the end of their service lives. While we are 
pursuing Service Life Extension Programs of these older 4th generation 
planes to mitigate risk and be a bridging capability until we fully 
field the F-35B, extended delays in this transition process will place 
greater burdens on our already operationally stressed legacy platforms.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SUTTON
    Ms. Sutton. A key component of modernizing our infrastructure, 
preserving our military assets, and saving money in the process is 
adopting a robust corrosion prevention and mitigation strategy. It is 
not a glamorous topic, but it's one that is worth our time and 
attention, especially given the potential savings if we address it in a 
smart and appropriate way.
    The San Diego Business Journal reported on Monday, February 28 
about the struggles the Navy faces with respect to rust and corrosion. 
The article quotes retired Navy captain Pat Garrett, who spoke of the 
early decommissioning of ships in the Spruance class partly due to 
decay of the vessels.
    If you could, I'd like to hear--with respect to the Navy and Marine 
Corps--what potential issues you may face with corrosion.
    Are there any specific programs or assets currently experiencing 
these problems due to corrosion? How can this committee best support 
DoD prevention and mitigation efforts to tackle corrosion and do you 
believe sufficient funding and resources have been devoted to address 
this issue?
    Secretary Mabus and General Amos. Due to the location of many of 
our bases near significant bodies of water and the amphibious nature of 
our operations, Marine Corps maintenance efforts against corrosion are 
critical to extending the life-cycle and preserving the readiness of 
the fleet. Our assets stationed in Japan and Hawaii are most 
susceptible to corrosion due to the humid environment. One of the 
assets most damaged by corrosion is the quad container, often requiring 
extensive repair or disposal and procurement of new assets.
    Over the past several years, the Marine Corps has developed a 
robust Corrosion Prevention and Control Program (CPAC) focused on the 
identification of corrosion levels on our ground tactical equipment; 
followed by correction of the corrosion damage identified; and finally 
by the prevention and management of corrosion levels on ground tactical 
equipment. Our CPAC protocol is currently tracking and maintaining 
corrosion levels on more than 71,000 assets. We globally employ eight 
Mobile Corrosion Service Teams that update corrosion assessment data 
and apply Corrosion Prevention Compounds to preserve and protect Marine 
Corps equipment from harsh operating environments.
    The Marine Corps also maintains a field-level repair capability 
that repairs corrosion related damage when identified through the 
corrosion assessments completed by the Marine Corps CPAC Program 
Office. The field-level Corrosion Repair Facilities provide the 
operational commander with the capability to repair equipment.
    The Marine Corps has also developed a robust on-the-lot 
Dehumidification Program which provides the unit commander with 
dehumidified space for staging equipment when not in-use. Previous 
reports identify an investment return at a minimum of 9:1, with the use 
of dehumidification in protecting equipment.
    The Marine Corps CPAC Program Office maintains an aggressive 
research and development program to locate, identify, evaluate and/or 
develop best corrosion prevention materials and procedures. These 
efforts support both the acquisition community and the field user.
    Our investment in corrosion prevention and control over the past 
several years will continue to pay dividends by decreasing total 
ownership costs and improving equipment readiness. However, as budgets 
become increasingly constrained, a major challenge will be maintaining 
sufficient operations and maintenance funding in the baseline budgets 
for corrosion control.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Secretary Mabus, can you discuss how the missile 
defense mission and the multi-mission capability of Aegis ballistic 
missile defense (BMD) ships are affecting the overall force structure 
requirements for the Aegis fleet? How is the Navy managing the limited 
number of Aegis BMD ships when demand is greater than supply?
    Secretary Mabus. Navy force structure accounts for the employment 
of Aegis ships in multi-mission roles rather than for exclusive 
missions, such as BMD, on an enduring basis. Single mission use, as for 
BMD, may result in shortages in other mission areas and a loss of 
operational flexibility for the Geographic Combatant Commander (GCC).
    The preferred Navy operating concept for maritime BMD features a 
graduated readiness posture that would allow BMD-capable surface 
combatants to be on an operational tether and available for other 
tasking when not directly involved in active BMD operations. Surface 
combatants operating in support of a BMD mission do not lose the 
capability to conduct other missions; however, specific mission 
effectiveness may be affected by ships' position and/or application of 
ship resources to those missions.
    Navy analysis of evolving BMD and other mission area requirements 
indicates that the current Navy BMD upgrade plan will support BMD 
Global Force Management requirements while simultaneously fulfilling 
Navy's requirements in other mission areas.
    Mr. Turner. Secretary Mabus, according to a Defense News article in 
June 2010, ``U.S. Aegis Radars' Readiness Plunges,'' the Aegis radar 
systems are ``in their worst shape ever, raising questions about the 
surface fleet's ability to take on its high-profile new mission next 
year defending Europe from ballistic missiles.'' Discuss any Aegis 
readiness concerns you may have and how it might impact the Navy's 
ability to meet missile defense mission requirements.
    Secretary Mabus. I am confident in Navy's ability to meet our 
missile defense requirements. While several reports and studies 
completed last year, as part of Navy's ongoing self-assessment and 
continuous improvement initiative, did indicate the beginning of some 
declining trends in various elements of Aegis readiness, the overall 
readiness of the Aegis Fleet remains high. A product of their ongoing 
success, the elevated standards employed in measuring Aegis readiness 
can lead to the misperception that these ships are having difficulty 
meeting their assigned missions--nothing could be further from the 
truth. However, in light of Aegis' role in ballistic missile defense, a 
study was initiated to integrate previous study efforts and provide a 
holistic assessment of Aegis readiness in terms of interoperability, 
maintainability, test & evaluation, manpower, training, and current 
development efforts. As has always been the case, Navy will continue 
improving Aegis readiness in a targeted, affordable manner to ensure 
that Aegis warships remain ready for tasking. I remain confident in the 
ability of Aegis ships' to meet warfighter requirements today and in 
the future.
    Mr. Turner. Secretary Mabus, what specific changes in nuclear 
deterrence requirements or change in nuclear strategy have allowed the 
Navy to further reduce SSBN missile tubes from 20, as specified in May 
2010 by the Secretary of Defense, to 16 missile tubes?
    Secretary Mabus. There have been no changes in nuclear deterrence 
requirements or nuclear strategy following the submission of the New 
START Treaty implementation plan (NDAA FY10 Section 1251 Report) in May 
2010. While the Department of Defense's implementation plan reduced the 
number of operational missile tubes from 24 to 20 on the current OHIO 
Class SSBNs, the OHIO Replacement SSBN will be operational in the 2030 
to 2080 timeframe beyond the period of treaty governance (2011-2021 
with an option for a single extension to 2026).
    Coincident with the submission of the New START implementation 
plan, the Navy conducted an in-depth, extensive review of the 
capability requirements for the OHIO Replacement SSBN in parallel with 
development of the Service Cost Position required at Milestone A. This 
analysis concluded that even if the number of operationally deployed 
warheads assigned to the sea-based leg of the Triad remains constant 
after the New START treaty expires (an assumption that does not reflect 
a policy supporting downward reliance on nuclear weapons outlined in 
the Nuclear Posture Review), a force of 12 OHIO Replacement SSBNs with 
16 missile tubes can carry all the sea-based warheads and maintain 
excess capacity in the event of a fundamental deterioration of the 
security environment or as a hedge against technical challenges within 
one or more of the other legs of the triad.
    It is the Navy's judgment that the Nation's sea-based strategic 
requirements can be met with a force of 12 OHIO Replacement SSBNs with 
16 tubes and that a 20 tube variant would inappropriately sacrifice 
other conventional shipbuilding requirements for unneeded excess 
capacity. OSD, Joint Staff and U.S. Strategic Command have since 
concurred with the Navy's position on this military requirement.
    Mr. Turner. Secretary Mabus, the SSBN(X) is expected to have a 
service life of over 60 years. The threat and strategic environment can 
change significantly over the course of 60 years. What planning 
assumptions--both nuclear and nonnuclear--are being made? How do they 
affect the number of missile tubes per hull and what sensitivity 
analysis has been done?
    Secretary Mabus. The OHIO Replacement SSBN is being developed as a 
replacement for the current OHIO Class SSBN. The OHIO Replacement SSBN 
force is planned to consist of 12 SSBNs which will replace the current 
14 OHIO SSBNs. The concept of operations for the OHIO Replacement SSBN 
is similar to the current OHIO Class SSBN, employing in-port and at-sea 
rotational patrols using a two-crew concept designed to meet U.S. 
Strategic Command at-sea presence and generation requirements. A force 
of 12 OHIO Replacement SSBNs will maintain the same presence level as 
14 OHIO SSBNs due to elimination of nuclear refueling and maintenance 
items during the mid-life maintenance period.
    The survivability of individual SSBNs as well as the SSBN force is 
a key attribute to meet the requirement for a survivable assured 
response. The current OHIO class with the TRIDENT II D5 Life Extension 
(LE) missile is the nation's most survivable leg of the US nuclear 
deterrent force and will serve in strategic service from 1982 to 2040. 
To ensure the SSBN force remains survivable, the SSBN Security Program 
in collaboration with the Office of Naval Intelligence and Johns 
Hopkins Applied Physics Laboratory has, over the past 40 years, 
anticipated potential threats and developed appropriate countermeasures 
to enhance survivability and protect SSBNs. Consistent with direction 
in the 2010 Nuclear Posture Review (NPR) and FY12-16 Defense Planning 
and Programmatic Guidance, the SSBN Security Program is an integral 
part of the development of the key survivability characteristics for 
the OHIO Replacement SSBN. This process included an extensive review of 
current and future threats as well as potential submarine 
vulnerabilities. The resultant acoustic and non acoustic performance of 
the OHIO Replacement SSBN will deter an adversary from attempting to 
hold a platform or the SSBN force at risk on patrol.
    The Navy conducted an in-depth, extensive review of the capability 
requirements for the OHIO Replacement SSBN in parallel with development 
of the Service Cost Position required at Milestone A. This analysis 
concluded that even if the number of operationally deployed warheads 
assigned to the sea-based leg of the Triad remains constant after the 
New START treaty expires (an assumption that does not reflect the 2010 
NPR recommendation for decreasing reliance on nuclear weapons), a force 
of 12 OHIO Replacement SSBNs with 16 missile tubes can carry all the 
sea-based warheads and maintain excess capacity in the event of a 
fundamental deterioration of the security environment or as a hedge 
against technical challenges within one or more of the other legs of 
the triad.
    Mr. Turner. Secretary Mabus, the committee understands the Navy has 
completed an updated cost estimate for SSBN(X). What is the new cost 
estimate for the average follow-on unit end cost, what is the margin of 
error in this cost estimate, and what is the estimate for the cost 
savings attributable to the reduction from 20 to 16 missile tubes?
    Secretary Mabus. The Department has assigned an affordability 
target for the average procurement for hulls 2-12 of $4.9 billion (CY 
10$, using Navy inflation/deflation indices, excluding outfitting and 
post delivery).
    Mr. Turner. Secretary Mabus, what would be the costs to construct 
additional SSBN(X)-class submarines if it is determined in the future 
that the U.S. has insufficient capacity to meet its nuclear strategy 
and mission requirements? For example, what would the cost of one 
additional submarine be in the 2035 timeframe?
    Secretary Mabus. The Department has assigned an affordability 
target for the average procurement for hulls 2-12 of $4.9 billion (CY 
10$, using Navy inflation/deflation indices, excluding outfitting and 
post delivery).

    Mr. Turner. Admiral Roughead, can you discuss how the missile 
defense mission and the multi-mission capability of Aegis ballistic 
missile defense (BMD) ships are affecting the overall force structure 
requirements for the Aegis fleet? How is the Navy managing the limited 
number of Aegis BMD ships when demand is greater than supply?
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for its multi-mission Aegis ships; 
however, we do not have the capacity to meet all Geographic Combatant 
Commander (GCC) demands for Ballistic Missile Defense (BMD) without 
exceeding established Personnel Tempo program limits for deployment 
lengths, dwell tempo, or homeport tempo. Based on threat analysis and 
current indications from GCCs, and assuming standard six month 
deployment lengths, the Navy and the Missile Defense Agency (MDA) 
concluded that GCC demand for surface combatants with Aegis BMD 
capability will outpace capacity through approximately 2018.
    To meet the increasing demand for these ships and reduce the risk 
to our long term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan (see Figure 1 on page 165) to increase 
the number of BMD-capable Aegis ships from 23 in FY2011 to 41 in 
FY2016. This plan balances the need for meeting current operational 
requirements against the need to upgrade existing BMD-capable Aegis 
ships to pace the future threat. Included in this plan are increases in 
the Navy's capacity and the capabilities of Aegis ships through the 
installation of an Aegis BMD 3.6.1/4.0.1 suite, the Aegis Modernization 
program, or new construction (commencing with DDG-113).
    To mitigate the impact of the BMD mission, Navy has implemented an 
operating concept for AEGIS ship's conducting BMD missions that 
features a graduated readiness posture that allows BMD-capable surface 
combatants to be on an operational tether and available for other 
tasking when not directly involved in active BMD operations. Surface 
combatants operating in support of a BMD mission do not lose the 
capability to conduct other missions; however, specific mission 
effectiveness may be affected by ships' position and/or application of 
ship resources to those missions.
    Navy analysis of evolving BMD and other mission area requirements 
indicates that the current Navy BMD upgrade plan will support BMD 
Global Force Management requirements while simultaneously fulfilling 
Navy's requirements in other mission areas.
    Mr. Turner. Admiral Roughead, according to a Defense News article 
in June 2010, ``U.S. Aegis Radars' Readiness Plunges,'' the Aegis radar 
systems are ``in their worst shape ever, raising questions about the 
surface fleet's ability to take on its high-profile new mission next 
year defending Europe from ballistic missiles.'' Discuss any Aegis 
readiness concerns you may have and how it might impact the Navy's 
ability to meet missile defense mission requirements.
    Admiral Roughead. I am confident in Navy's ability to meet our 
missile defense requirements. While several reports and studies 
completed last year, as part of Navy's ongoing self-assessment and 
continuous improvement initiative, did indicate the beginning of some 
declining trends in various elements of Aegis readiness, the overall 
readiness of the Aegis Fleet remains high. A product of their ongoing 
success, the elevated standards employed in measuring Aegis readiness 
can lead to the misperception that these ships are having difficulty 
meeting their assigned missions--nothing could be further from the 
truth. In light of Aegis' role in ballistic missile defense, a study 
was initiated to integrate previous study efforts and provide a 
holistic assessment of Aegis readiness in terms of interoperability, 
maintainability, test & evaluation, manpower, training, and current 
development efforts. As has always been the case, Navy will continue 
improving Aegis readiness in a targeted, affordable manner to ensure 
that Aegis warships remain ready for tasking. I remain confident in the 
ability of Aegis ships' to meet warfighter requirements today and in 
the future.
    Mr. Turner. Admiral Roughead, in his January 6th efficiencies 
announcement Secretary Gates stated that ``analysis by the Navy and 
Marine Corps'' suggests that the most plausible scenarios requiring 
power projection from the sea could be handled through a mix of 
existing air and sea systems employed in new ways along with new 
vehicles--scenarios that do not require the exquisite features of the 
EFV.'' Can you describe the analytical work Secretary Gates is 
referring to in his statement?
    Admiral Roughead. The Navy and Marine Corps have conducted campaign 
analysis and war gaming examining scenarios requiring power projection 
from the sea using the Expeditionary Fighting Vehicle (EFV) as well as 
the legacy Amphibious Assault Vehicle (AAV) and our current and 
projected suite of air assault connectors. The analysis used official 
threat assessments and modeled battlespace preparation in order to 
define threats to landings.
    Using fielded and planned capabilities to conduct pre-assault 
battlespace preparation, the Navy assessed that U.S. weapons and 
sensors will allow amphibious ships to operate at 12 nm from the coast 
with acceptable risk against any residual threats. This analysis 
suggests a 25 nm assault range of the EFV may not be required.
    Mr. Turner. Admiral Roughead, what specific changes in nuclear 
deterrence requirements or change in nuclear strategy have allowed the 
Navy to further reduce SSBN missile tubes from 20, as specified in May 
2010 by the Secretary of Defense, to 16 missile tubes?
    Admiral Roughead. There have been no changes in nuclear deterrence 
requirements or nuclear strategy following the submission of the New 
START Treaty implementation plan (NDAA FY10 Section 1251 Report) in May 
2010. Coincident with the submission of the New START implementation 
plan, the Navy conducted an in-depth, extensive review of the 
capability requirements for the OHIO Replacement SSBN in parallel with 
development of the Service Cost Position required at Milestone A. This 
analysis concluded that a force of 12 OHIO Replacement SSBNs with 16 
missile tubes can carry all the sea-based warheads and maintain 
sufficient excess capacity for the future. It is the Navy's judgment 
that the nation's sea-based strategic requirements can be met with a 
force of 12 OHIO Replacement SSBNs with 16 tubes and that a 20 tube 
variant would inappropriately sacrifice other conventional shipbuilding 
requirements for unneeded excess capacity. OSD, Joint Staff and U.S. 
Strategic Command concur with the Navy's position on this military 
requirement.
    Mr. Turner. Admiral Roughead, the SSBN(X) is expected to have a 
service life of over 60 years. The threat and strategic environment can 
change significantly over the course of 60 years. What planning 
assumptions--both nuclear and nonnuclear--are being made? How do they 
affect the number of missile tubes per hull and what sensitivity 
analysis has been done?
    Admiral Roughead. The Navy plans to build 12 OHIO Replacement SSBNs 
to replace the 14 OHIO SSBNs currently in the Fleet. The concept of 
operations for the OHIO Replacement SSBN is similar to the current OHIO 
Class SSBN in that it will employ in-port and at-sea rotational 
patrols, using a two-crew concept, to meet U.S. Strategic Command at-
sea presence and force generation requirements. A force of 12 OHIO 
Replacement SSBNs will maintain the same presence level as 14 OHIO 
SSBNs due to elimination of nuclear refueling and maintenance items 
during the mid-life maintenance period.
    The survivability of individual SSBNs and the SSBN force as a whole 
is a key attribute to meeting the requirement for a survivable assured 
response. The current OHIO class with the TRIDENT II D5 Life Extension 
(LE) missile is the nation's most survivable leg of the US nuclear 
deterrent force and will serve in strategic service from 1982 to 2040. 
To ensure the SSBN force remains survivable, the SSBN Security Program 
in collaboration with the Office of Naval Intelligence and Johns 
Hopkins Applied Physics Laboratory has, over the past 40 years, 
anticipated potential threats and developed appropriate countermeasures 
to enhance survivability and protect SSBNs. Consistent with direction 
in the 2010 Nuclear Posture Review (NPR) and FY12-16 Defense Planning 
and Programmatic Guidance, the SSBN Security Program is an integral 
part of the development of the key survivability characteristics for 
the OHIO Replacement SSBN. This process included an extensive review of 
current and future threats as well as potential submarine 
vulnerabilities. The resultant acoustic and non acoustic performance of 
the OHIO Replacement SSBN will deter an adversary from attempting to 
hold a platform or the SSBN force at risk on patrol.
    The Navy conducted an in-depth, extensive review of the capability 
requirements for the OHIO Replacement SSBN in parallel with development 
of the Service Cost Position required at Milestone A. This analysis 
concluded that even if the number of operationally deployed warheads 
assigned to the sea-based leg of the Triad remains constant after the 
New START treaty expires (an assumption that does not reflect the 2010 
NPR recommendation for decreasing reliance on nuclear weapons), a force 
of 12 OHIO Replacement SSBNs with 16 missile tubes can carry all the 
sea-based warheads and maintain excess capacity in the event of a 
fundamental deterioration of the security environment or as a hedge 
against technical challenges within one or more of the other legs of 
the triad.
    Mr. Turner. Admiral Roughead, the committee understands the Navy 
has completed an updated cost estimate for SSBN(X). What is the new 
cost estimate for the average follow-on unit end cost, what is the 
margin of error in this cost estimate, and what is the estimate for the 
cost savings attributable to the reduction from 20 to 16 missile tubes?
    Admiral Roughead. The OHIO Replacement Milestone (MS) A Service 
Cost Position for the average follow-ship end cost (hulls 2-12) in 
CY10$ is $5.6B (using Navy inflation/deflation indices, excluding 
outfitting and post delivery). Additionally, the MS A Acquisition 
Decision Memorandum assigned an affordability target for the average 
follow-ship end cost (hulls 2-12, using Navy inflation/deflation 
indices, excluding outfitting and post delivery) of $4.9B in CY10$.
    The cost savings associated with a 16-tube vs. a 20-tube OHIO 
Replacement SSBN design is expected to be approximately $0.2B per ship 
(CY10$; average follow-ship hulls 2-12), which when combined with a 
reduction of approximately $0.5B of non-recurring engineering costs for 
the first ship plus lead ship construction, result in a total class 
acquisition cost savings of approximately $3B (CY10$). These cost 
savings are in addition to those associated with decreased missile 
inventory requirements for the 16 tube variant.
    Mr. Turner. Admiral Roughead, what would be the costs to construct 
additional SSBN(X)-class submarines if it is determined in the future 
that the U.S. has insufficient capacity to meet its nuclear strategy 
and mission requirements? For example, what would the cost of one 
additional submarine be in the 2035 timeframe?
    Admiral Roughead. The OHIO Replacement Program has a Milestone (MS) 
A Service Cost Position of $5.6B CY10 and an affordability target of 
$4.9B CY10 for average follow-ship end cost (hulls 2-12, including Navy 
inflation/deflation indices, excluding outfitting and post delivery). 
Assuming the cost target is achieved, an additional hull awarded at the 
end of the current planned production line would be expected to cost 
less than $4.9B (CY10$). A force of 12 OHIO Replacement SSBNs meets U. 
S. Strategic Command's at-sea presence requirements.

    Mr. Turner. General Amos, what effect will a reduction of 15,300 
Marines have on individual dwell time ratios? Do you expect to meet the 
1 to 3 dwell time goal?
    General Amos. Our overall objective is a 1:3 deployment-to-dwell 
ratio for the Marine Corps Active Component and a 1:5 deployment-to-
dwell ratio for the Reserve Component in a post-Operation ENDURING 
FREEDOM (OEF) environment. Currently, my stated goal, in concert with 
the Office of the Secretary of Defense, is for deployment-to-dwell 
ratios in support of combat operations in Afghanistan to be 1:2 for the 
Marine Corps Active Component and 1:4 for the Reserve Component.
    Based on the current USMC force level in support of OEF and other 
global force requirements, the Marine Corps could achieve a 1:2 
deployment-to-dwell ratio across the Service within 18-24 months 
following the scheduled OEF draw-down. The Marine Corps deployment-to-
dwell ratio will continue to improve in a post-OEF environment and 
reach the stated goals of 1:3/1:5 as we balance requirements in support 
of the Geographic Combatant Commanders and the President's draw-down 
plan for Afghanistan.
    Establishing a sustainable deployment-to-dwell ratio is based upon 
forces available and the need to meet our global operational demands. 
We will closely monitor the pace of reduction in our end strength to 
best support Geographical Combatant Commander requirements while also 
fostering the best health and resiliency of our Total Force.
    Mr. Turner. General Amos, in his January 6th efficiencies 
announcement Secretary Gates stated that ``analysis by the Navy and 
Marine Corps'' suggests that the most plausible scenarios requiring 
power projection from the sea could be handled through a mix of 
existing air and sea systems employed in new ways along with new 
vehicles--scenarios that do not require the exquisite features of the 
EFV.'' Can you describe the analytical work Secretary Gates is 
referring to in his statement?
    General Amos. The Navy and Marine Corps conducted campaign analysis 
\1\ and a war game examining scenarios \2\ requiring power projection 
from the sea using the Expeditionary Fighting Vehicle (EFV) as well as 
the legacy Amphibious Assault Vehicle (AAV) and our current and 
projected suite of rotary and tilt wing aircraft. The analysis used 
official threat assessments and modeled battle-space preparation in 
order to define threats to amphibious landings.
---------------------------------------------------------------------------
    \1\ 2008--Naval Campaign Analysis (2024) sponsored by OPNAV N816 
and Marine Corps Combat Development Center (MCCDC) defines battlespace 
preparation completed by the initial landing and residual threat. The 
Naval Campaign is based on the 19 Sep 2007 MCO 1 Swiftly Defeat the 
Efforts 2014 Multi-Service Force Deployment.
    \2\ 2009--The Simulation Analysis Center of OSD's Cost Assessment 
and Program Evaluation Directorate led the MCO-1 Swiftly Defeat the 
Efforts 2014 Analytic Baseline.
---------------------------------------------------------------------------
    The analysis assessed concurrent and separate landings from 25 nm 
off a coastline with one force using EFV and another force using AAVs 
delivered by Landing Craft Air Cushion (LCAC). The analysis did not 
specifically compare EFV and AAV in that the forces landed used 
different tactics, in different sites and facing different opposition. 
While both missions were accomplished, suggesting that the EFV may not 
be required, higher risk was incurred employing the LCAC/AAV as a 
result of a slower build-up of combat power ashore. In addition, the 
LCAC/AAVs required using vertical assaults to secure landing zones, 
losing the flexibility to maneuver deep inland.
    In February 2006, a systems threat assessment was conducted by 
Marine Corps Intelligence Activity and the Defense Intelligence Agency 
which supported a minimum distance of 10.8 nm from shore if the right 
capabilities were in place. Since that time, the Navy has assessed that 
employing planned U.S. capabilities in pre-assault operations will 
allow amphibious ships to operate at 12 nm from the coast with 
acceptable risk against any residual threats. This analysis suggests 
the 25 nm assault range of the EFV may no longer be required in light 
of the current capabilities.
    In March 2010, the Office of Program Appraisal ``Assuring 
Operational Access'' Wargame conducted three separate and distinct 
excursions using the former EFV program of record, the current 
capability set (i.e. AAV) and alternative capabilities (i.e. a notional 
Marine Expeditionary Maneuver Vehicle, and an experimental Ultra Heavy-
lift Amphibious Connector).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. 1) Secretary Mabus, it is documented that the Aegis 
system has experienced setbacks, including failed tests and alleged 
``false positives''. Furthermore, the radar system has also been 
criticized as being subpar and unable to meet operational expectations. 
The Aegis missile defense system is a vital part of our missile 
defense. What concerns do you have regarding Aegis operational 
readiness in light of its crucial role in our missile defense, and what 
is being done to address those concerns? Furthermore, can we rely on 
the Aegis system today if an attack were to occur during this hearing?
    Secretary Mabus. The Aegis Ballistic Missile Defense (BMD) system 
is the most operationally ready, flexible, and effective regional 
missile defense system in the world and is in great demand by Combatant 
Commanders. Navy and Missile Defense Agency (MDA) have achieved an 
unprecedented level of success with the Aegis BMD system and the SM-3 
Block IA missile, accomplishing successful intercepts of ballistic 
targets in 18 of 21 exo-atmospheric tests. The system successfully 
intercepted and destroyed a de-orbiting satellite in February 2008. The 
system has also successfully intercepted 3 of 3 endo-atmospheric Short 
Range Ballistic targets in the terminal phase of flight using the SM-2 
Block IV missile. In October 2008, Navy's Operational Test and 
Evaluation Force declared, ``The Block 4 Aegis, employing the Aegis 3.6 
Combat System is operationally effective in the negation of Medium 
Range Ballistic Missiles and Short Range Ballistic Missiles and 
provides effective tracking of Long Range Ballistic Missiles for cueing 
of other Aegis, Aegis BMD, and DoD systems.''
    Navy is committed to maintaining the highest level of readiness for 
all Aegis BMD ships. Each ship undergoes extensive system evaluations 
prior to deployment knowing they may be tasked with BMD missions. Due 
to the high reliability required of the SPY radar while performing the 
BMD mission, selected critical spare parts have been augmented for 
these ships to ensure an even higher level of operational readiness. 
All ships currently employed on BMD missions are fully capable of 
providing the designed level of protection against ballistic missile 
threats.
    Mr. Franks. 2. Secretary Mabus, Aegis ships play large and various 
roles for Navy missions. One vulnerability that results from this 
multi-role is that the Aegis ship cannot fully defend itself during 
missile defense mode. Therefore, another Aegis ship is required to 
defend the Aegis ship in missile defense mode. Given the limited supply 
of Aegis ships, is this the best practice, or is there a better 
strategy to protect the Aegis ship in missile defense mode. How is the 
Navy addressing this situation of the limited Aegis fleet, and how can 
Congress help to make sure that our limited supply of Aegis ships are 
used in the best way possible?
    Secretary Mabus. From its inception, Aegis BMD was designed with 
three main objectives in mind. The ship would be 1) effective in 
conducting its assigned BMD mission; 2) able to survive air, surface, 
and subsurface attacks and; 3) be cost effective. All Aegis BMD capable 
ships have the ability to defend themselves against both traditional 
and advanced air and cruise missile threats while also executing the 
BMD mission. This capability was initiated by Navy in 2003 and 
developed by Missile Defense Agency (MDA). Simultaneous BMD and Anti-
Air Warfare engagements were demonstrated by USS LAKE ERIE on June 22, 
2006 and this capability is the current BMD fleet standard. It is 
proven; it remains ready.
    An additional six Aegis BMD upgrades and installations were 
included in the President's Budget 2012 for a total of 41 Aegis BMD 
ships by 2016. The Navy continues to work with MDA to ensure that 
further BMD upgrades will improve the multi-mission capabilities of our 
BMD ships. Finally, the Navy utilizes the Global Force Management 
process and coordinates closely with the Combatant Commanders to ensure 
the best possible use of our Aegis multi-mission ships.
    Mr. Franks. 3) Last year, the Navy testified that sea-based missile 
defense requirements for surface combatants (cruisers and destroyers) 
were still in the review. Has there been any progress in determining 
sea-based missile defense requirements as it relates to Navy surface 
combatant requirements, and if so, can you describe what the forward-
based requirements are for Navy surface combatants and what that means 
to the battle-force inventory requirements?
    Secretary Mabus. Each Geographic Combatant Commander (GCC) 
determines its own requirements for surface combatants in each mission 
area. These requirements are adjudicated through the Department of 
Defense's Global Force Management process, which allocates the 
available Aegis ships. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet GCC demands for 
Ballistic Missile Defense (BMD) surface combatants without breaking 
established deployment length redlines. Based on threat analysis and 
steady state presence indications from the GCCs, the Navy, working with 
Missile Defense Agency, have concluded that the demand for BMD-capable 
Aegis ships will outpace capacity through approximately 2018, assuming 
standard six month deployment lengths.
    Sea-based BMD requirements in the United States Central Command and 
European Command are sourced through the rotation of Aegis ships home-
ported in the United States. The Pacific Command's sea-based BMD 
requirements are sourced primarily from the Forward Deployed Naval 
Force in Japan.
    As the demand for these ships increase, either the inventory of 
Aegis BMD-capable ships or deployment lengths must increase. 
Accordingly, Navy, in conjunction with MDA, has established a plan to 
increase the total number of Aegis BMD-capable ships across the FYDP 
from 21 to 41, of which 27 will be deployable in FY16. This plan 
includes the increase in capacity and capability of surface combatants 
either through the installation of the Aegis BMD 3.6.1/4.0.1 suite or 
Aegis Modernization program, as well as through new construction 
(commencing with DDG 113). The addition of BMD capabilities to the 
Aegis Fleet provides improved operational flexibility to GCC and Fleet 
Commanders to fulfill their various missions.

    Mr. Franks. 1) Admiral Roughead, it is documented that the Aegis 
system has experienced setbacks, including failed tests and alleged 
``false positives''. Furthermore, the radar system has also been 
criticized as being subpar and unable to meet operational expectations. 
The Aegis missile defense system is a vital part of our missile 
defense. What concerns do you have regarding Aegis operational 
readiness in light of its crucial role in our missile defense, and what 
is being done to address those concerns? Furthermore, can we rely on 
the Aegis system today if an attack were to occur during this hearing?
    Admiral Roughead. The Aegis Ballistic Missile Defense (BMD) system 
is the most proven, operationally ready, flexible, and effective 
regional missile defense system in the world. Navy is committed to 
maintaining the highest level of readiness for all Aegis BMD ships and 
we put each ship through extensive system evaluations prior to 
deployment, knowing they may be tasked with BMD missions. All ships 
currently employed on BMD missions are fully capable of providing the 
designed level of protection against ballistic missile threats. I am 
confident in relying on this system today to defend our Fleet, our 
Allies and partners, and our national interests against the threat of 
ballistic missiles.
    Mr. Franks. 2) Admiral Roughead, Aegis ships play large and various 
roles for Navy missions. One vulnerability that results from this 
multi-role is that the Aegis ship cannot fully defend itself during 
missile defense mode. Therefore, another Aegis ship is required to 
defend the Aegis ship in missile defense mode. Given the limited supply 
of Aegis ships, is this the best practice, or is there a better 
strategy to protect the Aegis ship in missile defense mode. How is the 
Navy addressing this situation of the limited Aegis fleet, and how can 
Congress help to make sure that our limited supply of Aegis ships are 
used in the best way possible?
    Admiral Roughead. All Aegis BMD capable ships have the ability to 
defend themselves against both traditional and advanced air and cruise 
missile threats while also executing the BMD mission. Simultaneous BMD 
and Anti-Air Warfare engagements were demonstrated by USS LAKE ERIE on 
June 22, 2006, and this capability is the current BMD Fleet standard. 
It is proven and remains ready today.
    The Navy utilizes the Global Force Management process and 
coordinates closely with Combatant Commanders to ensure the best 
possible use of our Aegis multi-mission ships. To meet increasing 
demand for these ships, Navy is growing its Aegis Fleet through 
modernization of our existing Fleet and the restart of DDG-51 
procurement. To meet increasing demand for our Aegis ships, our PB 2012 
budget requests funding for one DDG-51 restart ship (DDG 116) in FY 
2012 and an additional six Aegis BMD upgrades and installations to 
increase the Navy's Aegis BMD ships from 21 to 41 ships by 2016. The 
Navy continues to work with MDA to ensure that future BMD upgrades will 
further improve the multi-mission capabilities of our BMD ships.
    Mr. Franks. 3) Last year, the Navy testified that sea-based missile 
defense requirements for surface combatants (cruisers and destroyers) 
were still in the review. Has there been any progress in determining 
sea-based missile defense requirements as it relates to Navy surface 
combatant requirements, and if so, can you describe what the forward-
based requirements are for Navy surface combatants and what that means 
to the battle-force inventory requirements?
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet expected future GCC 
demands for Ballistic Missile Defense (BMD) surface combatants without 
breaking established deployment length redlines. Based on threat 
analysis and steady state presence indications from the Geographic 
Combatant Commander the Navy, working with Missile Defense Agency, has 
concluded that the demand for BMD-capable Aegis ships will outpace 
capacity through approximately 2018, assuming standard six month 
deployment lengths.
    Sea-based BMD requirements in the United States Central Command and 
European Command are sourced through the rotation of Aegis ships home-
ported in the United States. The Pacific Command's sea-based BMD 
requirements are sourced primarily from the Forward Deployed Naval 
Force in Japan.
    With the President's decision to pursue a phased adaptive approach 
(PAA) for the missile defense of Europe, the Navy has been working 
within the Department of Defense to identify the most efficient method 
to provide the required afloat BMD capability. The establishment of a 
forward deployed force in Europe is one of the options being assessed, 
however, no final decision has been made.
    As the demand for these ships increase, either the inventory of 
Aegis BMD-capable ships or deployment lengths must increase. 
Accordingly, Navy, in conjunction with MDA, has established a plan to 
increase the total number of Aegis BMD-capable ships across the FYDP 
from 21 to 41, of which 27 will be deployable in FY16. This plan 
includes the increase in capacity and capability of surface combatants 
either through the installation of the Aegis BMD 3.6.1/4.0.1 suite or 
Aegis Modernization program, as well as through new construction 
(commencing with DDG 113). The addition of BMD capabilities to the 
Aegis Fleet provides improved operational flexibility to GCC and Fleet 
Commanders to fulfill their various missions.
    Mr. Franks. 4) Admiral Roughead, with fewer different fighter/
attack aircraft today, and even fewer in the future, do you believe 
that the Navy is taking significant risks by not including a program to 
develop and procure a competitive, alternate engine for the F-35?
    Admiral Roughead. No. The Navy does not have a requirement for an 
alternate engine; indeed, we would only take one model to sea. The 
additional costs of an alternate engine threaten our ability to fund 
currently planned aircraft procurement quantities, which would 
exacerbate our anticipated decrease in strike fighter capacity 
throughout the remainder of this decade.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. From your perspective as the Secretary of the Navy, 
can you describe to the committee the strategic importance of the F-35 
program to the future of Naval and Marine Corps fighter aviation?
    Secretary Mabus. The F-35B Short Take-Off and Vertical Landing 
(STOVL) and F-35C Carrier Variant (CV) of the Joint Strike Fighter are 
essential to our long-term national security as the future backbone of 
U.S. Navy and Marine Aviation combat air-superiority. I believe there 
is no program, or combination of programs, that will more affordably 
provide the Combatant Commanders these warfighting capabilities they 
will need to protect the Global interests of the Nation. The 
integration of F-35 aircraft will provide the dominant, multi-role, 
fifth-generation capabilities needed across the full spectrum of combat 
operations to deter potential adversaries and enable future Naval and 
Marine Aviation power projection.

    Mr. Conaway. 1. In the Secretary of Defense's recent restructuring 
of the F-35 program, the F-35B was put on a two year probation due to 
development problems.

    <bullet>  If the F-35B variant does not show significant progress 
by FY13 and is cancelled, what are the USMC's alternatives to fulfill 
the requirements expected to be filled by the F-35B?

    Admiral Roughead. We are confident that the F-35B program is on 
track and that the restructuring effort will be successful. However, in 
the event that the F-35B does not show significant progress and is 
cancelled, then the question of potential alternatives for USMC 
aviation requirements would more appropriately be addressed by the 
Commandant of the Marine Corps.
    Mr. Conaway. 2. In January, Secretary Gates announced a reduction 
of 124 F-35s over the FYDP. He further stated that the savings from 
this reduction would be used to fund $4.6 billion to extend the 
development period and add additional flight tests; as well as using $4 
billion for additional purposes, such as purchasing more F/A-18s for 
the Navy.

    <bullet>  How does this decision impact you?

    <bullet>  How does this change in the fighter mix effect the Navy?

    Admiral Roughead. The Secretary of Defense's changes to the 
Programs of Record (POR) for the F-35B/C and F/A-18E/F in December 2010 
impacted the Navy in the following ways:

    <bullet>  Compared to PB 2011, the DoN's procurement of F-35B/C 
aircraft was decreased by 60 in the FYDP, and the F/A-18E/F procurement 
was increased by 41.

    <bullet>  Procurement of 41 additional F/A-18E/F extended the last 
year of procurement for the Super Hornets from FY 2013 to FY 2014.

    <bullet>  By adding 41 Super Hornets and extending the life of 150 
F/A-18 A-D aircraft to 10,000 flight hours, our strike fighter 
shortfall was reduced from about 100 aircraft to a peak of 65 aircraft, 
projected in 2018. As I testified, this aircraft shortfall is 
manageable.

    Navy's PB 2012 budget submission, with the change in strike fighter 
mix, reflects the optimum balance of procuring new F/A-18E/F aircraft, 
extending the service life of 150 existing legacy Hornets, and 
procuring F-35B/Cs. This balanced approach will address the 
Department's need for tactical aircraft to meet requirements.

    Mr. Conaway. Are you confident that the development challenges 
currently faced by the STOVL variant can be solved successfully?
    General Amos. The current Short Take-Off and Vertical Landing 
(STOVL) technical challenges are typical of major acquisition programs 
during this stage of development. We do not regard any of these 
challenges as insurmountable. We already have incorporated corrective 
actions into production aircraft and identified the modifications 
needed in the aircraft nearing delivery; and we are proactively 
finalizing changes for future incorporation.
    I am personally engaged with the Joint Strike Fighter Joint Program 
Office and prime contractors on a monthly basis. We collaborate in 
resolving these challenges by identifying the most efficient and cost 
effective processes through which we will implement long term 
engineering solutions. Our overarching intent is to meet our collective 
requirements and to deliver higher quality aircraft in a responsible 
timeframe. Ultimately, this will equip the warfighter with more 
sustainable and more capable platforms.
    On a related note, STOVL flight tests began to turn around this 
past January, and are experiencing unprecedented success this calendar 
year. Test point collection and sortie rates achieved from January to 
March this year have made up for the deficits of 2010 and continue to 
perform well ahead of plan to date. We are on track for ship trials 
this fall and commencement of training early next year. I am confident 
the F-35B will surpass expectations during this period of focused 
scrutiny.
    Mr. Conaway. How important is the F-35B to the future of Marine 
Corps fighter aviation?
    General Amos. The F-35B is the future of Marine Corps fighter 
aviation. We intend to replace three aging platforms--the AV-8B, the 
EA-6B and the FA-18--with a single 5th generation platform--the F-35 
Lightning II. Our F-35B Short Take-off and Vertical Landing (STOVL) 
variant will become our utility tactical aviation (TACAIR) platform 
well into the middle of this century. The F-35C carrier variant will 
serve as our TACAIR Integration aircraft for service with the Navy on 
their carriers.
    The F-35B is the tactical aircraft our Marine Air Ground Task Force 
requires to remain relevant in today's world with tomorrow's threats. 
This STOVL variant Joint Strike Fighter meets the expeditionary 
expectation that our Commander-in-Chief, our Combatant Commanders and 
the American people demand of the Marine Corps. STOVL aviation 
capabilities have deep roots in the Marine Corps. Current operations in 
Afghanistan and Libya and our experience in Iraq reinforce the critical 
role of amphibious-based and expeditionary STOVL aircraft.
    Our requirement is not complex. We require 5th generation stealth, 
sensors, interoperability and connectivity supporting our forward-
deployed Marines. The F-35B will source the MAGTF with an agile, cross-
functional tactical aircraft that will provide forward based flexible, 
scalable and responsive capabilities to our ground forces. F-35Bs 
transition from ship-to-shore, operating seamlessly from 850ft decks of 
amphibious ships to short-field, expeditionary operating bases. This 
proximity provides our ground forces immediate and integrated access to 
tactical aviation--a core tenet of Marine air operations. F-35B 
postures Marine TACAIR with the basing flexibility that MAGTF 
commanders require to execute expeditionary operations. Recent Joint 
and Coalition operations highlight the flexibility that embarked Marine 
TACAIR provides the nation and, in the future, the Joint Force will 
leverage the expeditionary, responsive and game-changing capabilities 
that the Marine STOVL F-35B brings to the fight.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. 1. Are we investing enough in our equipment to sustain 
our position as the greatest Naval Force throughout the 21st Century? 
As you all know our Navy and Marine Corps have conducted cyclic combat 
operations now for 10 years at a pace that we have not seen in the 
history of our fleet. Ships and aircraft are constantly deploying and 
critical life cycle maintenance is being affected due to the high 
operational tempo. Knowing there is deferred maintenance and a backlog 
of lifecycle management for our fleet, how is the past 10 years going 
to affect the service life of our ships, submarines, and aircraft?
    Admiral Roughead. Keeping our ships, submarines and aircraft in 
satisfactory material condition is essential both to supporting current 
operations and ensuring that we are able to get the projected service 
life from these valuable national assets. It has been central to the 
United States Navy's mission to perform sufficient levels of 
maintenance in each of these areas to ensure our fleet is maintained 
and ready when called upon. Certainly the last decade of high tempo 
operations have been a challenge and there have been areas where we 
were not able to do all of the maintenance we desired. Based on the 
rapidly improving surface ship engineered maintenance requirement and 
the established aircraft, submarine, and aircraft carrier engineered 
maintenance requirements, the FY12 budget accurately reflects the 
maintenance necessary to ensure ships, submarines, and aircraft will 
reach their expected service life.
    Mr. Wittman. 2. What is the affect going to be on the service life 
of an F/A-18 Super Hornet that is above its planned airframe and engine 
flight hours, or the DDG that has deployed so many times to support 
overseas contingency operations, that critical hull, mechanical, 
electrical, and weapons systems maintenance is neglected and pushed to 
the right? What do you believe the long term affect is to our overall 
material readiness? Furthermore, do you feel that we are allocating the 
appropriate amount of money to focus on maintenance, modernization, and 
modification?
    Admiral Roughead. Keeping our ships, submarines and aircraft in 
satisfactory material condition is essential to supporting current 
operations and ensuring that we are able to get the projected service 
life from these valuable national assets. It has been central to the 
United States Navy's mission to perform sufficient levels of 
maintenance in each of these areas to ensure our fleet is maintained 
and ready when called upon. Certainly the last decade of high tempo 
operations have been a challenge and there have been areas where we 
were not able to do all of the maintenance we desired. Based on the 
rapidly improving surface ship engineered maintenance requirement and 
the established aircraft, submarine, and aircraft carrier engineered 
maintenance requirements, the FY12 budget accurately reflects the 
resources necessary to maintain, modernize and modify our ships, 
submarines, and aircraft to reach their expected service life.
    Mr. Wittman. 3. Do you feel that that $15.9 billion is enough to 
sustain a 30 year shipbuilding plan with a goal of maintaining 313 
battle force ships? We have an aging Oliver Hazard Perry Class that 
accounts for 29 frigates and over 40 submarines that are either past 
their halfway point of commissioned service (6 that are at or over 30 
years of service) in the Los Angeles Class Submarine. Is the plan for 
313 battle force ships a realistic number and do we have the ability to 
reach this number when taking in to account the planned budget to reach 
that goal?
    Admiral Roughead. Yes. The requirement of 313 ships remains the 
floor and the Navy is committed to building to that floor. The funding 
in place supports the Navy plan of reaching that level in the next ten 
years.

    Mr. Wittman. Can you please talk about the 2 year probationary 
period that has been placed on the F-35B and how that is going to 
affect the Marine Corps Strike Fighter shortfall? If the F-35B 
struggles through test and evaluation, is there a backup plan to 
mitigate the risk of the F-35B being delayed in delivery to the USMC 
(will the USMC SLEP the AV-8 Harrier to sustain a STOVL capability or 
possibly invest in the F/A-18 E/F Super Hornet)?
    General Amos. The Secretary of Defense's decision to increase 
oversight and decrease early production of the F-35B was prudent. The 
primary contractor did not achieve fundamental program milestones on 
time, and the program lacked credible and tangible measurements for 
progress. I believe that the Secretary's move further serves to 
emphasize the need to procure a fully capable aircraft that judiciously 
maximizes value to taxpayer dollars.
    I believe the F-35B aircraft will succeed, but I also share the 
Department's concerns. That is why I am personally involved in tracking 
progress of this aircraft. The data that I evaluate on a daily basis 
suggests that our Short Take-Off and Vertical Landing (STOVL) test and 
evaluation is on track and exceeding expectations. In the first three 
months of this year, our test point collection overcame last year's 
shortfall. The test aircraft are flying more frequently, are collecting 
more test points per flight and are surpassing planning measures in a 
sustainable way. Two of our aircraft are currently preparing for the 
first ship trial period later this year. That will be an important 
milestone in demonstrating that our 5th generation tactical aircraft is 
capable of integrating into our Marine Air Ground Task Force aboard the 
amphibious ships of the Navy's Amphibious Ready Group.
    We agree that reduced F-35 production rates will slow transition. 
However, we also believe we can continue to successfully manage our 
inventory of legacy aircraft to meet operational commitments. We have a 
variety of service life management initiatives for legacy F/A-18 
aircraft. Our AV-8Bs do not require service life extensions, but we 
plan to reallocate aircraft to manage attrition. Our recent TACAIR 
Integration agreement with the Navy requires the Marine Corps to 
procure 80 F-35C variants which will afford us maneuvering room 
following the F-35B reductions in the near term. Of these 80 aircraft, 
we will procure 35 across the current Future Years Defense Program and 
stand up three Marine F-35C squadrons by FY18. These measures allow us 
to actively manage our TACAIR inventory until we gain the efficiencies 
of an all F-35 force--340 F-35B and 80 F-35C.
    The Marine Corps has no intention to procure the F/A-18 E/F Super 
Hornet. The Super Hornet lacks a 5th generation capability that our 
MAGTF requires across the Range of Military Operations now and in 
future decades. With its expected service life and necessary 
survivability upgrades, this platform does not meet our vision for 
TACAIR recapitalization.
    Mr. Wittman. Has significant testing been done with regard to the 
F-35B STOVL taking off and landing from the deck of an amphibious ship 
yet? If not, when do you predict that testing will take place? Do we 
know if the thrust and heat produced from the engine of the F-35B will 
have a negative effect on the steel flight deck and I-beam support of 
the deck . . . will the deck buckle or become unstable over time?
    General Amos. The F-35B test program has made substantial progress 
this year and is on track for the first Developmental Test Ship Trials 
scheduled in October through November 2011. During this trial, we will 
fully assess the environmental effects of the engine. After three years 
of focused analysis and preliminary tests in preparation for this 
event, we expect no significant damage or degradation will occur. The 
USS WASP will serve as the amphibious ship for this test and is being 
instrumented to assess the flight deck, substructure, and ancillary 
deck systems. The Marine Corps along with NAVSEA, NAVAIR, and the Joint 
Strike Fighter Joint Program Office has collaborated extensively to 
ensure F-35B operations aboard L Class amphibious ships are fully 
tested and representative of required standards.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. The events in the Middle East and Northern Africa 
continue to jeopardize our ability to operate freely on land and from 
those locations in the region where U.S. forces are based. Given this 
uncertainty in the region, it seems more important that our amphibious 
assault force is fully operational to address any threat throughout the 
world. However, the amphibious ship requirement of 33 is less than the 
38 requested by the Marine Corps. In fact, we are currently operating 
below the 33 ship requirement and won't reach that level until 2017.
    Given what is currently taking place in the Middle East and Africa, 
why do we find it acceptable to operate at the bare minimum and below 
with our amphibious forces? What actions are the Marine Corps taking 
with the Navy to improve the operational effectiveness of our 
amphibious forces?
    General Amos. The Marine Corps assesses that the future security 
environment will require a minimum of three forward deployed Amphibious 
Ready Groups/Marine Expeditionary Units (ARG/MEU). To meet this 
operational requirement, we have planned for an ARG/MEU presence in the 
PACOM, CENTCOM, and EUCOM/AFRICOM Areas of Operations. This necessity 
requires 38 amphibious ships to meet the Geographic Combatant Commander 
day-to-day partnering and engagement requirements as well as to be able 
to support the assault echelon of two Marine Expeditionary Brigades for 
a theater joint forcible entry operation. However, we have accepted 
risk at a minimum of 33 amphibious ships in our inventory. Due to 
decommissioning/commission and maintenance cycles, there are currently 
29 ships operationally available in the amphibious fleet. Based on 
projected fabrication cycles, we anticipate the amphibious ship 
inventory will rise again to 33 vessels in FY17.
    We are utilizing our Marine Corps Service Campaign Plan as a 
roadmap to strengthen and maintain our core competencies and to ensure 
we remain America's Expeditionary Force in Readiness. Our amphibious 
core competency figures prominently in our Service Campaign Plan, and 
as a result we have undertaken an array of exercise planning in this 
critical skill area. We will soon be conducting a Marine Air Ground 
Task Force Large Scale Exercise that will refine our capability to 
amphibious power projection and sustained operations ashore in a joint 
and interagency environment. In late 2010, we conducted Exercise Bold 
Alligator 2011, the first large-scale amphibious training exercise with 
the Navy on the East Coast in almost 10 years. This synthetic training 
event practiced planning for forcible entry operations against 
conventional and asymmetric threats and a large-scale non-combatant 
evacuation. We will take lessons learned from this exercise and build 
upon them for the next iteration of this important exercise with the 
U.S. Navy scheduled in the coming year.
    We are presently implementing a Naval Board that will provide a 
regular forum for senior-leader exploration of strategy, policy, naval 
concepts and doctrine, concepts of operation, technology, and resource 
issues to develop unified naval guidance for requirements. The Chief of 
Naval Operations (CNO) and Commandant of the Marine Corps (CMC) will 
approve recommendations from the Naval Board. The Naval Board will 
consider issues selected by the CNO or CMC as well as issues raised by 
the commanders of the Unified Combatant Commands, Navy and Marine Corps 
component commanders and their respective Fleet and Marine 
expeditionary force commanders, and through other venues as 
appropriate. Although the Board will initially focus on improving 
coordination of capability development processes, its considerations 
may include a range of other issues with Navy-Marine Corps implications 
such as integration of strategic planning and Service campaign 
planning; prioritizing research and development efforts; development of 
naval concepts; training and education programs; wargame design; and 
resource investment recommendations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. 1.) Secretary Mabus, based on the National Security 
Strategy's demand for theater security cooperation and engagement, I am 
interested in our nation's ability to meet the requirement for Marine 
Expeditionary Units/Amphibious Readiness Groups (MEUs/ARGs). What was 
the Combatant Commander's demand for Marine Expeditionary Units/
Amphibious Readiness Groups (MEUs/ARGs) during the last five years? How 
much of this demand was satisfied?
    Secretary Mabus. Demand by Combatant Commanders for naval forces 
has remained high during the last five years. The inherent flexibility 
and capabilities of Amphibious/Expeditionary forces makes them 
particularly desirable by COCOMs.
    Navy's current force structure can provide about five MEU/ARG 
deployments annually. While not able to meet the cumulative annual 
global COCOM MEU/ARG demand, Navy is meeting all adjudicated demands 
through the Global Force Management process, based on prioritizes 
requirements defined by the Guidance for the Employment of the Force.
    Mr. Coffman. 2.) Secretary Mabus, I applaud the efforts you have 
taken to identify efficiencies in the Department. I believe the 
reductions you have made to redundant staffs and large headquarters 
elements are a good step. Are there additional efficiencies to be had 
in other headquarters and staff organizations within the Department?
    Secretary Mabus. The Department's efficiencies focused on three 
overarching efforts: Buy Smarter, Streamline Organizations and 
Operations, and Reduce Fossil Energy Consumption. More specifically, by 
Streamlining Our Organizations and Operations (-$15.4B), we looked hard 
at ways to save money by eliminating duplicative staffs, streamlining 
all staffs, reducing contractor support, and looking at our personnel 
policies and practices. We focused on building a more efficient 
operation by reducing infrastructure overhead, and consolidating 
headquarters activities.

    Examples include:

    <bullet>  Reduce ashore manpower, reassign personnel to operational 
ships and air units; adjust special pays/advancements; and eliminate 
duplicative functions (-$4.7B).

    <bullet>  Disestablish Second Fleet headquarters; disestablish/
reorganize staffs for submarine, patrol aircraft, reserve aircraft, 
carrier staffs, and destroyer squadrons; and eliminate one carrier 
strike group staff ($-1.2B).

    <bullet>  Efficient utilization of personnel (force shaping) and 
examination of personnel policies/practices; develop housing/BAH 
efficiencies; and rebaseline advertising (-$1.4B).

    <bullet>  Reduce contractor support (-$1.7B).

    <bullet>  Streamline air/ship/equipment maintenance; revalidate 
flying hour program model; modify fleet training concepts; and 
restructure maritime prepositioning force squadrons ($-4.2B).

    <bullet>  Implement flexible and tailored responses to 
infrastructure sustainment ($-2.2B).

    While we do not foresee additional efficiencies to be garnered in 
other headquarters and staff organizations within the Department of the 
Navy at this time, we will continue the momentum to pursue streamlining 
efforts.
    Mr. Coffman. 3.) Secretary Mabus, the number of operational 
Aircraft Carriers and Submarines that the Navy is required to maintain 
are mandated by law. Are you in favor of mandating the requirement to 
maintain the Navy and Marine Corps' published need for a minimum of 33 
operational amphibious ships?
    Secretary Mabus. I do not believe mandating the number of 
operational amphibious ships the Navy is required to maintain is 
necessary or desirable as it would affect the flexibility and force 
structure decision-making going forward that the Navy and Marine Corps 
share in providing a capable, adaptable, amphibious force. The Navy and 
Marine Corps continuously evaluate amphibious lift capabilities to meet 
current and projected requirements. Specifically:
    In the January 2009 Report to Congress on Naval Amphibious Force 
Structure, the Chief of Naval Operations and the Commandant of the 
Marine Corps reaffirmed that 38 amphibious ships are required to lift 
the Assault Echelon (AE) of 2.0 Marine Expeditionary Brigades (MEBs). 
They agreed to sustain, resources permitting, an amphibious force of 
about 33 total amphibious ships in the AE, evenly balanced at 11 
aviation-capable ships, 11 LPD 17 class ships, and 11 LSD 41 class 
ships. The 33 ship force accepts risk in the arrival of combat support 
and combat service support elements of the MEB but has been judged to 
be adequate in meeting the needs of all parties within the limits of 
today's fiscal realities. The 33 ships represent the limit of 
acceptable risk in meeting lift requirements for the Assault Echelon in 
a two MEB forcible entry operation, the capacity to sustain a day-to-
day forward posture of Amphibious Ready Groups with the full deployment 
capacity of Marine Expeditionary Units. In addition, a force of this 
size will provide sufficient capacity for single-ship deployments for 
theater security cooperation activities.
    The recently completed Report of the 2010 Marine Corps Force 
Structure Review of March 14, 2011 concluded that: ``The dual demands 
of sustained forward presence and sufficient lift for the assault 
echelons of two Marine Expeditionary Brigades (MEB) result in a 
requirement of 38 amphibious ships. Given fiscal constraints, however, 
the Navy and Marine Corps have agreed to accept the risk with 33 ships, 
increasing the imperative to design a lean and effective force 
structure. We will also explore options for employing Marines from a 
wider variety of Navy ships, seeking innovative naval solutions to GCC 
requirements.''
    In addition to the Department of the Navy's internal reviews, the 
Quadrennial Defense Review Report of February 2010 determined that the 
main elements of the Navy force structure should include 29--31 
amphibious warfare ships for the duration of the Future Years Defense 
Program (FYDP) (Fiscal Year (FY) 2011--FY 2015).
    Mr. Coffman. 4.) The Department of the Navy (DON) has led the DOD 
in establishing secure, enterprise-wide networking through the Navy 
Marine Corps Intranet (NMCI) and is to be commended for its leadership. 
However, the planned NGEN procurement contemplates a segmentation 
approach that proposes to split a unified network into at least four 
pieces, creating multiple, overlapping points of accountability across 
the network, leading to more complexity and likely higher overhead 
cost, slower problem resolution and most importantly, increased risk of 
security breaches. How much does the DON plan to spend on the NGEN 
procurement and why does the DON believe the proposed segmented plan is 
an improvement to the current IT NMCI/COSC program?
    Secretary Mabus. NGEN Increment 1 is the follow-on to the Navy 
Marine Corps Intranet (NMCI). NGEN will provide secure, net-centric 
data and information technology (IT) services and support to the United 
States Navy (USN) and United States Marine Corps (USMC) within the 
Continental United States (CONUS) and Outside the Continental United 
States (OCONUS). NGEN will position the DON for transition to the Naval 
Networking Environment (NNE) vision, and will be interoperable with and 
leverage other DoD provided Net-Centric Enterprise Services (NCES). 
NGEN is the foundation for the future Naval Networking Environment 
(NNE). It is the continuous evolution of the DON enterprise networks 
acquisition life-cycle, and the transition from the congressionally 
mandated end of the NMCI contract.
    The primary objectives of NGEN Increment 1 are to establish 
Government operational control of the networks and to provide service-
specific network operation. The objectives will be accomplished via the 
acquisition of necessary NMCI infrastructure and Government Purpose 
Rights (GPR) of the NMCI Intellectual Property (NMCI IP). Government 
operational control of the network will be implemented using a phased 
transition approach and will be complete when the Network Operations 
(NetOps), Command and Control, Design Authority (DA), and Technical 
Authority (TA) of the network have transitioned to the DON. In 
addition, increased competition, to include the ability to periodically 
recompete this network capability were a critical objective supported 
by Congress, DoD and DON. The DON's segmented approach, along with 
ownership of the infrastructure, and license to the IP accomplishes 
this goal.
    The current DON budget profile (PB12) reflects the Navy's position 
regarding funding the NGEN procurement as follows (FY10 and prior years 
were budgeted under NMCI. The cost of NMCI is not included): (See page 
194.)
    A new Program Manager for Naval Enterprise Networks (PMW-205) 
recently reported and is currently in the midst of conducting an 
initial program review to include the appropriateness and cost of 
current acquisition processes as applied to the transition of an 
existing capability to a new delivery model (i.e., segmented, 
government ownership and operations). The NGEN program is currently in 
the process of developing its Service Cost Position (SCP). With the 
assistance of the Naval Center for Cost Analysis (NCCA) a solid ``will 
cost'' position will be developed with appropriate sensitivity analysis 
and identification of program cost drivers. Once the NGEN ``will cost'' 
position is developed, the program manager will work toward a program 
``should cost'' total.

    Mr. Coffman. 1.) Are you comfortable with the level of risk of 
operating amphibious ships within 12-15 Nautical Miles of enemy 
coastlines instead of the former 25 Nautical Mile planning guidance?
    Admiral Roughead. Yes. Over the last two decades, threats in the 
littorals and US capabilities to counter those threats have evolved. 
Improvements in US area-defense and self-defense capabilities (fielded 
and in development) mitigate potential threats to an acceptable level 
of risk that I am comfortable with our naval forces launching 
amphibious vehicles from a 12 nautical mile standoff distance.
[GRAPHIC] [TIFF OMITTED] T5108.102

                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. 1) With the proposed repeal of the DADT policy, what 
changes to facilities are you contemplating to address the privacy and 
concerns of service members?
    Admiral Roughead. There is no requirement to make any facility 
changes.
    Mrs. Hartzler. 2) What costs do you anticipate it costing to make 
these changes?
    Admiral Roughead. There are no identified costs because there is no 
requirement to make any facility changes.
    Mrs. Hartzler. 3) What policies are being put in place to ensure 
all service members' concerns will be considered without fear of 
reprisal?
    Admiral Roughead. Current policies ensure all service members have 
multiple avenues through which they can address their concerns. Service 
members who believe they have suffered discrimination or reprisal for 
communicating their concerns may petition for redress through their 
chain of command or legal office via existing grievance procedures 
under UCMJ Article 138 or Navy Regulations Article 1150. Similarly, 
service members with individual concerns or questions about the repeal 
of DADT may seek guidance through their chain of command. The Navy's 
approach is founded on professionalism, treating everyone with dignity 
and respect, and Standards of Conduct that apply without regard to 
sexual orientation.
    Mrs. Hartzler. 4) Given what is known about the normal human desire 
for privacy in sexual matters, why would policies requiring the 
constant cohabitation of mixed sexual orientation groups not undermine 
morale, disciple, and readiness, recruiting, and retention?
    Admiral Roughead. In the Navy, we live and work in close quarters 
in many of our operating environments with individuals from diverse 
backgrounds. We expect all Sailors to treat their fellow shipmates with 
dignity and respect, and maintain high standards of behavior. This will 
not change following repeal of DADT. As in all situations, commanders 
may make reasonable accommodations in the interest of maintaining 
morale, good order, and discipline, consistent with the performance of 
the mission and the environments in which we live.
    Mrs. Hartzler. 5) How would these changes improve the All-Volunteer 
Force?
    Admiral Roughead. Although I cannot quantify the extent to which 
repeal of DADT would improve the all-volunteer force, I believe repeal, 
in the long-term, will make our Navy better. Gay and lesbian Sailors 
already serve in our Navy. Repeal will end the unnecessary loss of 
these talented and dedicated men and women from the Service and improve 
our ability to provide an environment in which all Sailors will be able 
to serve with honesty and integrity. I am confident that the 
professional men and women of the United States Navy will ensure we 
remain the world's most ready, capable, and professional Navy in which 
all shipmates continue to be treated with mutual dignity and respect.

    Mrs. Hartzler. With the proposed repeal of the DADT policy, what 
changes to facilities are you contemplating to address the privacy and 
concerns of service members?
    General Amos. The Secretary of Defense has been clear that the 
Services will not prescribe berthing or billeting assignments based on 
sexual orientation.
    Mrs. Hartzler. What costs do you anticipate it costing to make 
these changes?
    General Amos. The Marine Corps does not anticipate any costs as 
separate facilities will not be established based on sexual 
orientation.
    Mrs. Hartzler. How essential do you think it is for service member 
to be able to focus on their mission without distraction?
    General Amos. The Marine Corps is a disciplined, professional force 
trained to accomplish its mission regardless of environment. I have 
tendered my best judgment to the Secretary of Defense that the United 
States Marine Corps is prepared for the implementation of DADT repeal. 
The Marine Corps has conducted extensive training within the force on 
DADT repeal and has the applicable policies and regulations necessary 
for implementation that are consistent with standards of military 
readiness, military effectiveness, unit cohesion, and recruiting and 
retention. I assess the impact of implementation to be low to moderate. 
We intend to resolve any issues that may arise through engaged 
leadership and discipline.
    Mrs. Hartzler. Do you support the idea of, or do you think it is 
wise policy, for men and women service members to sleep in the same 
barracks and shower together?
    General Amos. Sexual orientation is not synonymous with gender. The 
Marine Corps' and other Services' gender-based barracks have deep roots 
in longstanding societal and cultural norms. While males and females 
reside in the same barracks buildings, they have separate room 
assignments and individual shower facilities within their rooms. We 
maintain gender separate room assignments now and currently see no 
reason to change the current assignment policy.
    Mrs. Hartzler. Given what is known about the normal human desire 
for privacy in sexual matters, why would policies requiring the 
constant cohabitation of mixed sexual orientation groups not undermine 
morale, disciple, and readiness, recruiting, and retention?
    General Amos. The Marine Corps is a disciplined, professional force 
trained to accomplish its mission regardless of environment. I have 
tendered my best judgment to the Secretary of Defense that the United 
States Marine Corps is prepared for the implementation of DADT repeal. 
The Marine Corps has conducted extensive training within the force on 
DADT repeal and has the applicable policies and regulations necessary 
for implementation that are consistent with standards of military 
readiness, military effectiveness, unit cohesion, and recruiting and 
retention. I assess the impact of implementation to be low to moderate. 
We intend to resolve any issues that may arise through engaged 
leadership and discipline.
    Mrs. Hartzler. How would these changes improve the All-Volunteer 
Force?
    General Amos. Upon implementation of DADT repeal, the Marine Corps 
will continue making concerted efforts to attract, mentor and retain 
the most talented men and women who bring a diversity of background, 
culture and skill in service to our Nation. As always, we will raise 
our total capability by leveraging the strengths and talents of each 
and every Marine.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. 1. Admiral Roughead, you were quoted recently in the 
San Diego Business Journal expressing the needs of the Navy as it 
relates to the continuing resolution that we are currently operating 
under. I think it is extremely important that the Department of Defense 
is funded appropriately, through the regular appropriations process. 
According to the same article the Navy has had to delay or cancel 29 
trips to shipyards, could you give us an overview of the long term 
effects of this delayed funding and the consequences it holds for our 
Navy, our military as a whole and the Defense Industry?
    Admiral Roughead. Regrettably, the series of continuing resolutions 
(CR) for FY 2011 prevented us from applying the increased FY 2011 O&M 
funding to improve our readiness, and it negatively impacted our 
ability to procure our future Navy and support our Sailors, Navy 
civilians, and their families. It forced us to take mitigation measures 
that included: reducing operations, limiting numerous contracts for 
base operating support, slowing civilian hiring, reducing Permanent 
Change of Station notifications for our Sailors from about six months 
lead time to less than two months, not initiating the Small Business 
Innovative Research program, and delaying procurement contracts for new 
capabilities and existing production lines. Starting in March, we 
cancelled or scaled back several ship maintenance availabilities in 
Norfolk, Mayport, and San Diego and MILCON projects in many states. The 
impact of these actions will jeopardize the efforts we made in recent 
years to restore Fleet readiness.
    With the passage of a full year funding bill we will make every 
effort to reverse these actions, but their initial impact will have 
negative downstream effects in our maintenance and MILCON portfolios 
for many y ears.
    Mr. Palazzo. 2. The fiscal year 2012 budget request includes a $15 
million military construction project for road improvements at Naval 
Station Mayport. The request is the first of several military 
construction projects that the Navy anticipates will cost $564 million 
to provide the supporting infrastructure for a nuclear aircraft 
carrier. The Navy cites the strategic risk of locating all nuclear 
aircraft carriers on the East Coast at a single location as the 
principal reason to relocate an aircraft carrier to Mayport. If 
strategic dispersal is central to the Navy's decision, why did the Navy 
abandon strategic dispersal in the Gulf of Mexico in BRAC 2005 through 
the closure of Naval Station Ingleside and especially Naval Station 
Pascagoula?
    Admiral Roughead. Strategic dispersal remains a key aspect of Navy 
planning for, and mitigation of, manmade or natural disasters along our 
coasts. As the Navy grew its Fleet size to almost 600 ships in the 
1980s, it constructed four naval bases, including Naval Station 
Ingleside and Naval Station Pascagoula, to support and disperse those 
additional ships. As the size of our Fleet has decreased over the last 
thirty years to 287 ships today, the Navy has methodically closed or 
consolidated its presence in many ports, including at Ingleside and 
Pascagoula as part of BRAC 2005.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WEST
    Mr. West. 1) Do you believe that the Navy--as currently funded--has 
the ability to execute proper force projection in order to protect the 
sea lanes of commerce throughout the world, specifically off the coast 
of Somalia?
    Secretary Mabus and Admiral Roughead. The Navy provides maritime 
forces to Combatant Commanders (CCDR) to accomplish their assigned 
missions, which include force projection and sea control. Our readiness 
and operational support programs will meet the anticipated CCDR demand 
for Navy forces within force structure constraints and provide surge 
forces in support of operational plans, with an acceptable level of 
risk. Although total CCDR demand exceeds Navy's capability to source, 
the world's sea lanes remain protected.
    Navy's forward stationed and rotationally deployed forces cooperate 
with allies and partners to promote collective security, enhance global 
stability and confront irregular challenges. We join with navies and 
coast guards around the world to support the stability and security of 
the global maritime commons; a prime example of our maritime strategy 
in action. As articulated in that strategy, enhanced global stability 
and secure freedom of the seas benefits all nations.
    Mr. West. 2) Considering the recent developments in the Middle 
East--specifically in Bahrain--what is the current risk to the long-
term viability of the 5th Fleet stationed in Bahrain?
    Secretary Mabus and Admiral Roughead. There has been no change in 
the status of the relationship between COMUSNAVCENT/C5F and the 
Government of Bahrain. The Government of Bahrain continues to fully 
support hosting Naval Support Activity-Bahrain (NSA-Bahrain) and its 
tenant commands. The King and Crown Prince have stated their continuing 
support to the U.S. Navy presence in the Kingdom of Bahrain. We do not 
expect a change in the Bahraini government's attitude toward hosting 
NSA-Bahrain. To date, there are no known credible threats to U.S./
Coalition forces or bases. There have been incidents of direct anti-
Western/anti-U.S. (but not specifically against U.S. Navy) sentiment. 
We view the Government of Bahrain's allegations that Iran could support 
specific measures in an effort to influence the opposition movement in 
Bahrain with concern.
    Mr. West. 3) Myself and a number of my colleagues are concerned 
about so-called invisible wounds, such as Traumatic Brain Injury. What 
can you tell me about the Department of the Navy's efforts with 
Hyperbaric Oxygen Therapy (HBOT) and Cognitive Stimulation?
    Secretary Mabus and Admiral Roughead. We are committed to providing 
all scientifically proven and FDA-approved therapies to our Sailors, 
Marines and their family members. As soon as there is evidence to 
ensure safety and efficacy of any new therapy such as HBOT, including 
documentation from well-designed, adequately controlled medical 
research studies, we move forward to make it available to our injured 
service members. In this regard, the Department of Defense has three 
trials in progress to assess the safety and efficacy of HBOT on the 
symptoms of mild and moderate traumatic brain injury. The Air Force 
study at Wilford Hall Medical Center recently completed enrollment and 
follow-up visits; and the DARPA/VA funded study is ongoing at the Navy 
operational hyperbaric oxygen chambers in Panama City, Florida. In 
addition, a large DoD multi-site study will utilize the hyperbaric 
oxygen chambers at Naval Hospital Camp Lejeune and Naval Hospital Camp 
Pendleton. Navy Medicine is working with their Army and Air Force 
counterparts to see these three studies completed safely and 
efficiently.
    With respect to Cognitive Rehabilitation Therapy, Navy Medicine has 
recently initiated formal pilot programs at four sites that serve large 
Marine populations including: Naval Hospital Camp Lejeune; Naval 
Hospital Camp Pendleton; Naval Medical Center San Diego; and Naval 
Medical Center Portsmouth. All four pilot sites have interdisciplinary 
treatment teams that meet to discuss patients and their general 
progress, as well as cognitive rehabilitation. Cognitive rehabilitation 
interventions offered at the sites address the domains of attention, 
memory, processing speed, executive functioning, emotional regulation, 
and social pragmatics through individual and group therapy and training 
sessions. Outcome measures are collected using standardized 
psychological, cognitive, and neuropsychological assessments before and 
after treatment to document progress. Many other Navy medical treatment 
facilities offer forms of cognitive rehabilitation to their patients, 
frequently through the neuropsychology, behavioral health, and/or 
speech language therapy clinics.

                                  <all>

</pre></body></html>
